<html>
<title> - OVERSIGHT HEARING ON CLIMATE CHANGE: THE IMPACTS AND THE NEED TO ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            CLIMATE CHANGE: THE IMPACTS AND THE NEED TO ACT

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, February 6, 2019

                               __________

                            Serial No. 116-1

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-954 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbaadb29dbea8aea9b5b8b1adf3beb2b0f3">[email&#160;protected]</a>                       
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Vacancy
Vacancy
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                   
                   
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 6, 2019......................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4

    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan, prepared statement of...................   114

    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

    Hice, Hon. Jody B., a Representative in Congress from the 
      State of Georgia, prepared statement of....................   115

Statement of Witnesses:

    Baker, Hon. Charlie, Governor, State of Massachusetts, 
      Boston, Massachusetts......................................    17
        Prepared statement of....................................    19
        Questions submitted for the record.......................    27

    Cobb, Kim, Director, Global Change Program; Advance 
      Professor, Earth & Atmospheric Sciences, Georgia Institute 
      of Technology, Atlanta, Georgia............................    64
        Prepared statement of....................................    66
        Questions submitted for the record.......................    70

    Cooper, Hon. Roy, Governor, State of North Carolina, Raleigh, 
      North Carolina.............................................     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    10

    Curry, Judith A., President, Climate Forecast Applications 
      Network, Reno, Nevada......................................    83
        Prepared statement of....................................    85
        Questions submitted for the record.......................    93

    DiPerna, Paula, Special Advisor, CDP North America, New York, 
      New York...................................................    71
        Prepared statement of....................................    73

    Hollie, Derrick, President, Reaching America, Bennsville, 
      Maryland...................................................    80
        Prepared statement of....................................    81
        Questions submitted for the record.......................    82

    Nazar, Nadia, Co-Founder, Co-Executive Director, and Art 
      Director, Zero Hour Movement; Co-Organizer of the Youth 
      Climate March, Perry Hall, Maryland........................    54
        Prepared statement of....................................    56

    Yeampierre, Elizabeth, Executive Director, UPROSE, Co-Chair 
      of the Climate Justice Alliance, Brooklyn, New York........    59
        Prepared statement of....................................    61
        Questions submitted for the record.......................    64

    Yearwood, Lennox, Jr., President and CEO, Hip Hop Caucus, 
      Washington, DC.............................................    77
        Prepared statement of....................................    79


Additional Materials Submitted for the Record:

    Facebook, Letter dated February 8, 2019, Submitted for the 
      Record.....................................................   115

    List of documents submitted for the record retained in the 
      Committee's official files.................................   116

    Submissions for the Record by Rep. Graves

        Letter addressed to the President from Senators Cantwell, 
          Schumer, Menendez, and Markey on oil production dated 
          May 23, 2018...........................................    43
        Average Electricity Prices for each State, chart.........    45

    Submission for the Record by Rep. Grijalva

        Highlights from the NOAA Report, U.S. and Global Climate 
          for 2018...............................................    46

    Submission for the Record by Rep. Westerman

        Dilbert Cartoon..........................................    49
                                     


 
  OVERSIGHT HEARING ON CLIMATE CHANGE: THE IMPACTS AND THE NEED TO ACT

                              ----------                              


                      Wednesday, February 6, 2019

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Napolitano, Costa, 
Sablan, Huffman, Lowenthal, Cox, Neguse, Levin, Haaland, Van 
Drew, Cunningham, Velazquez, Clay, McEachin, Case, Horsford, 
Bishop, Gohmert, Lamborn, McClintock, Gosar, Westerman, Graves, 
Webster, Hern, and Fulcher.

    The Chairman. Let me call the Committee on Natural 
Resources to order.
    The Committee today is meeting to hear testimony on the 
impacts of climate change and the need for Congress and the 
Administration to act.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    Welcome, everyone, to the first hearing of the 116th 
Congress for the Natural Resources Committee, and thank you to 
our witnesses for appearing before us, as we begin to tackle 
one of the most urgent and pressing challenges of our time.

 THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    The Chairman. The majority of Americans consider meaningful 
action on climate change to be a moral and economic imperative. 
They are absolutely right. And they have friends on this 
Committee, including myself and other colleagues who are here 
to work on solutions.
    Climate change is real. The emissions we produce from 
burning fossil fuels are making it worse. It is a threat to our 
public health, national security, infrastructure, and natural 
resources. We are seeing the impacts now, and they will grow 
stronger unless we change course.
    Our communities are paying the price for years of inaction 
on this issue. The massive and unprecedented storms, heat 
waves, fires, and droughts we are experiencing are not normal. 
They are being made worse by climate change, and if we don't 
take action now, we are only at the beginning of this process.
    The last 4 years have been the 4 hottest years ever 
recorded. Ice sheets are melting far faster than previously 
thought. The coast of Alaska is literally disappearing into the 
ocean. Indigenous villages are already having to relocate.
    We will see more climate refugees as time goes on. Parts of 
our planet where people currently live may very well become 
uninhabitable.
    Every day that we fail to act increases the costs of 
addressing this crisis for future generations. Putting our 
heads in the sand puts people's lives at risk and our Nation's 
safety in jeopardy.
    Today, we turn the page on this Committee from climate 
change denial to climate action. The Democratic Majority is 
here to listen to people, to work for people, to hear from 
Americans across the country from all walks of life whose 
experiences emphasize the need to address this crisis.
    The rest of the world understands the urgent need to take 
action on climate change. The Trump administration chooses to 
mock science and mislead the public about what our country will 
look like if we do nothing.
    As President Trump seeks to expand fossil fuel production 
on public lands, roll back the protections for clean air and 
clean water, suppress the role of science, and turn his back on 
international agreements, we have situations.
    That is why states, local community leaders, businesses, 
and many others are stepping up. They can't wait for action 
from an Administration that appears not to care about their own 
well-being and of their constituents.
    This is a great opportunity for American entrepreneurs to 
lead the way in creating and deploying new energy technologies 
the world will need. But with people's lives in imminent 
danger, we know that we need more than innovation; we need good 
policies.
    Climate change is a matter of social justice. Communities 
of color and tribes are disproportionately impacted by climate 
change, and will continue to struggle unless we take action.
    Along with testimony from our witnesses today, I invite the 
public to provide their climate crisis stories at 
www.naturalresources.house.gov. I would like to briefly share 
just one of the many stories we have already heard from the 
public. This is from a woman named Katie Davis, from Goleta, 
California.
    ``Last July on a freakishly hot night that broke records 
across Southern California, a fire suddenly broke out in our 
neighborhood due to hot winds, the likes of which I've never 
felt before, that pushed flames toward us rapidly. It was one 
of the most terrifying moments of my life. We ran out of the 
house with nothing, no time to prepare, and fled. Our house 
survived with minor damage, but on that anguishing night most 
of the houses on our street burned down. I look at the 
foundations of five burned down houses as I write this.''
    These are the stories we need to hear in this Committee and 
in this Congress. The best policies are informed by a 
combination of sound science and informed public input. These 
are the guideposts for this Committee, both in our hearing 
today and everything we do in the next 2 years. Climate change 
is an urgent problem. It demands urgent action and a sense of 
purpose from Congress. This Committee will offer both.
    And I want to thank you again to the witnesses. I look 
forward to your testimony.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    The Committee on Natural Resources will now come to order.

    The Committee is meeting today to hear testimony on the impacts of 
climate change and the need for Congress and the Administration to act.
    Under Committee Rule 4(f), any oral opening statements at hearings 
are limited to the Chairman and the Ranking Minority Member.
    Welcome everyone to the first hearing of the 116th Congress for the 
Natural Resources Committee and thank you to our witnesses for 
appearing before us as we begin to tackle one of the most urgent and 
pressing challenges of our time.
    The majority of Americans consider meaningful action on climate 
change a moral imperative. They're absolutely right. And they have 
friends on this Committee, including the Chairman, who are here to work 
on solutions.
    Climate change is real. The emissions we produce from burning 
fossil fuels are making it worse. It's a threat to our public health, 
national security, infrastructure, and natural resources. We are seeing 
its impacts now, and they will only grow stronger unless we change 
course.
    Our communities are paying the price for years of inaction on this 
issue. The massive and unprecedented storms, heat waves, fires, and 
droughts we are experiencing are not normal. They are being made worse 
by climate change, and if we don't take action now, we're only at the 
beginning.
    The last 4 years have been the 4 hottest years ever recorded. Ice 
sheets are melting far faster than previously thought. The coast of 
Alaska is literally disappearing into the ocean. Indigenous villages 
are already having to relocate.
    We will see more climate refugees as time goes on. Parts of our 
planet where people currently live may very well become uninhabitable.
    Every day we fail to act increases the costs of addressing this 
crisis for future generations. Putting our heads in the sand puts 
peoples' lives at risk and our Nation's safety in jeopardy.
    Today, we turn the page on this Committee from climate denial to 
climate action. The Democratic Majority is here to listen to the 
people. To work for the people. To hear from Americans across the 
country, from all walks of life, whose experiences emphasize the need 
to address this crisis.
    The rest of the world understands the urgent need to take action on 
climate change. The Trump administration chooses to mock science and 
mislead the public about what our country will look like if we do 
nothing.
    President Trump seeks to expand fossil fuel production on public 
lands, roll back protections for clean air and clean water, suppress 
the role of science, and turn his back on international agreements.
    That's why states, local community leaders, businesses and many 
others are stepping up. They can't wait for action from an 
Administration that doesn't care about their well-being.
    There is a great opportunity for American entrepreneurs to lead the 
way in creating and deploying new energy technologies the world will 
need. But with people's lives in imminent danger, we know that we need 
more than innovation. We need good policies.
    Climate change is a matter of social justice. Communities of color 
and tribes are disproportionately impacted by climate change and will 
continue to struggle unless we take action.
    Along with testimony from our witnesses today, I invite the public 
to provide their climate crisis stories an naturalresources.house.gov. 
I'd like to briefly share just one of the many stories we've already 
heard from the public. This is from a woman named Katie Davis who wrote 
to us from Goleta, California: ``Last July on a freakishly hot night 
that broke records across Southern California, a fire suddenly broke 
out in our neighborhood due to hot winds, the likes of which I've never 
felt before, that pushed flames toward us rapidly. It was one of the 
most terrifying moments of my life. We ran out of the house with 
nothing, and no time to prepare, and fled. Our house survived with 
minor damage, but that anguishing night most of the houses on our 
street burned down. I look out at the foundations of five burned out 
houses as I write this.''
    These are the stories we need to hear in this Committee and in this 
Congress. The best policies are informed by a combination of sound 
science and informed public input. Those are the guideposts for this 
Committee, both in our hearing today and in everything we do for the 
next 2 years. Climate change is an urgent problem. It demands urgent 
action and a sense of purpose from Congress. This Committee will offer 
both.

    Thank you again to the witnesses. I look forward to your testimony.

    I now recognize Ranking Member Bishop for his opening statement.

                                 ______
                                 

    The Chairman. I now recognize the Ranking Member, Mr. 
Bishop, for his opening statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Congratulations, Mr. Grijalva, on your first 
Full Committee chairing. I know you had a Ranking Member 
chairmanship at the time, but that was a long, long time ago. I 
am happy to have you here, happy to be here for this particular 
discussion.
    I know you have made February as Climate Change Month. I 
appreciate the fact that you picked the shortest month of the 
year to do that.
    Also, it happens to be, of course, Black History Month, 
which I wish we could deal with some other things. Because in 
the last couple of years, this Committee has done some 
significant issues in the area of Federal lands and projects. I 
mean we have expanded the Martin Luther King home, historic 
site, as well as the Central High School in Little Rock, 
Arkansas, which I had the opportunity of going to this summer, 
and was amazed at how actually great that was, as a narrative 
history of what is going on here.
    We will have, in the last package the Senate is pushing 
over, the establishment of the Medgar Evers National Monument, 
Camp Nelson National Monument. We also did the Kennedy-King 
Historic Area in Indiana this particular year, as well as the 
African-American Civil Rights Network, and re-authorizing 
historically black colleges and university preservation grant 
programs.
    All of those are within the purview of this Committee. That 
is our jurisdiction, talking about those kinds of things would 
be very positive. In the ones I have just listed to you also 
there is a $41 million maintenance backlog, just on the 
programs I just enunciated. Talking about that is in the 
jurisdiction of this Committee.
    The Chairman has been very good in helping us come up with 
ways of funding that maintenance backlog creatively in the 
past. I hope that we can actually get to those kind of 
activities, which would be extremely important.
    All right. Now, focusing to the topic of this particular 
meeting, it is my hope that what we do is coming up with ways 
we can actually help people.
    Utah, for example, has had terrible air. It is part of the 
topography, especially in the winter time. But it is much 
better than the air that Representative Curtis and I grew up in 
in Utah, simply because of the actions of the state of Utah. 
EPA and other Federal agencies over the last 15 years haven't 
done squat, but the state has made major changes. And I hope 
that we can look at how we can do those types of changes.
    I appreciate the fact that we have two governors here with 
us today. Thank you for being here. Once again, it would have 
been nice to have known some of the topics of this hearing, 
even though Rule 4(c) requires that to be in there, and 
transparency requires it. We did not have time to invite 
another governor. I would have loved to have a governor from 
the West come here and join you two, simply because they are, 
unfortunately, in the middle of our legislative sessions, or 
the beginning of their legislative sessions, and could not make 
it in such short notice. But they actually have Federal lands 
over which we have jurisdiction that would be an input.
    But I hope that you guys can enlighten us, even though you 
are only governors. You are one of those peons that work in the 
outer hinterlands of America that really aren't as important as 
we here in the Federal Government.
    [Laughter.]
    Mr. Bishop. So, we appreciate your groveling before us, 
because all of us and the agencies breathe the rarified air and 
drink the leaded water of Washington. Therefore, we know 
exactly what is right to do. And for you to actually come here 
on hands and knees, I appreciate that.
    I hope, though, in the process, you can give us some ideas 
of what you all are trying to do in your states, how maybe 
permitting process--we can work with you easier to actually 
allow states to become partners with us, instead of being 
dominated by us, to find real solutions for real people. That, 
I hope, is the ultimate goal of what we are attempting to do.
    As I said, Utah has amazingly bad air in the winter. It is 
part of the topography. When it is snowing on the ground, the 
mountains prohibit any kind of wind gust from cleaning out the 
atmosphere. We never have bad air in the summer, except for 
this year, which meant that as every forest burned in 
California, a week later we were breathing the air of the 
burned California. And that was unique.
    And it is going to happen again, unless we actually can do 
something about that, which is why the frustration I had with 
the Senate using the filibuster to gut most of the forest fire 
reforms that we passed. That is one of the things that is in 
the jurisdiction of this Committee, and I wish we were talking 
about that.
    If we actually were able to control forest fires by 
different managing systems that are experts, like Mr. 
Westerman, who has a doctorate in this area, that the experts 
from the Forest Service in both the Obama and Trump 
administrations told us they needed to do to manage the lands, 
we could actually help with the environment.
    There is another one, too. Even though a lot of the people 
who are--well, carbon sequestration. If we actually want to get 
carbon out of the air, there are enough new studies that are 
being done, specifically in Portugal and Australia, and here in 
the United States, as well, that talk about the way of using 
carbon sequestration--to use plant life, which needs carbon, to 
suck it out of the air and put it into the ground where it 
could be useful for plant life, and then also help clean the 
air. That is the jurisdiction of this Committee. And those are 
the kinds of things I hope we can do to talk about specific 
issues.
    So, I have to mention I am at kind of a loss. I do not know 
where this hearing is going, or the other six hearings you 
planned, because you simply haven't told us where the goal is. 
At some point we may be asking, ``Where are we going?''
    What is the real legislation to help people that is 
supposed to come out of these hearings--to understand whether 
these hearings are simply for those of us around the horseshoe 
who are going to make legislation.
    Or are these hearings designed for that group that is 
sitting at a table in the corner so they can write cute 
stories?
    Once again, we have not been given the detail of where 
these hearings are going. We would like to know that in the 
future.
    With that, we are ready to get started on this wonderful 
new adventure in a month that has only 28 days. But I would 
like Rule 4(c) to be instituted so that we actually can have 
greater understanding and preparation so we can participate 
fully with you in these hearings.
    And governors, thank you for joining us. Thank you for 
groveling before us. I am looking forward to your testimony.
    I yield back.

    The Chairman. Thank you, Mr. Bishop. And I can assure you 
that, in terms of all the areas of jurisdiction, and on this 
particular topic that I think has significance and consequences 
over all our jurisdictions that this Committee is under, that 
we will aptly be able to--and adroitly, as well--chew gum and 
walk. We can do all these things.
    Mr. Bishop. Are you saying that because I am chewing gum?
    The Chairman. Yes.
    Mr. Bishop. OK, fine.
    The Chairman. Thank you. I would like to introduce our 
first panel, our distinguished panel, which consists of the 
governor of North Carolina, the Honorable Roy Cooper, and the 
governor of Massachusetts, the Honorable Charles Baker. I 
appreciate them being here, taking the time--in particular, 
bringing an insight.
    I don't know if it is so much a question of groveling, but 
setting an example where, across party lines, people confront 
the issue of climate change, the effect on their constituents, 
and begin to take action. I think that is an important example 
that we need to remind ourselves, that we are not impotent to 
do nothing about this. We can, and we should. And the point is 
that we have elected executives here, governors, who can speak 
to those issues today, and I welcome them.
    I want to particularly thank Governor Baker for scheduling 
the Patriots' victory parade yesterday so that he could be 
here, and it wouldn't conflict with this hearing. I very much 
appreciate it.
    Under our Committee Rules, oral statements are limited to 5 
minutes, but your entire statements will appear in the hearing 
record.
    The lights in front of you will turn yellow when there is 1 
minute left in the presentation, and red when time is up.
    After the governors have testified, Members will be given 
the opportunity to ask them questions.
    I would like to inform the members of the Committee that, 
due to commitments, the governors can only be here--we have a 
hard stop of 11:30 a.m. So, depending on how many Members are 
here, we may need to shorten the time each Member has to ask 
questions.
    With that, the Chair now recognizes Governor Cooper of 
North Carolina for his testimony.
    Welcome, sir. The floor is yours.

  STATEMENT OF THE HON. ROY COOPER, GOVERNOR, STATE OF NORTH 
               CAROLINA, RALEIGH, NORTH CAROLINA

    Governor Cooper. Thank you, Chairman Grijalva, for your 
hospitality. Thank you, Ranking Member Bishop, for your 
expression of humility through humor. Thanks to all of the 
other members of the Committee. We are grateful to be here 
today.
    As a lifelong resident and now it is governor, I know that 
North Carolina is a fantastic place to live, grow a family, and 
have a business. Between our majestic mountains, miles of coast 
land, and scenic tourist venues, a visit to North Carolina is 
bound to be the time of your life.
    But just like many places in our country and across the 
globe, we are beginning to feel the harsh effects of climate 
change on our communities and on our economy. Scientists have 
found that climate change makes weather more erratic. It makes 
storms larger and more powerful. And it intensifies heavy 
rainfalls and drought.
    North Carolinians, unfortunately, know about this the hard 
way. We have weathered two so-called 500-year floods within 2 
years, and three of them within 20 years.
    In the western North Carolina mountains, erratic weather 
has caused mudslides, damaged infrastructure, cost apple 
growers valuable crops, and forced ski areas to close mid-
season, hurting local businesses and putting jobs in jeopardy.
    In central North Carolina, soaring summer temperatures have 
killed poultry and crops, costing farmers critical income. Fort 
Bragg and military ocean terminal Sunny Point, two of the most 
important military installations in our country that are 
located in North Carolina, are listed at current and future 
risk for wildfires and recurrent flooding, respectively, in the 
U.S. Department of Defense report on the effects of our 
changing climate.
    And the worst damage has been in eastern North Carolina, 
where we now are more vulnerable than ever to devastating 
storms and floods.
    In September, just 2 years after our state was deluged by 
Hurricane Matthew, Hurricane Florence slammed into North 
Carolina. Its powerful winds and storm surge decimated coastal 
communities and crushed coastal tourism and fisheries. The 
storm stayed for days, dropping trillions of gallons of rain, 
inundating communities, drowning crops, and bringing rivers to 
historic flood levels. Hurricane Florence caused at least $17 
billion in damage, and tragically took 43 lives.
    Then, a month later, Tropical Storm Michael took additional 
lives and caused millions more in damage. But for the survivors 
of these storms, the true cost is incalculable.
    I have traveled to hard-hit communities and listened to 
North Carolinians whose lives are changed forever; tireless 
first responders who kept showing up to work, even though their 
own homes were destroyed; children who went weeks without 
schools; families whose livelihoods were washed away.
    I spoke with an elderly woman who was pulled from flood 
waters by a first responder, bringing with her only a few 
possessions that she could carry. When I saw her in the shelter 
I told her how sorry I was, and she looked at me and said, ``I 
thank God I am alive. I thank God for that firefighter who 
pulled me to safety. And I thank God for these volunteers here 
in this shelter. Many of them have had their own homes flooded. 
I am going to make it.''
    Well, as governor of North Carolina, I have a 
responsibility to help her make it. I have a responsibility to 
keep all of our people safe. I told them we have to do 
everything we can to rebuild our state smarter and stronger, 
and we are pursuing unprecedented recovery and resiliency plans 
to help North Carolinians get back on their feet.
    We are also making a difference together. I am pleased that 
members of our congressional delegation and Federal agencies 
are helping provide meaningful relief to North Carolinians hit 
hard by the storm, and I look forward to continuing to work 
together with you on the Federal appropriations process.
    But when storms are becoming more fierce, it is not enough 
just to pick up the pieces. We must take action to prevent this 
kind of devastation in the future. I urge Congress and all of 
our Federal partners to match the level of determination 
brought to recovery efforts in our fight to reduce the effects 
of climate change.
    We in North Carolina are doing our part to address those 
effects. I have signed an executive order that sets a goal for 
our state to achieve a 40 percent reduction in greenhouse gases 
by 2025. North Carolina is second in the country in solar 
energy, and my order directs more use of renewable energy.
    It also orders state agencies to begin using more zero 
emission vehicles in our motor fleet. It orders a clean energy 
plan and better state building efficiency. It also directs our 
state department of commerce to grow our strong clean energy 
economy by supporting the expansion of clean energy business, 
service providers, and companies with commitments to using 
clean energy.
    In 2017, I ordered that North Carolina join the U.S. 
Climate Alliance, a bipartisan group of states focused on 
reducing our pollution and protecting our environment.
    And while local and state action is critical, Federal 
partners must join us in taking action to protect our people 
from the growing harm of climate change. We need Federal 
legislation and regulations that promote emission reductions, 
preservation of forests, marshes, barrier islands, and other 
national infrastructure. We need Federal leadership to work 
with global partners to fulfill and strengthen our 
international agreements. We need consistent Federal action 
that meets the urgency of our global climate problem. Our 
communities, our economy, and our future depend on it.
    Thank you very much.

    [The prepared statement of Governor Cooper follows:]
   Prepared Statement of the Honorable Roy Cooper, Governor of North 
                                Carolina
    Chairman Grijalva, Ranking Member Bishop and members of the 
Committee:

    As a lifelong resident and now its governor, I know North Carolina 
is a fantastic place to live, grow a business and raise a family. 
Between our majestic mountains, miles of coastline and scenic tourist 
areas, a visit to North Carolina is bound to be the time of your life. 
But just like many places in our country and across the globe, we're 
beginning to feel the harsh effects of climate change on our 
communities and our economy.
    Scientists have found that climate change makes weather more 
erratic. It makes storms larger and more powerful and intensifies heavy 
rainfalls and droughts. North Carolinians unfortunately know this the 
hard way. We've weathered two so-called 500-year floods in 2 years and 
three in fewer than 20 years. In the Western North Carolina mountains, 
volatile weather has caused mudslides, damaged infrastructure, cost 
apple growers valuable crops and forced ski areas to close mid-season, 
hurting local businesses and putting jobs in jeopardy. In central North 
Carolina, soaring summer temperatures have killed poultry and crops, 
costing farmers critical income. Fort Bragg and Military Ocean Terminal 
Sunny Point, two of the many important military installations we're 
proud to have located in our state, were recently listed at current and 
future risk for wildfires and recurrent flooding, respectively, in a 
U.S. Department of Defense report \1\ on effects of our changing 
climate. And the worst damage has been in eastern North Carolina, which 
is now more vulnerable than ever to devastating storms and floods.
---------------------------------------------------------------------------
    \1\ https://www.americansecurityproject.org/wp-content/uploads/
2019/01/DoD-Effects-of-a-Changing-Climate-to-the-Department-of-
Defense.pdf.
---------------------------------------------------------------------------
    In September, just 2 years after our state was deluged by Hurricane 
Matthew, Hurricane Florence slammed into North Carolina. Its powerful 
winds and storm surge decimated coastal communities and crushed coastal 
tourism and fisheries. The storm stayed for days, dropping trillions of 
gallons of rain, inundating communities, drowning crops and bringing 
rivers to historic flood levels. Hurricane Florence caused at least $17 
billion in damage and tragically took 43 lives. One month later, 
another tropical storm, Michael, took additional lives and caused 
millions more in damage.
    For survivors of a storm like Florence or Hurricane Matthew before 
it, the true cost is incalculable. I've traveled to hard-hit 
communities and listened to North Carolinians whose lives are forever 
changed: Tireless first responders who kept showing up to work even 
though their own homes were destroyed; children who went weeks without 
school; families whose livelihoods were washed away. I spoke with an 
elderly woman who was pulled from floodwaters by a first responder, 
bringing with her only the few possessions she could carry. When I saw 
her in a shelter, I told her how sorry I was. She said, ``I thank God 
I'm alive, I thank God for that firefighter who rescued me and I thank 
God for all of these volunteers helping in this shelter. Many of them 
had their own homes flooded. I'm going to make it.''
    As governor of North Carolina, I have a responsibility to help her 
make it. I have a responsibility to help keep all our people safe. I've 
told them we have to do everything we can to rebuild our state smarter 
and stronger and we're pursuing unprecedented efforts to help North 
Carolinians get back on their feet.
    Weeks after Florence, I announced the new North Carolina Office of 
Recovery and Resiliency (NCORR), which is administering U.S. Department 
of Housing and Urban Development-funded Community Development Block 
Grants for Disaster Recovery for Hurricane Matthew recovery efforts. 
NCORR is also planning for additional Federal funding for residents 
hurt by Florence and will develop and implement strategies to protect 
North Carolina from future storms. We've continued to invest in the 
North Carolina Flood Inundation Mapping and Alert Network (FIMAN), a 
state-of-the-art flood mapping technology that helps indicate where to 
direct first responders and which communities remain most at risk 
during disasters, as well as the safest locations to rebuild. I've 
worked together with members of the North Carolina General Assembly to 
appropriate state relief, including $65 million to help our state draw 
down Federal disaster recovery dollars and $200 million to fund the 
North Carolina Farmer Recovery Reinvestment Program.
    We're also making a difference together. I'm pleased that members 
of our congressional delegation and Federal agencies are helping 
provide meaningful relief to North Carolinians hit hard by the storm. 
We've approved over $1 billion in State and Federal recovery resources, 
including over $100 million in individual housing assistance from FEMA, 
over $550 million in estimated claims paid through the National Flood 
Insurance Program and more than $380 million in low-interest loans for 
homeowners, renters and business owners from the U.S. Small 
Administration.
    While we've come a long way, we have much more work to do. I'm 
submitting two documents for the record: The first is a damage and 
needs assessment related to Hurricane Florence produced by the North 
Carolina Office of State Budget and Management \2\; the other is North 
Carolina's request to Congress for assistance in the aftermath of 
Hurricane Florence,\3\ which I shared with the North Carolina 
delegation and Federal appropriators in November. I look forward to 
continuing to work with Members of Congress throughout the Federal 
appropriations process.
---------------------------------------------------------------------------
    \2\ https://files.nc.gov/ncosbm/documents/files/
Florence_Report_Full_rev20181016v10.pdf.
    \3\ https://files.nc.gov/governor/documents/files/
Hurricane%20Florence%20Appropriation%20and 
%20Leadership%20Request%2011-28-18.pdf.
---------------------------------------------------------------------------
    But when storms are becoming more destructive, it's not enough to 
pick up the pieces. We must take action to prevent this kind of 
devastation in the future. I urge this Congress and all our Federal 
partners to match the same level of determination brought to disaster 
recovery in our fight to reduce the effects of climate change.
    We in North Carolina are doing our part to address those effects. 
I've signed an executive order that sets a goal for our state to 
achieve a 40 percent reduction in greenhouse gas emissions by 2025, 
increase state building efficiency and get at least 80,000 zero-
emission vehicles on the road in North Carolina. North Carolina is 
second in the country in installed solar capacity and my order directs 
the development of a state clean energy plan to ensure a continued 
transformation of the power sector away from fossil fuels and toward 
clean energy. My executive order also directs state agencies to begin 
using more zero-emission vehicles in our state motor fleet. Further, it 
directs our state Department of Commerce to grow our strong clean 
energy economy by supporting the expansion of clean energy business, 
service providers and companies with commitments to using clean energy. 
North Carolina is a national leader in clean energy and technology 
innovation and we're taking steps to promote the growth of energy 
efficiency, solar, land-based and offshore wind, storage and other 
clean energy resources.
    In 2017, I ordered that North Carolina join the U.S. Climate 
Alliance, a bipartisan group of 20 governors committed to uphold the 
goals of the Paris Agreement on climate change, including by 
collectively achieving our share of the U.S. emission reduction target. 
The Alliance represents 47 percent of the U.S. population, over half of 
the national GDP and 1.5 million clean energy jobs. Alliance states are 
tackling climate change and growing our economies at the same time. 
We're working across party lines to share best practices and defend our 
Nation's most important environmental, energy and climate policies.
    I've also worked with coastal community leaders and business owners 
to fight seismic testing and offshore drilling, two activities that 
endanger the health and economic success of our coast.
    While local and state action is critical, Federal partners must 
join us in taking action to protect our people from the growing harm of 
climate change. State and local governments, researchers and the public 
rely on Federal data, research and analysis to inform policy decisions. 
Federal funding fuels critical scientific research and drives 
innovation that can help solve our climate crisis.
    We need Federal legislation and regulations that promote emission 
reductions and the preservation of forests, marshes, barrier islands 
and other natural infrastructure that protect communities from the 
worsening effects of storms. We need Federal leadership to work with 
global partners to fulfill and strengthen international agreements. We 
need consistent Federal action that meets the urgency of our global 
climate problem. Our communities, our economy and our future depend on 
it.

                                 ______
                                 

    Questions Submitted for the Record to the Honorable Roy Cooper, 
                       Governor of North Carolina
                 Questions Submitted by Rep. Cunningham
    Question 1. Do you support my beforementioned bill, H.R. 291, the 
Coastal Economies Protection Act?

    1a. If yes, why?

    1b. If no, how could we work together to change that?

    Answer. I support amending the Outer Continental Shelf Lands Act to 
place a 10-year moratorium on oil and gas preleasing, leasing, and 
related activities. I would recommend adding language to specifically 
state that the moratorium applies to oil and gas seismic air gun 
testing.

    Question 2. Governor Cooper, last year the Republican Mayor of Nags 
Head, Ben Cahoon, testified before the Committee and spoke in 
opposition to offshore oil and gas development. Why is opposition to 
offshore oil and gas drilling a bipartisan issue in your state?

    Answer. North Carolinians, regardless of party affiliation, love 
and depend on the natural beauty and resources of our state. Offshore 
drilling and damaging seismic testing threaten North Carolina's coastal 
economy and environment yet offer little economic benefit to our state. 
These oil and gas activities present an unacceptable and unnecessary 
risk to our coast, which depends upon vibrant tourism and fishing 
industries.

    My comment letter, dated March 9, 2018, in response to BOEM's Draft 
Proposed Program (see attached) lists in detail the economic and 
natural resources that could be impacted by drilling off North 
Carolina's coast:

    <bullet> Coastal tourism, which generates $3.4 billion annually and 
            supports 35,000 jobs in the region.

    <bullet> Commercial and recreational fishing, which contribute 
            nearly $2 billion to the state's economy.

    <bullet> Approximately 300 miles of ocean beaches, 614,000 acres of 
            submerged lands and waters within the state's 3nm 
            Territorial Sea, 22 barrier islands, 2.5 million acres of 
            estuarine waters, and more than 10,000 miles of estuarine 
            shoreline.

    <bullet> Department of Defense mission capability which, as the 
            state's second largest economic sector, contributes $66 
            billion in gross state product, and $34 billion in personal 
            income.

    <bullet> 12 Division of Parks and Recreation units and recreational 
            areas located adjacent to ocean waters or the sounds, which 
            welcome 5.2 million visitors annually.

    The items listed above provide jobs, recreational opportunities, 
and homes for North Carolinians and people who travel here from around 
the world. Protecting these resources is a bipartisan issue.

    Question 3. Aside from the risks of an offshore oil spill, what 
other harmful impacts might result--either onshore or offshore--from 
opening the Atlantic Outer Continental Shelf to oil and gas 
development?

    Answer. Here are potential risks broken down by issue.
Geological

    <bullet> One location in North Carolina's coverage area in the 
            National Outer Continental Shelf Oil and Gas Leasing 
            Program has overlapping geologic plays located directly off 
            Cape Hatteras. Known geologic hazards could induce failure 
            in safety measures, as was determined when Mobil evaluated 
            the Manteo block in 1987 or induce submarine landslides.

    <bullet> The known underwater landslides offshore of North Carolina 
            could impact underwater wellheads and trigger disastrous 
            results in each of the six geological plays off our coast.

    <bullet> The U.S. Geological Survey (USGS) identified three major 
            slides: the Currituck Slide that extends from the northern 
            border of the state; the Cape Lookout Slide that extends 
            from the Outer Banks; and the Cape Fear Slide that extends 
            from the southern border of the state.

    <bullet> If oil- and gas-related activities destabilize these 
            slides, a tsunami could result.

    <bullet> A slide destabilization could also undermine the wellhead 
            where blowout preventers are located.

    <bullet> The unique physical oceanographic area off Cape Hatteras 
            at the confluence of the two major surface currents of the 
            western Atlantic Ocean--the Gulf Stream and the Labrador 
            Current--present significant complications for subsurface 
            resource development due to the instability of the marine 
            floor and severe surface weather.

    <bullet> According to the National Parks Service's Cape Hatteras 
            National Seashore, these natural elements, including 
            devastating hurricanes and Nor'easters ``form a 
            navigational nightmare that is feared as much as any in the 
            world.'' It is estimated that over 1,000 vessels have been 
            lost near Cape Hatteras.

Marine Fisheries and Habitats

    <bullet> The South Atlantic Fishery Management Council, acting 
            through the National Marine Fisheries Service, designated 
            several areas offshore of North Carolina as Essential Fish 
            Habitat; a subset of these areas is designated as Habitat 
            Areas of Particular Concern. Habitat Areas of Particular 
            Concern are designated where they are considered 
            particularly important for managed species or species 
            complexes due to the importance of the ecological functions 
            they provide and where they are at risk due to their rarity 
            or sensitivity to human degradation. These designated areas 
            include The Point, Ten Fathom Ledge, Big Rock and the 
            shoals of Cape Hatteras, Cape Lookout and Cape Fear.

    <bullet> Essential Fish Habitat is important to migratory species 
            such as king and Spanish mackerel, dolphin, tuna, and 
            cobia, as well as the snapper grouper complex. Due to the 
            importance of these species to the state's economy, it is 
            vital that Essential Fish Habitats are protected from 
            direct, indirect, and cumulative impacts associated with 
            oil and gas drilling and development in the Outer 
            Continental Shelf waters off North Carolina.

    <bullet> Deep waters of the Blake Plateau in the Southeast harbor 
            some extremely unusual and valuable marine ecosystems. A 
            deep water coral wilderness stretches from North Carolina 
            to Florida, including ancient reefs--some documented as 
            more than a million years old--of slow-growing Lophelia 
            corals. An area encompassing 23,000 square miles of these 
            reefs has been designated as Habitat Areas of Particular 
            Concern under Federal essential fish habitat provisions by 
            the South Atlantic Fisheries Management Council. Deep water 
            methane seep communities are just now being discovered; the 
            one that is well documented on the Blake Ridge was also 
            protected in the same action by the South Atlantic 
            Fisheries Management Council (SAFMC).

    <bullet> The SAFMC Habitat and Environmental Protection Advisory 
            Panel also identified further unexplored areas where deep 
            water coral discoveries are likely to be made.

Commercial and Recreational Fishing

    <bullet> The commercial fishing industry in 2016 supported an 
            estimated 7,410 jobs, $166 million in income, and a $388.32 
            million economic impact for the state. In the same year, 
            approximately 1.4 million recreational anglers embarked on 
            approximately 5.4 million trips in North Carolina's coastal 
            waters. Coastal recreational fishing activity supported an 
            estimated 15,069 jobs, $621 million in income, and $1.57 
            billion economic impact to the state economy. Combined, 
            commercial and recreational fishing activities support an 
            estimated 22,500 jobs, $787 million in income, and $1.96 
            billion in annual economic impact.

    <bullet> Oil and gas development off our shores, including oil 
            platforms, could severely limit the areas within which our 
            state's fishermen could fish for certain species.

Historic Resources

    <bullet> North Carolina has earned the nickname ``Graveyard of the 
            Atlantic'' for the thousands of ships lost off the Outer 
            Banks, from Native American dugouts to colonial-era ships 
            to Civil War ironclads and WWII U-boats. Other submerged 
            historic resources include downed military aircraft. Many 
            of these sites have the potential to contain human remains 
            and may legally be considered graves subject to state, 
            Federal, and international law. While some of these 
            resources have known locations for avoidance and planning 
            purposes, other archaeologically sensitive locations are 
            unknown or unexpected.

    <bullet> Both pipeline excavation and dredging are likely to affect 
            submerged historic resources within both state and Federal 
            waters. Additionally, pipeline connections onto shore for 
            resource transportation by land and construction of 
            additional port infrastructure have the potential to affect 
            archaeologically sensitive areas or nearby historic 
            districts.

Military

    <bullet> Military exercises conducted in North Carolina and from 
            North Carolina-based military installations are vital not 
            only to national defense and security, but also to the 
            economies of North Carolina and the Nation. Oil and gas 
            leasing and development off North Carolina's coast could 
            jeopardize both military readiness and the North Carolina 
            economy.

    <bullet> The normal operations of oil and gas development in the 
            region would be enough to hinder military training 
            exercises off the North Carolina coast.

    <bullet> The presence of multiple shipping and exploratory sea 
            vessels and oil derricks pose a risk of obstructing 
            visibility and encroaching on existing flight paths.

    <bullet> Because the military is the second largest sector of North 
            Carolina's economy, adverse impacts from oil and gas 
            development would be felt throughout the state economy. 
            North Carolina has the fourth-largest active and reserve 
            military population in the Nation. The military contributes 
            $66 billion in gross state product and $34 billion in 
            personal income. More than 575,000 individuals are either 
            directly employed by the military or work in the private 
            sector providing goods or services that support the 
            military's presence in North Carolina.

Renewable Energy

    <bullet> Development of oil and gas resources off North Carolina's 
            coast would jeopardize renewable energy opportunities in 
            the same general area.

    <bullet> The Kitty Hawk Wind Energy Area is located in the same 
            offshore region that BOEM proposes for oil and gas drilling 
            and development in North Carolina's Outer Continental Shelf 
            waters.

    <bullet> Co-locating two separate incompatible large-scale energy 
            projects increases the potential for user conflicts and 
            environmental impacts.

    <bullet> The best way to mitigate these potential use conflicts is 
            to remove North Carolina's Outer Continental Shelf waters 
            from further consideration in the Federal oil and gas 
            leasing program.

Commercial Shipping

    <bullet> Potential navigation and safety impacts to commercial 
            shipping along the East Coast.

    Question 4. Governor Cooper and Governor Baker, while we're 
discussing the threats and impacts associated with climate change, 
there's an obvious connection to opening vast new areas of the Atlantic 
Ocean to oil and gas development. At a time when our country needs to 
confront the reality of climate change, what does the Trump 
administration's desire to open the Atlantic coast to unfettered fossil 
fuel development tell you about their priorities about environmental 
protection?

    Answer. The most prudent actions the U.S. Department of the 
Interior could take on this topic are to exclude the Atlantic Coast 
from its forthcoming Proposed Plan for the National Outer Continental 
Shelf Oil and Gas Leasing Program for the years 2019-2024 and to deny 
permit applications for oil and gas seismic air gun surveying off North 
Carolina's coast. Offshore drilling and seismic testing unnecessarily 
threaten North Carolina's coastal environment and economy.

    Question 5. Did either of you have conversations with former 
Secretary Ryan Zinke about his decision to unilaterally exempt Florida 
from offshore oil and gas development, but no other states that have 
equally as valuable and vibrant fishing and tourism industries?

    5a. Why do you think former Secretary Zinke tried to exempt 
Florida, but no other state?

    Answer. In February 2018 a bipartisan group of local officials and 
I met with former Secretary Zinke in Raleigh. We asked Mr. Zinke to 
exempt North Carolina's coast from the offshore drilling plan, just as 
he had putatively exempted Florida. We emphasized that like in Florida, 
coastal tourism is important to North Carolina. And like Florida, North 
Carolina has bipartisan opposition to drilling, an ecologically fragile 
shoreline, and the potential for catastrophic accidents.

    I don't know why Mr. Zinke purported to exempt Florida, but the 
Department of the Interior still has the ability to remove water off 
North Carolina's coast and the rest of the Atlantic Ocean from 
consideration for the 5-year offshore leasing plan.

    5b. Do you believe former Secretary Zinke potentially violated 
Federal laws when he made the snap decision to exempt a single state 
from his oil and gas leasing plan without going through the required 
public process?

    Answer. I can't speak to whether or not Secretary Zinke violated 
the law in the Florida process, but I did tell him during the February 
2018 meeting that if the final 5-year offshore leasing plan includes 
coastal waters off North Carolina, he could expect to be involved in a 
lawsuit.

    Question 6. Why do your administrations oppose offshore oil and gas 
development, and are your positions in line with your state's coastal 
communities and coastal businesses?

    Answer. Simply put, offshore oil and gas development off North 
Carolina's coast is a bad deal for the state. Please refer my responses 
to Questions 2 and 3 above for an explanation of why North Carolina 
opposes seismic air gun testing and offshore drilling.
    North Carolina's coastal communities and businesses strongly oppose 
seismic air gun testing and offshore drilling in the Atlantic. Nearly 
40 coastal governments have passed resolutions in opposition to oil and 
gas exploration and development activities off the coast. So too have 
North Carolina business interests passed resolutions in opposition to 
oil and gas exploration and development, including the tourism 
development authorities in Carteret, New Hanover, and Dare counties; 
the Carteret County, Outer Bank, and Wrightsville Beach chambers of 
commerce; the Outer Banks Home Builders Association; and the Outer 
Banks Association of Realtors.
    In addition, other business and key stakeholders, including the NC 
Association of Resort Towns and Convention Cities, the NC Council of 
Churches, and NC Interfaith Power and Light, submitted comments in 
opposition to offshore oil and gas activities. These positions in 
opposition taken by communities and business organizations echo the 
message we've heard from our state's residents and the editors' desks 
of our major news organizations. In August 2017, following BOEM's 
renewed call for a new 5-year leasing plan, the NC Department of 
Environmental Quality hosted three public hearings on the coast and 
solicited feedback from the public on the Federal proposal. In total, 
465 people attended the hearings in Wilmington, Morehead City, and 
Manteo. Of the 104 people who made remarks at the hearings, 96 spoke 
against oil and gas exploration off North Carolina's coast.

    Question 7. Do you support seismic air gun blasting that is a 
precursor to oil and gas development?

    Answer. North Carolina is opposed to seismic air gun blasting. 
Research indicates that the proposed seismic surveys off of North 
Carolina's coast would harm marine mammals. Our state has a higher 
diversity of marine mammals than anywhere else along the East Coast or 
in the Gulf of Mexico. The disruption of North Carolina's critical 
marine resources by allowing seismic testing represents a critical 
threat to North Carolina's coastal communities and economy.
    My administration has taken numerous steps to oppose seismic 
surveying. I have signed onto two letters that include multiple East 
Coast governors in opposition to oil and gas exploration and 
development in the Atlantic Ocean. The most recent letter--dated 
December 20, 2018, and submitted to the Secretaries of the Department 
of the Interior and Department of Commerce--was signed by a bipartisan 
group of 10 governors. On July 21, 2017, my administration submitted 
regulatory comments to the National Oceanic and Atmospheric 
Administration asking that it deny applications to incidentally harass 
marine mammals off the North Carolina coast.
    Additionally, after new scientific studies regarding potential 
impacts of Geological and Geophysical (G&G) activities on marine 
resources were published, the N.C. DEQ's Division of Coastal Management 
sent letters to four companies on December 22, 2017, asking them to re-
open the consistency determinations pursuant to 15 CFR 930.66 and 
submit additional information about proposed seismic surveying for 
offshore oil and gas resource development. On March 13, 2018, N.C. 
DEQ's Division of Coastal Management sent a letter to the U.S. Bureau 
of Ocean Energy Management asking it to refrain from issuing permits to 
seismic companies, as the requested information for the supplemental 
consistency determinations was never received.
    My administration continues to have concerns about the potential 
impacts of seismic testing on marine resources that could severely 
impact North Carolina's commercial and recreational fisheries. We 
cannot afford to endanger the natural resources that serve as the 
foundation of our tourism industry and coastal economy.

                   Question Submitted by Rep. Bishop
    Question 1. Governors, you both stated your opposition to offshore 
oil and gas development in Federal waters. Governors, do you believe 
that states should have the right to control offshore energy 
development in Federal waters adjoining their coasts?

    Answer. Comments from the governors of coastal states should be of 
paramount importance given that states and communities have the best 
understanding of the environmental, social, and economic implications 
of offshore energy exploration and development and that they are the 
most likely to be directly affected. Overwhelming state opposition to 
oil and gas exploration and development requires significant 
consideration under Federal law, namely the Outer Continental Shelf 
Lands Act (OCSLA) and the Coastal Zone Management Act (CZMA).
    The OCSLA requires that as part of the 5-year plan review process, 
the Secretary of Interior must solicit and consider comments from the 
governors of affected states. At least 60 days prior to publication of 
the program in the Federal Register, the Secretary must submit the 
program to the governor of each affected state for further comments and 
for the governor to consult with local government leaders. 
Additionally, when the Secretary submits the program to Congress and 
the President, that submission must include an explanation for 
accepting or rejecting any specific recommendations made by a governor, 
per 43 U.S.C. 1344.
    In addition, section 307 of the Federal CZMA affords states an 
important role in decision making regarding offshore energy development 
based on potential impacts to a state's coastal resources and uses, 
even when that development activity takes place in adjacent Federal 
waters.

                                 *****

                              ATTACHMENTS

                                                   January 17, 2018

The Honorable Ryan Zinke
Secretary
U.S. Department of the Interior
1849 C Street NW
Washington, DC. 20240

    Dear Secretary Zinke:

    We write today to express our joint opposition to the leasing, 
exploration, development and production of oil and gas in the Atlantic 
Ocean as proposed by the 2019-2024 Outer Continental Shelf Oil and Gas 
Leasing Program. We also write to request that our states and the 
Atlantic Coast be exempt from this program.

    Like Florida, each of our states has unique natural resources and 
an economy that is reliant on tourism as an essential driver. We 
support the notion of energy diversity, but the environmental and 
economic importance of the Atlantic Ocean must be weighed against the 
potential unintended consequences of these types of activities.

    More than one hundred and forty (140) local communities passed 
resolutions opposing offshore drilling in the Atlantic. They have also 
been joined by tourism associations, convention and visitors bureaus 
(CVB's), businesses, trade groups, and legislators from both sides of 
the aisle.

    Not only are ocean and oceanside resources at risk, but also nearby 
bays, estuaries, coastal communities, iconic natural areas, and ports. 
The irreversible impact on ecosystems including marine mammals, fish, 
sea turtles, and other aquatic life that inhabit the ocean offshore is 
gravely concerning, as is potential risk and harm to our state's 
economies, our natural resources, our military installations, and our 
residents.
    We appreciate the emphasis that you have placed on public input and 
urge you to grant our request to be exempt from this program.

            Sincerely,

        Governor Larry Hogan          Governor Dannel P. Malloy
        Maryland                      Connecticut

        Governor John C. Carney       Governor Roy Cooper
        Delaware                      North Carolina

        Governor Charles D. Baker     Governor Gina M. Raimondo
        Massachusetts                 Rhode Island

        Governor Ralph S. Northam
        Virginia

                                 *****

                                                  December 20, 2018

The Honorable Wilbur L. Ross, Jr.
Secretary
U.S. Department of Commerce
1401 Constitution Ave., NW
Washington, DC. 20230

The Honorable Ryan Zinke
Secretary
U.S. Department of the Interior
1849 C Street NW
Washington, DC. 20240

    Dear Secretary Ross and Secretary Zinke:

    As the governors of 10 states on the Atlantic seaboard, we write to 
reiterate our strong opposition to seismic airgun surveys and oil and 
gas drilling off our coasts. These activities pose an unacceptable and 
unnecessary threat to our coastal ecosystems and coastal economies. We 
emphatically disagree with the recent decision by the Department of 
Commerce to issue incidental harassment authorizations (IHAs) for 
seismic airgun surveys in the Atlantic Ocean. We urge the Department of 
the Interior to deny permits for seismic airgun surveys in the 
Atlantic. In addition, we adamantly oppose the inclusion of any 
Atlantic Ocean region in the final 2019-2024 National Outer Continental 
Shelf Oil and Gas Leasing Program.
    The coastal economies in each of our states depend upon vibrant 
tourism and fishing industries. The IHAs would allow five companies to 
conduct seismic airgun surveys in the Atlantic Ocean, despite peer-
reviewed evidence portending significant harmful impacts to marine 
mammals and fisheries, including endangered species. Seismic airgun 
surveying can cause acute, cumulative, and chronic negative impacts on 
the ability of marine mammals to send and receive signals that are 
essential for feeding, reproduction, raising offspring, and navigation. 
The repeated, loud noises from airgun blasts also risk diminishing 
essential fish stocks for commercial and recreational fishing 
communities in our states.
    The seismic survey restrictions in the IHAs do not ensure that such 
activities will have a negligible impact on affected species. These 
restrictions, for example, fail to account for the ability of seismic 
airgun pulses to travel over long distances, the correct exposure 
thresholds for changes in species behavior, and the cumulative impacts 
of conducting multiple seismic airgun surveying operations at once. As 
a result, conducting seismic surveys under these authorizations can 
lead to mortality and permanent injury of fish and marine mammals, 
including endangered species such as the North Atlantic right whale.
    The Atlantic Coast's ocean economy generates more than $98 billion 
in gross domestic product, an economic impact that would be jeopardized 
by seismic airgun surveys and offshore oil and gas drilling. More than 
200 local governments have passed resolutions opposing seismic airgun 
surveying and/or offshore drilling in the Atlantic Ocean. Tourism 
associations, convention and visitors bureaus, businesses, trade 
groups, and elected officials from both sides of the aisle also have 
voiced opposition to these activities.
    State and local leaders in our states have voiced consistent, 
bipartisan opposition to seismic airgun surveys and offshore drilling. 
We ask that you respect our request and concerns by denying all permit 
applications and issuing no further IHAs for seismic airgun surveys in 
the Atlantic Ocean. In addition, we request that you exclude the 
Atlantic Ocean from the 2019-2024 National Outer Continental Shelf Oil 
and Gas Leasing Program for offshore drilling and deny any future 
activities whose purpose is to support offshore drilling in the 
Atlantic Ocean.

            Sincerely,

        Roy Cooper                    Henry McMaster
        Governor of North Carolina    Governor of South Carolina

        Dannel Malloy                 Andrew Cuomo
        Governor of Connecticut       Governor of New York

        Larry Hogan                   Charlie Baker
        Governor of Maryland          Governor of Massachusetts

        John Carney                   Ralph Northam
        Governor of Delaware          Governor of Virginia

        Gina Raimondo                 Phillip D. Murphy
        Governor of Rhode Island      Governor of New Jersey

                                 ______
                                 

    The Chairman. Thank you very much, Governor, much 
appreciated.
    Let me now turn to Governor Baker for your testimony. The 
floor is yours, sir.

    STATEMENT OF THE HON. CHARLIE BAKER, GOVERNOR, STATE OF 
              MASSACHUSETTS, BOSTON, MASSACHUSETTS

    Governor Baker. Thank you, Chairman Grijalva and Ranking 
Member Bishop, for those warm, welcoming remarks. And I want to 
thank the members of the Committee for being here, as well, and 
inviting me to testify on the approach that Massachusetts has 
taken to deal with the very real challenge associated with 
climate change.
    In Massachusetts, climate change is not a partisan issue. 
While we sometimes disagree on specific policies, we understand 
the science and know the impacts are real because we are 
experiencing them firsthand.
    Shortly after I took office in January 2015, the snow 
started falling hard. And it didn't end for months. Last 
winter, we saw four major Nor'easters, setting record flood 
levels and causing significant damage to natural resources and 
property. Rising temperatures have led to warmer winters, 
impacting weather-dependent industries like skiing and 
agriculture. Climate change is also warming our coastal waters 
and threatening some of the Nation's most important commercial 
fisheries.
    While many of these challenges are not new, they are more 
frequent and more damaging than before. While rising 
temperatures and warmer winters have impacted weather-dependent 
industries like skiing, local businesses like Berkshire East 
have adapted to these challenges by diversifying their business 
to include non-winter activities, which now account for 60 
percent of the mountain's revenue. Berkshire East has also 
become the first ski mountain in the world to be 100 percent 
powered by renewable energy.
    The magnitude of the impacts from climate change requires 
all of us at the Federal, state, and local levels, to work 
together. That is the path we have taken in Massachusetts. 
Massachusetts, via bipartisan legislation, was one of the first 
states in the Nation to establish a long-term requirement to 
reduce carbon emissions by at least 80 percent below 1990 
levels by 2050, while also setting interim targets. We are well 
on our way to reaching our 2020 goal of a 25 percent reduction 
in emissions.
    The Regional Greenhouse Gas Initiative, a cap and trade 
program encompassing large electric generators across nine 
northeast states, also provides a stable policy to reduce 
emission and allow states to invest in cost-effective energy 
efficiency programs. The investments from this initiative has 
saved ratepayers across the RGGI states an estimated $8.6 
billion.
    We have also developed regional partnerships with New 
England states, the Canadian provinces, and the Federal 
Government. Utilizing the comparative strengths of different 
regions allows us to obtain competitive pricing on projects 
like hydropower from Quebec.
    In 2016, we competitively bid and selected an offshore wind 
project on a Federal lease area that will save ratepayers money 
over the next 25 years. This would not have been possible 
without our partnership with the Federal Government, and I 
applaud Congress for providing a predictable investment tax 
credit for this industry, and also the Trump administration's 
Bureau of Ocean Energy Management for working with us to 
quickly review the project and build a new industry here in the 
United States off our eastern shores.
    We have also been preparing for the ongoing impact of 
climate change. Our administration recently completed a state 
hazard mitigation and climate adaptation plan. Leveraging 
Federal Emergency Management Agency money, the plan is the 
first in the Nation to fully integrate Federal hazard 
mitigation planning requirements with a proactive approach to 
addressing the impacts of climate change.
    Our administration has also sought to work closely with our 
local communities. Our municipal vulnerability preparedness 
program provides grants and technical assistance to cities and 
towns, so they can assess their vulnerabilities and plan for 
and implement climate change adaptation projects. Importantly, 
these program allows communities the flexibility they need to 
design solutions that work for their unique circumstances.
    Based on our experience in Massachusetts, I would like to 
share four themes that I believe will help further reduce 
greenhouse gas emissions and increase resiliency across the 
country.
    First, states and local communities need support from the 
Federal Government. Many Federal initiatives are only available 
after a disaster occurs. Incentives similar to our MVP program 
would help communities address resiliency issues before the 
next disaster. Expanding programs like FEMA's new resilient 
infrastructure grants and increasing funding available to 
states would accelerate existing efforts and galvanize new 
ones.
    Bipartisan interest in infrastructure funding also holds 
tremendous promise to not only repair and modernize our 
infrastructure, but also make it resilient to changes in 
weather. Federal infrastructure legislation should incorporate 
consideration of climate change emissions, vulnerability, and 
design standards that reflect that changing climate.
    Both state and Federal governments also need to develop 
public-private partnerships to bring private-sector dollars 
into our communities, while leveraging the knowledge and 
strategic thinking the private sector can bring to this 
challenge.
    Second, we need strong Federal leadership and a bipartisan 
vision on climate change that prioritizes practical, market-
driven, and cost-effective solutions, while affording states 
the flexibility to design strategies that work for their unique 
challenges. We believe it is essential for the Federal 
Government to create a target with respect to emission 
reductions that can vary by state or region.
    In our state's experience, setting an aggressive target for 
reducing greenhouse gas emissions provides the foundation for 
clean energy policy, sends a clear message to industry, and 
enables long-range planning.
    Third, strong Federal leadership should also include making 
impactful investments in research around both emission 
reductions and climate change adaptation. Federal research and 
development gave us the internet and GPS, technology that has 
changed our lives forever. I believe the Federal Government 
could bring its resources to bear in developing the next 
breakthrough battery cell or other technological advances that 
could help dramatically reduce emissions and radically 
transform our energy future.
    Fourth, the Federal Government should incorporate climate 
risk and resilience in future Federal spending and planning 
decisions to ensure taxpayer dollars are used wisely. Our own 
Boston Harbor Islands, managed through a partnership between 
state and Federal Government and a non-profit, were already 
threatened by rising sea levels and storm surges.
    Governors around the country are seeing and responding to 
the effects of climate change in our states and communities. 
This is not a challenge any one of us can solve alone. We need 
collective action from Federal, state, and local governments 
working with the private sector to aggressively reduce our 
greenhouse gas emissions and adapt to the changes that are 
already in motion.
    I want to thank this Committee for the invitation to speak, 
and I thank my colleague, Governor Cooper, for joining me here 
today. I have submitted written testimony, which goes into more 
detail than my oral remarks. I look forward to working together 
on this challenge, and I am pleased to answer any questions 
from the Committee.

    [The prepared statement of Governor Baker follows:]
Prepared Statement of Charles D. Baker, Governor of the Commonwealth of 
                             Massachusetts
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, thank you for inviting me to testify today before the House 
Natural Resources Committee on the Commonwealth's approach to the very 
real challenge of climate change. Thank you for addressing this issue 
in a bipartisan manner and for looking to the states who, along with 
cities and towns, are directly taking on this challenge by setting bold 
targets, developing practical and cost effective solutions, and working 
collaboratively across the country.
             challenges and opportunities in massachusetts
    In Massachusetts climate change is not a partisan issue--while 
there may sometimes be disagreement on specific policies, we understand 
the science and we know the impacts are real. We know through 
experience that mitigation to clean up our energy supply and 
transportation system, paired with adaptation strategies to reduce risk 
and build resilience can foster strong communities, protect residents 
and natural resources, and contribute to strong economic growth and 
innovation throughout the state.
    We have seen firsthand the impacts of a changing climate in 
Massachusetts. Shortly after taking office in January 2015, the snow 
started falling, hard, and it didn't end until well into April. What 
was different about those storms was the sheer volume of snowfall, with 
record-breaking amounts in Worcester and Boston. Although it seems 
counterintuitive, climate change is indeed producing higher volume 
precipitation events. As the air and oceans have warmed, higher 
concentrations of water vapor in the atmosphere lead to more intense 
rain and snowfall, and what we are seeing in Massachusetts is part of 
this pattern. In fact, the percentage of rain and snow falling in the 
heaviest 1 percent of storms in the Northeast has increased by over 70 
percent since 1958.\1\ The increasing frequency and intensity of storms 
is something of great concern to us in Massachusetts. Last winter we 
saw four major Nor'easters, setting record flood levels in Boston and 
other coastal communities, and causing significant damage to natural 
resources and infrastructure as well as devastating property loss. We 
have also seen an increase in intense rainfall events, with flash 
flooding and damage to ageing infrastructure in cities like Worcester 
and Lynn.
---------------------------------------------------------------------------
    \1\ Horton, R., G. Yohe, W. Easterling, R. Kates, M. Ruth, E. 
Sussman, A. Whelchel, D. Wolfe, and F. Lipschultz, 2014: Ch. 16: 
Northeast. Climate Change Impacts in the United States: The Third 
National Climate Assessment, J.M. Melillo, Terese (T.C.) Richmond, and 
G.W. Yohe, Eds., U.S. Global Change Research Program, 16-1-nn.
---------------------------------------------------------------------------
    While last fall was the wettest ever recorded in Massachusetts, in 
the summer of 2016, we experienced one of the worst droughts on record. 
These droughts greatly strained public and private water supplies in 
many communities and led to significant losses in agricultural 
production, including cranberries, apples, peaches and Christmas trees 
whose growers reported up to 80 percent loss of seedlings. In September 
2016, the U.S. Department of Agriculture designated all 14 counties in 
Massachusetts as primary or contiguous natural disaster areas due to 
losses caused by the drought, making them eligible for Federal disaster 
assistance.
    Temperatures have also been rising. On the heels of the warmest 3 
years on record, last August was the warmest month ever recorded in 
Massachusetts. This overall warming trend is leading to more frequent 
heat waves that threaten vulnerable population groups, warmer winters 
that impact weather dependent industries like maple syrup and skiing, 
and increases in Lyme disease and other tick and mosquito-borne 
illnesses. Climate change is also warming our coastal waters and 
threatening some of the Nation's most important commercial fisheries 
off the coast of New England. Stretching from Cape Cod to Cape Sable 
Island in Nova Scotia, the Gulf of Maine is warming faster than 99 
percent of the world's oceans. Warming waters have already led to 80 
percent reduction of Atlantic cod habitat over the last decade. Further 
warming is projected to shift lobster populations 200 miles north into 
Canada and enhance the ongoing invasion of green crabs that threaten 
the soft-shell clam industry.
    By talking with our farmers and fisherman and touring the damage 
after weather events, one theme has become clear to me--while many of 
these challenges are not new, they are not like they used to be. They 
are occurring more frequently and they are more damaging than they ever 
were in the past. The science and economic data bear this out and we 
know that these changes are happening all across the globe. I am all 
too aware of the unique challenges other governors are facing, from the 
deadly wildfires in California and Montana, to permafrost and glacial 
melt in Alaska, to severe heat waves last summer across the Southwest.
    These impacts come with a growing cost. Federal data from the 
National Oceanic and Atmospheric Administration (NOAA) shows that 2017 
was the costliest year for weather and climate disasters with over $300 
billion in total spending.\2\ In New England, the string of Nor'easters 
we saw last March cost the region $2.2 billion and we lost nine lives. 
Since 2015, Massachusetts has also seen at least $200 million in 
disaster damages to our towns and public agencies, which is only a 
fraction of the costs our communities face. The 2015 February blizzards 
alone were devastating--lives were lost, and the storms cost our state 
and local governments $35 million, with total losses exceeding an 
estimated $1 billion.
---------------------------------------------------------------------------
    \2\ NOAA National Centers for Environmental Information (NCEI) U.S. 
Billion-Dollar Weather and Climate Disasters (2018). https://
www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    In Massachusetts our rural economy and natural resource based 
industries are increasingly threatened by changing seasons, shorter 
winters, and less snow. Warmer temperatures are hitting the ski 
industry particularly hard. Just one mild winter in 2009/2010 cost the 
Northeast ski industry 1,700 jobs and $108 million in economic 
value.\3\ But our ski resorts are responding to this pressure with 
entrepreneurship to diversify their business model and expand into 
recreation and tourism activities outside of the traditional winter 
season.
---------------------------------------------------------------------------
    \3\ Burkowski, E., and M. Magnussen. 2012. Climate Impacts on the 
Winter Tourism Economy in the United States. Natural Resources Defense 
Council. https://www.nrdc.org/sites/default/files/climate-impacts-
winter-tourism-report.pdf.
---------------------------------------------------------------------------
    On the eastern slopes of the Berkshires, Jon Schaefer's family 
business Berkshire East has become the first ski mountain in the world 
to be 100 percent powered by renewables. Concerned about the 
unpredictable cost of energy and the impact of climate change, Mr. 
Schaefer invested in wind and solar, using State and Federal incentive 
programs. The cost savings from installing clean energy allowed him to 
invest in more efficient snow-making equipment while also diversifying 
his business to include off-season activities like zip-lining and white 
water rafting to bring in additional revenue. He reports that 60 
percent of the mountain's revenue now comes from non-winter business, 
resulting in an operation that is much more resilient to the changing 
weather patterns ahead.
    There are stories like this across the country--stories of family 
businesses, farms, large industry and cities and small towns threatened 
by the changes they are already seeing, but harnessing innovation and 
ingenuity to take on these challenges. But they can't do it alone. The 
magnitude of the impacts from climate change requires all of us to put 
politics aside and act together, quickly and decisively. We still have 
the opportunity to check the severity of future impacts by aggressively 
reducing greenhouse gas emissions and adapting to the changes that are 
ongoing. That is the path we have taken in Massachusetts.
    a history of bold leadership on climate change and breakthrough 
                          mitigation policies
    The effort to reduce emissions to a level that avoids the most 
catastrophic changes to our climate clearly requires state, national, 
and international leadership. At the same time, there are aspects of 
Massachusetts' own experience in successfully establishing achievable 
goals, working regionally, and fostering innovative breakthroughs that 
could offer lessons for other states, regions, and the Federal 
Government.
    With the unanimous, bipartisan passage of the Global Warming 
Solutions Act in 2008, Massachusetts became one of the first states in 
the Nation to establish both a long-term requirement to reduce carbon 
emissions by at least 80 percent below 1990 levels by 2050, while also 
setting interim targets every decade. The Act requires us to report our 
emissions annually, track policy effectiveness and develop plans for 
the future. By mid-century this course will yield significant GHG 
reductions, overhaul our energy structure, and lead to significant 
economic and societal change, while the interim targets will guide the 
implementation of cost-effective policies that reflect current 
technology. Clearly, this is an enormous undertaking but developing 
ambitious, yet realistic goals is working. Our 2020 goal of a 25 
percent reduction under that baseline was set ambitiously in 2010 and 
as of 2016 we have reached a 21.4 percent emissions reduction and are 
well on our way to reach the 25 percent limit. Moreover, far from being 
an economic burden, we have seen close to a 70 percent increase over 
1990 levels in our gross state domestic product and clean energy has 
been one of the strongest job growth sectors in our economy in the last 
decade.
    The Commonwealth's aggressive 2020 goal puts the state on track to 
meet emissions reductions of 26 to 28 percent below 2005 levels by 
2025--the nationally determined U.S. contribution through the Paris 
Agreement of the United Nations Framework Convention on Climate Change. 
Shortly after the announcement of the intent to withdraw the United 
States from the Paris Agreement, Massachusetts joined with a bipartisan 
coalition of states committed to fulfilling the tenets of the Paris 
Agreement by implementing policies to reduce emissions, tracking and 
reporting progress on emissions reductions and accelerating new and 
existing policies to reduce carbon pollution and promote clean energy 
deployment at the State and Federal level. The coalition is now 20 
governors strong.
    This 2020 goal has not only provided a focus within Massachusetts, 
but it has also compelled us to develop instrumental regional 
partnerships with New England states, the Canadian provinces and the 
Federal Government. Specifically, we have found that utilizing the 
comparative strengths of different regions--whether it is hydropower 
from Quebec or offshore wind in Federal waters--allows us to obtain 
cost-competitive pricing. Every region of our country should have the 
flexibility to develop a unique plan that leverages existing resources 
and economies, but we must seize the opportunity to responsibly reduce 
emissions now.
    The predictability of the regional clean energy market and 
promotion of clean energy development and trade have also been 
essential to the Commonwealth's success. The Regional Greenhouse Gas 
Initiative (RGGI), a cap-and-trade program encompassing electric 
generators larger than 25 Megawatts across nine states, provides a 
stable policy to reduce emissions and allows states to invest auction 
proceeds in cost-effective energy efficiency programs, including nearly 
$400 million in Massachusetts since its inception. While the program 
marginally increases wholesale electricity pricing, the reinvestment in 
highly cost-effective energy efficiency measures has resulted in $3-$4 
in benefits for every $1 of incremental cost. In Massachusetts, 
businesses across sectors are seizing the opportunity to take advantage 
of energy efficiency programs through our MassSave Program--from 
optimizing efficient cooling technology at the largest data center in 
New England run by the Markley Group, to installing advanced lighting 
at Hannaford, one of the largest supermarket chains in the state, to 
removing redundant motors at Cedar's Mediterranean Foods operations, 
saving over $100,000 annually in energy costs. Our major sports 
facilities, including Fenway Park, have undergone LED lighting upgrades 
that have reduced the park's electricity use by 12 percent. Bottom 
line, we have saved billions in avoided electrical costs for all 
ratepayers by keeping electric load basically flat while our economy 
has grown. The results on New England sports fields have been pretty 
decent as well.
    In total, the region's greenhouse gas emissions from this sector 
have fallen 50 percent since 2005 and the regional investments from the 
proceeds are estimated to have saved ratepayers across the RGGI states 
a cumulative $8.6 billion. Regulated generators see the value in the 
clarity and the predictability of the program, while businesses support 
the energy efficiency investments that have earned Massachusetts the 
title of the #1 state for energy efficiency in the Nation for 8 
consecutive years.
    While we have leveraged cost-effective efficiency investments, 
including the installation of over 24.1 million LED light bulbs, energy 
innovation opportunities are accelerating. From further advancements in 
lighting, electrical heating and cooling, and advanced insulation 
improvements that make zero energy consumption for new building 
construction a reality, we now have commercially available efficient 
technology and materials that are transforming our economy.
    There is no single solution to the challenges we face and we need 
to take a flexible approach that supports the innovations of tomorrow 
while acknowledging the role existing resources like natural gas and 
nuclear power, have played in our success to date. Clean energy 
innovation, guided by targeted research and development and pure 
entrepreneurial initiative, continues to deliver declining energy costs 
and new disruptive technologies. While deploying the cost-effective 
technology of today we should invest in clean energy research and 
development. These investments will likely produce key components of 
our energy future. For example, the ARPA-E program has partnered with 
MIT to move forward with advanced nuclear research to increase reactor 
performance. Harvard University is researching a flow battery that 
utilizes organic molecules to store electricity beyond increasingly 
competitive--but still expensive--electric batteries.
    Storage completely alters the value proposition for renewable 
energy, presents unique advantages to reconfigure our electric 
distribution system, and can target reductions in the peak electricity 
consumption through timely dispatch. Our Department of Energy Resources 
determined that in Massachusetts, 40 percent of the electrical cost for 
ratepayers occurs during the top 10 percent of the usage hours of year. 
Storage technology can therefore provide both ratepayer and greenhouse 
gas reduction benefits. Massachusetts electric utilities are looking to 
avoid costly upgrades to distribution lines through targeted storage 
deployment, diesel generation on our islands are being replaced with 
storage units, and manufacturers are lowering bills through avoided 
demand charges by curtailing demand with storage during peak demand 
periods.
    In 2019, we must jettison preconceived assumptions about the costs 
of clean energy and look at the facts. Just 7 years ago, Massachusetts 
considered moving forward with an offshore wind project at a cost of 
roughly 20 cents per-kilowatt and projecting billions in above-market 
costs for ratepayers. In 2016, acting after passage of the bipartisan 
legislation, we issued a competitive Request for Proposals and 
Massachusetts selected an offshore wind project on one of three Federal 
lease areas proposed by Vineyard Wind that represents a cost reduction 
of more than 65 percent below the previous proposal and is projected to 
save ratepayers money. The factors that led to these disruptive prices 
include technology that will increase turbine sizes by nearly three 
times, economies of scale delivered by a larger project, and a 
competitive solicitation that challenged bidders to deliver the best 
price. These industry advancements would not have been possible without 
our critical partnership with the Federal Government. I applaud 
Congress for providing a predictable investment tax credit for this 
industry and also the Trump administration's Bureau of Ocean Energy 
Management for working with us to expeditiously review the project and 
build a new industry in the United States. The Administration has 
recognized the potential economic opportunity of modern offshore wind 
turbines and last December moved forward with lease sales for three 
additional parcels in Federal waters south of Massachusetts. Not only 
did the auction collectively deliver $405 million for the Federal 
Government, but it attracted traditional companies like BP, Shell, and 
the Norwegian state energy company, Equinor. This is a partnership that 
can reduce emissions, save ratepayers money, and provide critical 
revenue to the Federal Government.
    We can seize this economic opportunity while simultaneously 
realizing the emission reductions afforded by the best available 
science and technology. Congress has come together in the past to 
successfully enact meaningful bipartisan energy and climate change 
legislation that resulted in emission reductions and predictability for 
our business community. Just over 4 years ago, Republicans and 
Democrats came together and developed a compromise that included the 
extension of the renewable investment tax credit allowing Vineyard Wind 
to move forward with an 800 Megawatt project. This credit was 
imperative to the results: emission reductions by over 1.6 million 
metric tons annually, the equivalent of taking 325,000 cars off the 
road and it is estimated that the project will provide over 3,600 local 
full-time equivalent jobs over the life of the project.
    While we have made significant progress to reduce power sector 
emissions, our next challenge will be transportation. In Massachusetts 
transportation emissions represent close to 40 percent of total 
emissions and continue to climb, while most other sectors are 
declining. In that spirit of regional partnership, this past December, 
we joined eight states and the District of Columbia through the 
Transportation Climate Initiative to work together over the next year 
to develop the framework for a regional program to address greenhouse 
gas emissions in the transportation sector, building on the strong 
foundation provided by RGGI. The announcement follows the recent 
release of the report of the Commission on the Future of 
Transportation, which I appointed to help Massachusetts navigate a 
disruptive transportation future. The report called for the de-
carbonization of transportation, including collaborating with regional 
partners to develop a carbon pricing mechanism to cap emissions and 
invest revenue back within the state.
                   building a resilient commonwealth
    In Massachusetts we have focused first on reducing our 
contributions to climate change and building our clean energy economy, 
but our experience with severe weather and natural hazards has made 
clear the importance of preparing for the ongoing impacts of climate 
change. In 2016, I signed an Executive Order to, for the first time, 
pursue an aggressive, integrated effort using sound science to prepare 
state government and partner with our local communities to build 
resiliency for the challenges ahead.
    One of the first things we did was to partner with the federally 
funded Northeast Climate Adaptation Science Center at the University of 
Massachusetts to understand the climate changes we are seeing now and 
the kinds of changes we will see in the future. Our secretaries of 
Energy and Environmental Affairs and Public Safety and Security led a 
2-year, government-wide effort to complete a State Hazard Mitigation 
and Climate Adaptation Plan. The plan, which leveraged Federal 
Emergency Management Agency (FEMA) money and engaged over 500 
stakeholders, is the first in the Nation to fully integrate Federal 
hazard mitigation planning requirements, with a proactive, forward 
looking approach to addressing the impacts from climate change. 
Throughout the development of the plan, every state agency completed a 
vulnerability assessment of their assets and functions and identified 
initial strategies to increase resiliency.
    The plan will be used to inform policy, management and spending 
decisions including development of climate change resiliency criteria 
in our capital planning process to ensure that the investments we are 
making today are designed for changing conditions and do not increase 
our exposure to climate risk. While we know we need increased funding 
to deal with these challenges, the first step in this process is making 
sure existing spending is climate-smart and cost-effective.
    As I mentioned, our local communities are already experiencing 
climate change impacts and are taking leadership themselves on this 
issue--our administration strongly values our municipal partners and 
has sought to work closely together on this challenge. Our Municipal 
Vulnerability Preparedness program (MVP), launched in 2017, builds on 
this partnership by providing grants and technical assistance to 
municipalities so they can assess their vulnerabilities, and plan for 
and implement priority climate change adaptation projects to build 
resiliency and reduce risk. My administration worked with partners 
across the state to develop this community-based program, including the 
Nature Conservancy and the Massachusetts Audubon Society and has 
trained over 300 technical service providers from consulting firms, 
regional planning authorities, engineering companies, small businesses 
and non-profits to lead municipal planning efforts. In its first 2 
years, the MVP program enrolled 44 percent of Massachusetts 
municipalities, and awarded over $8 million in grants.
    These grants are advancing local resilience innovation--like the 
development of the city of Boston's first ever resilient building code, 
restoration of an urban floodplain in Arlington, and a town-wide road 
stream crossing resiliency strategy in Belchertown. High participation 
from Massachusetts communities underscores the real need and enthusiasm 
for a program that maintains and enhances quality of life, helps to 
repair and replace aging infrastructure with climate-smart solutions, 
and promotes strong local economies while reducing risks and future 
costs. Importantly the program allows communities the flexibility to 
design solutions that work for their unique circumstances, are grounded 
in science and funded by the Commonwealth.
    These programs cost money, and in fact over the first 4 years of my 
administration we have invested over $600 million on climate change 
mitigation and adaptation actions through our environmental agencies 
alone without raising taxes or fees. Building on this investment, we 
recently worked together with the Legislature to craft an environmental 
bond bill focused on climate change adaptation, environmental 
protection, and recreation that authorizes $2.4 billion of investments 
over 5 years.
    Now that we have a better understanding of the scope of the 
challenges ahead through our state and local planning efforts, I also 
filed legislation in January calling for a modest increase in the 
excise on property transfers to fund a substantial and sustained 
investment in climate change adaptation to protect property. The 
proposal is estimated to generate $1.3 billion over 10 years that would 
go directly back to cities and towns to invest in climate-smart 
infrastructure and nature-based solutions that protect public health, 
safety, and property across the Commonwealth. Climate-smart 
infrastructure is resilient to damage caused by climate change and 
extreme weather because it is designed to accommodate the climate 
conditions it will experience over its lifetime, rather than historic 
conditions which set the standards for the infrastructure we have 
today. Examples include:

    <bullet> right-sizing culverts to accommodate increased streamflow 
            from more intense storms;

    <bullet> removing underutilized dams and restoring floodplains 
            along rivers and streams to prevent flooding;

    <bullet> installing resilient energy technologies such as 
            microgrids that pair on-site renewables like wind and solar 
            with battery storage to allow a critical facility like a 
            hospital or campus to remain on-line during severe weather;

    <bullet> employing nature-based solutions such as wetland 
            restoration in urban areas to absorb increased runoff 
            during storms;

    <bullet> installing artificial oyster reefs and restoring natural 
            coastal habitats to buffer against increased storm surge 
            and sea level rise;

    <bullet> upgrading combined sewer overflows to separate wastewater 
            from stormwater to ensure cleaner water and fewer flooding 
            events involving untreated sewage; and

    <bullet> ensuring materials used in roads, bridges, train tracks 
            and other heat sensitive infrastructure can withstand 
            increasing temperatures over their useful life span.

       recommendations and conclusions: commonwealth perspective
    I would like to share some themes I believe will help make progress 
on reducing greenhouse gas emissions and building resiliency across the 
country based on our experience in Massachusetts.
Support Local Communities and States
    Communities need support in the form of incentives, like our MVP 
grant program, to address resiliency issues before the next disaster. 
Many of the current Federal incentives directed through FEMA are only 
available after a disaster occurs, yet for every dollar spent 
proactively on resiliency measures, taxpayers save $6.\4\ One example 
of this type of funding comes from FEMA's new resilient infrastructure 
grants which provide large scale funding support to projects that will 
reduce risks, loss of life, and damages from future disasters. Our 
public and private sector partners are ready to make resilient 
investments in projects that protect our communities, and these matched 
funds ensure that construction can get started. Expanding programs like 
this and increasing funding available to states would accelerate 
existing efforts and galvanize new ones.
---------------------------------------------------------------------------
    \4\ Natural Hazard Mitigation Saves: 2017 Interim Report. The 2017 
Interim Report (January 2018).
---------------------------------------------------------------------------
    Bipartisan cooperation around funding to address the Nation's 
ageing infrastructure also holds tremendous promise to reduce climate 
change vulnerability, help transition to a clean energy economy, spur 
economic development, and build community resiliency. Additional 
Federal funding cannot only repair and modernize our deteriorating 
infrastructure but also help make it resilient to changes in weather. 
Consideration of climate change emissions, vulnerability, environmental 
justice communities, and design standards that reflect a changing 
climate must be incorporated into any infrastructure legislation that 
is filed. Nature-based solutions hold great potential for buffering or 
replacing existing traditional infrastructure and should be explored 
here. Our environmental bond bill includes these types of strategies 
that conserve, restore or mimic the functions of natural ecosystems to 
replace or enhance traditional infrastructure and provide multiple 
benefits for communities in the form of added resiliency, carbon 
sequestration and clean water and air.
    These types of combined approaches, utilizing traditional 
infrastructure but enhancing its resilience with nature-based 
solutions, are in progress in many places now, including Louisiana, 
following the widespread devastation during Hurricane Katrina. First 
the levees were built higher and stronger, but Louisiana has also been 
incorporating wide-ranging nature-based flooding solutions, including 
restoring wetlands to absorb water, building up barrier islands to 
reduce wave energy and storm surge, and creating oyster reefs to 
protect against flooding as the seas rise.
    Governments alone cannot sustain the enormous funding needs to 
support local and state resiliency initiatives or the transition to 
clean energy and transportation. Both State and Federal Government need 
to develop public-private partnerships that bring more dollars back to 
our communities while also leveraging the wealth of knowledge and 
strategic thinking the private sector can bring to this challenge.
Federal Leadership
    I am proud of our record of climate leadership in Massachusetts, 
and there is much to learn from how states and regions have approached 
this issue; but states cannot solve this problem alone. We need strong 
Federal leadership and a bold bipartisan vision on climate change that 
seeks compromise and prioritizes practical market-based solutions, 
while affording states the flexibility to design strategies that work 
for their unique challenges while continuing to grow their economies.
    In Massachusetts setting an aggressive target for reducing 
greenhouse gas emissions provides the foundation for our clean energy 
policy, sends a clear signal to industry, and enables us to complete 
long-range planning. We believe it is essential to establish Federal 
emission reduction targets that can vary by state or region with policy 
flexibility for states to design solutions that work for their unique 
circumstances. Such targets would level the playing field and send a 
clear signal to business and industry as we transition to a clean 
energy economy.
    Our transportation sector targets are particularly important now. 
While predictability and compromise have made cost-competitive 
renewable energy projects possible, recent proposals to roll back the 
current Federal fuel economy standards are creating uncertainty for the 
automobile industry and will undermine national and state emission 
progress. Achieving Massachusetts' 2020 emissions limit assumes a 
strong foundation of Federal fuel economy standards based on 
harmonization with California's Clean Car Program standards which 13 
states including Massachusetts currently follow; states cannot succeed 
in reducing transportation sector emission without these strong 
standards.
Federal Research, Science and Innovation
    Strong Federal leadership should also include making impactful 
investments in research to develop technologies that can reduce 
emissions and to design strategies and tools for adapting to the 
ongoing impacts of climate change. The congressional bipartisan effort 
to prioritize clean energy research is paying dividends across this 
country and must be measured in years. The research at the Department 
of Energy and our national laboratories around the country continues, 
and is the key mechanism to release disruptive innovation. It is 
inspiring to consider what this country could accomplish through a 
sustained commitment to clean energy research, while implementing a 
stable and simple commitment to emission reductions.
    States, communities, businesses, agricultural producers, and 
natural resource managers rely heavily on science, data and management 
tools developed by Federal agencies including NOAA, the U.S. Geologic 
Survey and the Environmental Protection Agency. For example, the 
products provided by the NOAA National Weather Service, including real-
time data that predicts climate variation on the scale of weeks to 
years, is used to inform decisions on national security, crop prices, 
insurance rates, tourism and recreation, energy, and the transportation 
sector. The Service provides outreach and education to local users 
across the country. We need agencies like NOAA to continue to deliver 
on their service mission by providing the best climate science and 
data, tracking climate change impacts, and helping states and 
communities develop and implement strategies for adaptation to climate 
change.
Use Climate Change Science and Data to Inform Planning, Policy-Making, 
        and Resource Management
    In the Commonwealth, we strive to set an example by working to 
incorporate climate risk and vulnerability into all of our decisions 
whether it is through our statewide planning, bonding, policy 
development or grant-making. The Federal Government should also take 
this approach by incorporating climate risk and resilience in all 
future Federal spending and planning decisions to ensure taxpayer 
dollars are used wisely on climate-smart investments. Failing to 
account for climate change impacts like sea level rise and inland 
flooding will put significant assets at risk within their serviceable 
life span and may further expose already vulnerability populations and 
communities to increased risk. Without intervention to adapt over $1 
trillion of coastal property and assets are vulnerable to as little as 
2 feet of sea level rise--a level that may be surpassed before the end 
of the century.\5\
---------------------------------------------------------------------------
    \5\ Dahl, K.A., Spanger-Siegfried, E., Caldas, A. and Udvardy, S., 
2017. Effective inundation of continental United States communities 
with 21st century sea level rise. Elem. Sci. Anth., 5, p. 37. DOI: 
http://doi.org/10.1525/elementa.234.
---------------------------------------------------------------------------
    In 2013, Federal agencies released climate adaptation plans to 
ensure agencies can continue to meet their mission and serve the 
American public in the face of a changing climate. Like our state plan, 
these plans outlined strategies to reduce the vulnerability of Federal 
programs, assets, and investments to the impacts of climate change. 
Many of our Federal resources across the country are threatened by 
climate change. It is critical that Congress provide oversight to 
ensure that agencies implement these plans and prioritize actions based 
on a long-term, positive return on investment for the American 
taxpayer.
    This is an issue of particular relevance for this Committee in your 
role providing oversight of our rich public lands. A recent study by 
National Parks Service scientists and independent researchers finds 
that all 417 parks are at risk of significant climate change impacts, 
including the disappearance of glaciers in Glacier National Park and 
increasing wildfires in Yellowstone that could transform the forested 
ecosystem to grassland within the century.\6\ Closer to my home, our 
Boston Harbor Islands, managed through a partnership between State and 
Federal Government and a non-profit are already threatened by sea level 
rise and storm surge.
---------------------------------------------------------------------------
    \6\ Patrick Gonzalez, et al, 2018. Disproportionate magnitude of 
climate change in United States National Parks. Environ. Res. Lett. 13, 
104001.
---------------------------------------------------------------------------
    These islands have rich historical and ecological value, provide 
unique recreational opportunities for urban youth, and also offer 
critical defense for Boston Harbor against increasing storm surge.

    Risks are likely to be widespread across many different types of 
Federal holdings, including military installations. A report on climate 
change impacts from the Department of Defense this January \7\ found 
that at least 79 military installations have significant 
vulnerabilities from climate change related risk including wildfires, 
drought, recurrent flooding, thawing permafrost or other threats. These 
bases have already experienced extreme weather, including wildfires in 
2016 and 2017 at the Vandenberg Air Force Base in Southern California, 
permafrost loss on training grounds at Fort Greeley, Alaska, and 
recurrent flooding at bases in Virginia due to sea level rise, land 
subsidence, and changing ocean currents.
---------------------------------------------------------------------------
    \7\ Report on the Effects of Climate Change to the Department of 
Defense, January 2019. https://partner-mco-archive.s3.amazonaws.com/
client_files/1547826612.pdf.
---------------------------------------------------------------------------
                                closing
    Governors around the country are seeing the effects of climate 
change in our states and communities, and we know that the decisions we 
make today will determine our ongoing risk and the well-being of future 
generations. But we also recognize the significant economic opportunity 
at hand to build a new clean energy industry, transform transportation, 
spur research advancements, and better design the resilient communities 
of tomorrow. This is not a challenge the Federal Government can solve 
alone; the severity of the impacts from climate change depends on our 
collective actions as Federal, state and local government, working with 
the private sector to aggressively reduce our greenhouse gas emissions 
and adapt to the changes that are already in motion. I thank the 
Committee for the invitation to speak and look forward to working 
together on this challenge.

                                 ______
                                 

  Questions Submitted for the Record to the Honorable Charlie Baker, 
                       Governor of Massachusetts
                 Questions Submitted by Rep. Cunningham
    Question 1. Do you support my beforementioned bill, H.R. 291, the 
Coastal Economies Protection Act?

    1a. If yes, why?

    1b. If no, how could we work together to change that?

    Answer. Thank you for your efforts to protect the Atlantic Coast 
from the hazards associated with oil and gas activity and your 
sponsorship of H.R. 291. As I wrote to Secretary Zinke in 2017, 
Massachusetts does not support the inclusion of areas of the North 
Atlantic in the new Five-Year Outer Continental Shelf Oil and Gas 
Leasing Program, and I support Congress taking action to protect the 
Atlantic Coast. As Congress considers legislation regarding energy 
development in Federal waters, I recommend including stronger 
consideration of states' views in the Outer Continental Shelf planning 
process. I do not believe that the Federal Government should move 
forward with oil and gas activity over the objections of a coastal 
state, and I recommend providing specific authority that oil and gas 
activity decision making be cooperatively managed by the states and the 
Federal Government. Massachusetts has worked successfully with the 
Bureau of Ocean Energy Management on developing offshore wind in 
Federal waters and recommend State-Federal task forces on identifying 
where energy development, especially renewable energy, may be 
responsibly sited.

    Question 2. Governor Baker, what does it say about the potential 
impacts of the offshore oil and gas drilling that a Republican such as 
yourself opposes this type of energy development?

    Answer. Massachusetts has long history of managing our commercial 
fishing industry and promoting our state as a tourism destination 
irrespective of party affiliation. I believe it is imperative that the 
Department of the Interior and the Bureau of Ocean Energy Management 
review comments from governors, visit the coastal states, and 
meaningfully engage to develop responsible energy development that 
protects existing industries and has the support of the states. As 
mentioned in my written testimony, in Massachusetts, we have focused 
that partnership on renewable energy development.

    Question 3. Aside from the risks of an offshore oil spill, what 
other harmful impacts might result--either onshore or offshore--from 
opening the Atlantic Outer Continental Shelf to oil and gas 
development?

    Answer. Massachusetts is particularly concerned about the 
interaction with our commercial fisheries, as well as the potential 
effects on endangered species, including the right whale. Massachusetts 
has a historical commercial and recreational offshore fishing industry 
as well as a major tourism industry that relies on the health of our 
ocean and beaches. In addition to the fertile fishing grounds of 
Georges Bank, on our sea scallop fishery--which is responsible for the 
port of New Bedford being the top in the Nation for catch value--would 
be placed at risk by oil and gas development on the Outer Continental 
Shelf.

    Question 4. Governor Cooper and Governor Baker, while we're 
discussing the threats and impacts associated with climate change, 
there's an obvious connection to opening vast new areas of the Atlantic 
Ocean to oil and gas development. At a time when our country needs to 
confront the reality of climate change, what does the Trump 
administration's desire to open the Atlantic coast to unfettered fossil 
fuel development tell you about their priorities about environmental 
protection?

    Answer. As I stated at the hearing, every level of government must 
accelerate efforts to address climate change. Massachusetts will 
continue to move forward with cost-effective greenhouse gas mitigation 
policies from energy efficiency to clean and renewable energy 
development. Every state and every region should be working with the 
Federal Government to implement individual cost-effective mitigation 
strategies that reflect existing economies and unique opportunities 
that would collectively lower emissions by the levels required to avoid 
catastrophic climate change. Local, state, and Federal leadership is 
required to reduce greenhouse gas emissions.

    Question 5. Did either of you have conversations with former 
Secretary Ryan Zinke about his decision to unilaterally exempt Florida 
from offshore oil and gas development, but no other states that have 
equally as valuable and vibrant fishing and tourism industries?

    5a. Why do you think former Secretary Zinke tried to exempt 
Florida, but no other state?

    5b. Do you believe former Secretary Zinke potentially violated 
Federal laws when he made the snap decision to exempt a single state 
from his oil and gas leasing plan without going through the required 
public process?

    Answer. I conveyed my concerns about the proposed oil and gas 
activity both in a formal letter and in person during a meeting to 
discuss this issue and the other Department of the Interior polices 
affecting Massachusetts. As stated earlier, energy development in 
Federal waters requires an extensive public process to engage with 
existing industries and ultimately requires a partnership with each 
coastal state.

    Question 6. Why do your administrations oppose offshore oil and gas 
development, and are your positions in line with your state's coastal 
communities and coastal businesses?

    Answer. My administration and our coastal communities are strongly 
aligned in working to protect our commercial fisheries and tourism 
industry, and we seek to further develop our partnership with the 
Federal Government for renewable energy development.

    Question 7. Do you support seismic air gun blasting that is a 
precursor to oil and gas development?

    Answer. Last December I joined a letter to Secretary Ross and 
Secretary Zinke alongside nine other governors of Atlantic coastal 
states to express my firm opposition to seismic air gun surveys and 
coastal oil and gas drilling. Peer-reviewed evidence suggests air gun 
surveys would have harmful impacts on marine mammals and fisheries, 
which could pose a serious risk to the economies of our coastal 
communities. I maintain my position outlined in this letter.

                   Question Submitted by Rep. Bishop
    Question 1. Governors, you both stated your opposition to offshore 
oil and gas development in Federal waters. Governors, do you believe 
that states should have the right to control offshore energy 
development in Federal waters adjoining their coasts?

    Answer. There must be a partnership between the Federal Government 
and the states in energy management in Federal waters and as you noted 
during the hearing this must also apply to Federal land management. 
Regarding, offshore oil and gas development I recommend incorporating 
stronger consideration of states' views of the Outer Continental Shelf 
planning process and do not believe that the Federal Government should 
move forward with oil and gas activity over the objections of a coastal 
state. Rather, I would recommend providing specific authority that oil 
and gas activity decision making be cooperatively managed by the states 
and the Federal Government.

                                 ______
                                 

    The Chairman. Thank you very much. I recognize myself for a 
couple of questions. Governors, let me just get this out of the 
way.
    First of all, do you believe that there is any legitimate 
scientific debate over whether human-induced climate change is 
occurring as we speak?
    Governor Baker. No.
    The Chairman. Both of you.
    Governor Baker. Well, yes, based on the way you asked the 
question.
    Governor Cooper. No, I do not. There is overwhelming 
scientific consensus that that is the case.
    Governor Baker. What he said.
    [Laughter.]
    The Chairman. Some people argue, though, on that point and 
on that consensus of opinion, that although we know it is 
happening, that humans are a major contributing cause to it, 
that there is no way to stop it, or that it will be far too 
expensive to even try. It is a point of view, it is a reaction 
that you hear.
    Your comments on that, on those two points.
    Governor Baker. Well, I guess I would say this. First of 
all, you know, the northeast United States, when I was a much 
younger person, had a huge issue with acid rain, which was 
mostly coming from the Midwest. And that was a big problem, it 
was an environmental issue. There was a lot of debate and 
discussion about it. But a combination of Federal and state 
policies, over time, basically solved it.
    And if you look at what was done with respect to policy at 
the Federal and state level with regard to the ozone layer, 
while there is still repair going on there, the ozone layer is 
in far better shape than it was 30, 35 years ago: pretty clear 
indications that you can make a difference on big issues with 
policy.
    And with respect to affordability, I come back to the 
procurement that we just did on offshore wind and the 
hydropower procurement we did, which involves hydropower from 
Quebec. The price points on both of those initiatives, each of 
which are worth hundreds of megawatts of resource to 
Massachusetts families and businesses, both came in at price 
points that, over time, are going to be more cost-effective 
than it would have been to use traditional resources.
    So, I think the bigger issue here is are you willing to 
sort of head in that direction, be practical, chase cost-
effective opportunities, and recognize that there are ways to 
get from here to there?
    And the final thing I will just mention about this, if you 
have farmers or fishermen or resort operators or foresters in 
your communities and in your districts, I promise you they are 
worrying about climate change all the time. And whether it is 
the greenhouse gas emission issue, or the resiliency issue, 
they have major challenges that we should all be taking 
seriously, or we are going to put them all in very significant 
harm's way over time.
    Governor Cooper. Mr. Chairman, if I might? We can't afford 
not to take urgent action to fight climate change. It is not 
too late, but it soon may be. That is why we need to take 
significant action. And everyone is concerned about cost, but 
can we afford not to do this?
    And when you look at cost and profits and jobs, a move to a 
clean energy economy brings with it significant jobs. It brings 
a significant economic boost.
    People may be surprised to know that North Carolina is 
Number 2 in the country in solar energy. How did we get there? 
Well, we forced the utilities to begin using more renewable 
energy. And we set a renewable portfolio standard for our 
utilities. We also took steps to limit our own coal-fired plant 
emissions in North Carolina.
    So, what has happened is that we have grown this solar 
energy economy and clean energy economy in North Carolina to 
the point where it has political support from both parties 
because of the jobs that it has brought to the area. And now it 
is competitive in cost.
    A nudge from state government, a nudge from the Federal 
Government, like you have done with tax credits, can move 
something in the right direction so it becomes part of the 
economy. And I think, at the end of the day, in moving to a 
clean energy economy, we are going to save a lot of money in 
health care costs. We are going to save a lot of money for 
these billions of dollars that our states are asking for the 
Federal Government to deal with climate change effects from 
flooding and from snow storms. We are going to make a positive 
difference if we do this.
    We have to get moving fast. We have taken some small steps, 
our states are working very hard to do what we can. But this 
needs to be a partnership, and we want to work with you.
    The Chairman. And with the time I have left, another 
argument people use to excuse the Federal Government from 
taking action is saying that we can innovate our way out of it, 
that there is a technological fix over the horizon that we need 
to find, and that, while innovation is important, that is an 
excuse to say we don't need any new laws, we don't need 
regulations, we don't need incentives, we are going to 
technologically innovate our way out of this.
    Do you believe that that innovation in and of itself is 
enough?
    Governor Cooper. Innovation is happening right now, with 
battery storage and other technological leaps. But you have to 
make it economically feasible. And state, local, and Federal 
government working together can help to push that along. Yes, 
it is going to require innovation for us to fight climate 
change and to significantly reduce our greenhouse gases, and it 
is a process.
    But I think that Federal help, I think stopping the roll-
backs that are occurring right now at the Federal level, 
particularly when it comes to the clean power plan and 
automobile emissions, we don't need to go backward in that 
area. And we need to encourage innovation and technology to 
help move us forward.
    The Chairman. Thank you. Let me now turn to Mr. McClintock 
for any questions he might have for the governors.
    Sir.
    Mr. Bishop. By the way, Grijalva, it is OK. You can take 
your extra 2\1/2\ minutes out of my time.
    The Chairman. I intended to, sir.
    [Laughter.]
    Mr. McClintock. Thank you, Mr. Chairman. I noticed in the 
written testimonies, both governors linked climate change with 
the catastrophic fires we have had in the West. My district is 
just southeast of Paradise, California. It encompasses the 
Sierra Nevada from Lake Tahoe past Yosemite Valley and on into 
Sequoia and Kings Canyon National Parks.
    Last year, wildfires burned nearly 2 million acres in 
California. That is nearly eight times the average annual loss 
of 250,000 acres that we experienced during the last half of 
the 19th century. But if you go back farther into the pre-
Columbian period, scientists estimate that wildfires destroyed 
between 4\1/2\ million and 9 million acres per year.
    The Camp Fire recently burned 153,000 acres. It wiped out 
the town of Paradise and claimed 86 lives. But in 1910, the Big 
Burn in Idaho and Montana burned 3 million acres, wiped out 
seven towns, and killed 87 people among a far smaller and 
sparser population.
    What happened in the intervening time is that the U.S. 
Forest Service was established, and it began actively managing 
our forests, removing excess timber before it could choke off 
the forests and die. And we actively suppressed brush on burned 
lands and on brush lands.
    But in the 1970s, Congress imposed a series of 
environmental laws that subjected Federal land management to 
endlessly time consuming and, ultimately, cost-prohibitive 
environmental regulations. As a direct result, timber harvested 
from Federal lands has declined about 80 percent, while acreage 
destroyed by fire has increased proportionately. A typical acre 
in the Sierra can support about 80 mature trees. The current 
density is over 300. A single fully grown tree can draw 100 
gallons of water from the soil on a hot day. Drought can 
quickly kill overcrowded forests, and it has.
    And the problem is climate change doesn't explain the 
dramatic difference between private forests that practice 
active forest management and the Federal lands that don't. The 
boundary lines can often be very clearly seen from the air, 
because of the condition of the forests themselves. Green, 
thriving private forests grow right up to the boundary line. 
And on the other side the forests are morbidly overgrown and 
dying. I think it is quite clever of the climate to decimate 
only the lands that are hamstrung by these Federal 
environmental laws.
    Now, decaying or burning forests make a mockery of all the 
laws aimed at reducing carbon emissions. Wildfires in the 
United States pump an estimated 290 million tons of carbon 
dioxide into the air every year.
    So, Governor Cooper, if the climate is warming, doesn't it 
make sense to actively manage our forests so that we can match 
timber density to the ability of the land to support it, so 
that our forests don't die off and burn?
    Governor Cooper. First, Congressman, we absolutely need to 
take action to fight climate change.
    Mr. McClintock. Would you address my question?
    Governor Cooper. But that doesn't----
    Mr. McClintock. Governor, please.
    Governor Cooper. Yes, sir.
    Mr. McClintock. My time is limited, so I have to ask you to 
be responsive.
    Governor Cooper. Yes, sir. But that doesn't mean we 
shouldn't take steps to be more resilient.
    My experience in----
    Mr. McClintock. If droughts are becoming more common, 
doesn't it make sense to provide enough spacing between trees, 
so that snow isn't trapped in dense canopies, and evaporates 
before it can reach the----
    Governor Cooper. I think any resiliency action that you 
take needs to be balanced with environmental protection. And I 
think you have to rely on scientists and regulators to 
determine what needs to be done.
    Mr. McClintock. Well, we stopped relying on scientists and 
forest management some time ago. We have let our forests go to 
benign neglect. And we are finding out the results aren't very 
benign.
    When I visited the Detwiler Fire that forced the evacuation 
of Mariposa almost 2 years ago, the firefighters bitterly 
complained that they couldn't get environmental permits to cut 
preventative fire breaks.
    Governor, shouldn't we be actively suppressing brush 
buildup and free our firefighters to establish containment 
breaks before a fire starts?
    Governor Cooper. Congressman, I think if you would join us 
in our fight against climate change, we could join in finding 
ways to make our environment more resilient and make our 
forests more resilient.
    Mr. McClintock. I mean if we agree on at least these 
common-sense steps, why can't we move forward together with 
them to properly manage our forests, so that they are resilient 
against climate change.
    Governor Cooper. I think----
    Mr. McClintock. Governor Baker, you waxed eloquently over 
the use of wind power in Massachusetts. But just yesterday the 
Wall Street Journal published a scathing editorial on the 
experience of Falmouth, Massachusetts that spent $10 million on 
wind turbines, and it has been a disaster.
    That small town went deeply into debt to finance them. The 
townspeople couldn't bear the noise, the constant flickering 
light as 400-foot windmills turned. Property values plunged 20 
percent. And I wonder how that squares with the bright picture 
that you painted.
    The Chairman. Governor, a brief answer. The time has run 
out, if you don't mind.
    Governor Baker. The question you raise, Congressman, is a 
good one, and I will tell you why.
    I deliberately used the words ``practical'' and ``cost 
effective'' in my remarks on purpose. The fact that I believe 
there are things we need to do with respect to mitigation, 
adaptation, and resiliency because of what is going on with 
climate means I also believe we ought to do things well.
    My father always used to say that there are two things. 
There is doing the right thing, and then there is doing the 
thing right. And just doing the right thing, doing it wrong, 
doesn't necessarily solve the problem. And there are a whole 
series of issues associated with a well-intended effort.
    In Falmouth, in many respects, that failed because they 
didn't make a lot of the decisions with respect to where they 
sited them and how they sited them that would have made sense. 
And I think, to some extent, the success that we had with our 
Deepwater Wind procurement was in part our ability to learn 
from a previous experience that we had had in Massachusetts on 
a project that never got developed, where people gave a sole-
source agreement to a single provider in the middle of 
Nantucket Sound at a very high price, because everybody said 
that was what the market would bear.
    We put the thing out as a competitive procurement. We said 
we weren't going to pick anybody unless we got competitive 
bids. We spent a ton of time with our colleagues in the 
legislature, making sure that the statute that was written gave 
us the ability to do something that we thought would work. And 
then we took our time in making sure that the procurement we 
put out there was a procurement that would give us the answer 
we were looking for. And we made clear that if we didn't get a 
good bid, we wouldn't take it.
    And one of the things we did in our statute that made a big 
difference was we framed it as a long-term lease. So, instead 
of having a type of contract that typically exists in this 
environment, where people are constantly having to renew it 
over and over again, we said, ``If you win, you are going to 
have the time you need to amortize the cost of actually making 
the investment in the project returned.''
    And because of that consistency in the way we bid it, and 
the fact that it was competitive, we got a great price.
    The Chairman. Thank you, Governor.
    Governor Baker. I think sometimes when something doesn't go 
the way it should go, everybody blames the concept. Well, 
sometimes we just screw up the way we actually implement it. 
And it makes the concept look bad.
    The Chairman. Thank you, Governor. And before I get 
admonishment on my time management abilities here, if we could, 
keep the questions and the response to that 5 minutes so that 
everyone that is here will have an opportunity to ask 
questions.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Welcome, Governors.
    Governor Cooper, congratulations on your executive order to 
fight climate change. And there is tremendous information that 
can probably be given out to the general public to have them be 
part of the solution, not just the government, because 
sometimes we rely everything on government.
    One of the things I am looking at is, you stated removing 
underutilized dams and restoring flood plains. That is a great 
point that we need here in Congress, especially funding for 
recycled water and conservation, education to the public, to 
have them understand that we need more water to fight fires and 
to generally provide for the public, for the communities that 
we serve.
    However, there is reticence in this Committee to fund 
recycled water projects. There used to be 37 million for 17 
western states. I am asking for 500 million for the future, 
because we have to prepare for ongoing drought and ongoing 
fires and everything else.
    Suggestions? How can we improve public-private 
partnerships? Two of you.
    Governor Cooper. Well, I think in North Carolina we are 
already doing that. We know that we have a lot of areas that 
are in danger of flooding. We have put advanced flood mapping 
in place. So, now that we know what to evacuate and where areas 
are going to be flooded, we are taking significant mitigation 
steps where we are using buy-outs, elevations, and even 
strategic retreats.
    Mrs. Napolitano. Do you inform the general public of your 
plan, so they can be supportive of what you are doing?
    Governor Cooper. Yes, we incorporate what happens with our 
municipalities. They have to make these tough decisions, 
particularly about strategic retreat, because we have come to 
the realization that these floods are going to continue to 
occur, they are going to be fierce. We need to take our----
    Mrs. Napolitano. How about your aging infrastructure?
    Governor Cooper. Aging infrastructure, and particularly 
waste water treatment plants that are extremely vulnerable to 
flooding. Helping local governments make sure that they are 
rebuilt and built in a resilient way.
    I have established the North Carolina Office of Resiliency 
and Recovery. And what we are doing is working with local 
municipalities on catch basins, trying to figure out ways to 
prevent what happens in the future.
    Mrs. Napolitano. Right.
    Governor Cooper. In addition to our efforts to fight 
climate change.
    Mrs. Napolitano. OK, thank you.
    Governor Baker, what policies can states and city 
governments put into place to build an inclusive green economy?
    Governor Baker. Well, to just sort of piggyback a little 
bit on your previous question to Governor Cooper--I am a former 
local official. And I get the reason why it is really important 
to have local representation and local voices involved in 
discussions with respect to what happens in their communities. 
And that is why the vulnerability planning effort that we put 
together is a municipal vulnerability planning effort, because 
we want our colleagues in local government and local community 
leaders to be part of those conversations.
    And as I have said before, you have 351 cities and towns--
and in Massachusetts, they all have different issues with 
respect to resiliency and adaptation. And we want to make sure 
whatever it is we do is supported at the local level. Because 
if you don't have local support for it, it is not going to 
succeed, whatever it is you are pursuing. And it won't be 
sustained over time.
    Mrs. Napolitano. Yes.
    Governor Baker. I agree completely with him on that one.
    Mrs. Napolitano. Part of what a discussion on the forest 
fires also leads to the fact that we don't fund the agency with 
enough money to do it. And what--with the future threat of more 
fires, we should have enough funding there to be able to help 
them do the job they are meant to do. Do you agree?
    Governor Cooper. I agree completely. We spend a lot of 
money--and we are grateful for it--on recovery. Not enough of 
that money that is dedicated to states and local governments is 
allowed to be used for mitigation and resilience.
    And when you look at a flooded area and see homes that have 
been elevated, or areas that have already been bought out and 
now are simply catching flood water, you see the money that we 
are saving from the action that we have taken.
    So, I would encourage the Congress to give states more 
flexibility to use this recovery funding as we rebuild smarter 
and stronger, as we are trying to do in North Carolina, because 
we know it is coming again. I am going to keep saying we have 
to fight this emission of greenhouse gases, and to fight this 
overall climate change issue here. But we know in the next few 
decades, if we are going to continue to deal with this severe 
weather, we need to be smart about how we rebuild. And us being 
able to use that funding for mitigation and resilience is a 
positive thing.
    Mrs. Napolitano. Thank you, Governor. I think we have to 
cut, because the Chairman is going to gavel me out. But I tell 
you 20 years ago I tried to put climate change in one of my 
bills, and I lost it because nobody wanted to deal with climate 
change. Thank you.
    Mr. Bishop. Thank you. I appreciate, once again, you being 
here. Governor Baker, I appreciate you being here.
    Now, look, Ed Markey used to be part of this Committee, so 
at some point off the record I would like you to tell me how 
you got rid of the Rs at the end of your vowels. You are doing 
that very well.
    [Laughter.]
    Mr. Bishop. And just as a hint, if you try to do Ski 
Massachusetts on your license plates, we have already done that 
in Utah. We got copyrighted on that. Don't try to go there.
    I do want to ask a question of Governor Baker. You talked a 
great deal about working together in a collaborative process, 
the very essence of federalism. And also, you mentioned how 
some of the local people who work these issues on the ground 
know exactly what they are doing. I found in the state of Utah 
some of my best commissioners in rural Utah are those who used 
to work for BLM, and they are extremely pragmatic about what 
can and cannot be done.
    This is one of those areas that actually is the 
jurisdiction of this Committee, and that is how can we actually 
increase collaboration between the Federal Government and the 
states. And you guys got to figure out state and local 
government, you are on your own, that is your jurisdiction. How 
do we actually increase that collaboration? Or is that 
significant, to increase that collaboration?
    Governor Baker. I do think on this vulnerability planning 
effort, which the Federal Emergency Management Agency has 
created, a program where states and locals can get together and 
start to work with the Feds around doing sort of what I would 
describe as high-risk analytics and making investments in 
resiliency and adaptation to deal with places that people are 
concerned about, so that the next time there is a storm, the 
next time there is a surge, we don't end up having to deal with 
the same cleanup that FEMA dealt with the time before, I think 
that is, in some respects, one of the best ways for the Federal 
Government to work with states, and with locals.
    Mr. Bishop. Let me kind of zero in on that. Once again, 
this is our area of jurisdiction. There are statutes on the 
books that say we have to collaborate with you. There is 
nothing in that statute that says what our collaboration 
actually is.
    Would there be a benefit of actually trying to list what 
steps need to be taken in the collaborative process so indeed 
the states and the Federal Government are working on the same 
page, as opposed to you just groveling before us?
    Governor Baker. Absolutely.
    Mr. Bishop. All right.
    Governor Baker. I think that would be a great idea.
    Mr. Bishop. And that is within our jurisdiction. However, I 
realize the Appropriations Subcommittee is having a hearing on 
the Anti-Deficiency Act, which has nothing to do with the 
appropriations process. So, eventually I think we will get 
jurisdictional issues worked out in this particular area.
    Let me talk specifically once again about the concepts that 
were just brought up--and Mrs. Napolitano, she mentioned it 
before she left--this idea of forest fires and what they need. 
And maybe when Mr. Westerman has a chance to talk, he can 
exemplify on this.
    One of the things that both the Obama and the Trump 
administrations told us is it is not necessarily an issue of 
funding that makes it difficult, it is an issue of what kind of 
powers they have to actually do management practices before the 
fire season takes place.
    And the other big issue they also dealt with was cost of 
litigation, ever-increasing litigation by special interest 
groups, for which they either backed off what they were 
attempting to do in order to minimize that litigation, or they 
were forced to spend their money defending themselves on the 
litigation. So, what they were asking for is greater 
flexibility in actually managing the land, and help in 
defending themselves. Again, this litigation.
    I am making the assumption that when we are dealing with 
you on the state level, that those issues are also significant. 
And indeed, the experts on the ground who ask us for this kind 
of help would be saying that same type of thing.
    Governor Baker. I actually made a note to myself to ask the 
folks who manage our lands. We have significant land that we 
manage, both actively and passively.
    Mr. Bishop. The nice thing is most of your land is state 
land, and that is great.
    Governor Baker. What I don't want to do is, I don't want to 
answer this question having not talked to my own people about 
it, but I will do that and make sure we get back to the 
Committee about it.
    Mr. Bishop. And I appreciate that. And actually, Mr. 
Grijalva--because I won't ask you another question, I am 
running out of time with that. But if we can go to the point in 
future where Utah has as much Federal land as Massachusetts and 
North Carolina have, I will be tickled pink.
    Governor Baker. I would love that, as long as I get the 
same amount of skiing that you have in Utah.
    Mr. Bishop. And we will take some of our extra mountains 
and put them in there, so you can actually ski.
    [Laughter.]
    Mr. Bishop. And that will include our airflow, so we don't 
have crappy air in the winter. Perfect.
    I yield back.
    The Chairman. Thank you, Mr. Bishop.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member. It sounds like the Governor and the Ranking Member have 
an opportunity to get great things done here, East-West.
    But I think this is an important hearing for a lot of 
reasons. And clearly, the impacts of climate change are one of 
the most significant challenges we face in the 21st century 
around the world, in this country, and in our respective 
states.
    I know the San Joaquin Valley that I represent has had 
significant impacts as it relates to the drought conditions, 
the feast or famine with too much rain and water, and trying to 
balance our needs.
    We think about the planet we live in: 200 years ago we had 
1.7 billion people, today we have a little over 7 billion. And 
by the middle of this century it is expected that we will have 
over 9 billion people. And sustainability and the impact that 
people have on all of our resources is the challenge that we 
face today.
    We have people living in areas in which people didn't live 
before, where they are impacted by these fires, these floods, 
and these other natural conditions that include hurricanes and 
tornadoes and other weather events.
    We, in California, have done a lot, I think, to try to 
address the future here in renewable and sustainable sources, 
as have other states--Governors, as you have recommended and 
told us of your own efforts.
    I think the earlier comment about better coordination 
between the state, local, and Federal efforts needs to be done. 
We talk a lot in kind of broad, general terms. We don't, I 
think, focus enough on how we can coordinate together in 
actually getting something done on the impacts of climate 
change. And a multi-pronged approach, I think, is critical to 
that success.
    Both governors, let me ask you a few questions here. And I 
am looking this way because, Mr. Chairman, the clock is blocked 
here. So, for those of us who watch it, make sure we get our 
time in. It is a little bit of a handicap.
    As we continue to see, as you testified, the trends on 
intense weather changes and the impacts there, we have an aging 
infrastructure. We have been talking about a bipartisan 
infrastructure measure. Where do you think the best channeling 
of that funding in transportation and in water infrastructure 
would best be spent in your respective states?
    Governor Baker. Well, with respect to the issue we are 
talking about today, which is resiliency, I think the biggest 
and best opportunity would be around all of the infrastructure 
that we have that is designed to deal with storms. And much of 
that infrastructure is nowhere near as significant as it needs 
to be----
    Mr. Costa. When FEMA comes--as they have in various parts 
of the country and they provide support and recovery efforts. 
We were just in Puerto Rico last month, and under the--I am 
trying to remember--Stafford Act, or whatever--they are only 
allowed to spend money to what the previous conditions were of 
that infrastructure.
    Governor Baker. Right, right.
    Mr. Costa. That makes no sense. I mean we have to be--and 
if we are repairing--guess what? More hurricanes are going to 
come, more tornadoes are going to come, more floods are going 
to come, and wildfires. We ought to do state-of-the-art 
restoration, don't you think?
    Governor Baker. Yes. We should be thinking about 
infrastructure going forward, in terms of what the consequences 
will be for bridges, for coverts, for dams, for all of that 
stuff, based on what people anticipate the significant issues 
they will be dealing with will look like. And those are 
different than the ones people were dealing with 100 years ago, 
absolutely.
    Mr. Costa. Governor Cooper?
    Governor Cooper. And, Congressman, there is a lot of money 
that comes to states in the wake of disaster. But in the wake 
of disaster is time to talk about that resilient 
infrastructure.
    People were driving around the state of North Carolina for 
3 or 4 days after Hurricane Florence because Interstate 95 was 
under water.
    Mr. Costa. OK, I appreciate the examples. I have 30 seconds 
left.
    To both of you, if you can quickly--there is a call, 
obviously, to provide less stringent environmental regulation 
in an effort to review and rewrite common-sense policies in the 
light of climate change based on sound science. Is that 
reasonable to ask?
    Governor Baker. I didn't understand----
    Governor Cooper. I didn't understand what you said, sir.
    Mr. Costa. There is a sense that maybe we need to rewrite 
environmental regulations in the sense of dealing with these 
impacts of climate change. Is that reasonable to ask, based 
upon new science?
    Governor Baker. I think we should continually be updating 
our rules and our regulations with respect to new discovery and 
new science. We do it in health care, which is the space I came 
out of in the private sector. We do it in all sorts of areas. 
Yes, I would say definitely here, yes.
    Governor Cooper. But I would say we don't want to roll back 
environmental safeguards that are helping us to reduce 
greenhouse gas emissions, and therefore fighting climate 
change, while we are doing that.
    Mr. Costa. Thank you.
    The Chairman. Mr. Westerman.
    Mr. Westerman. Thank you, Chairman Grijalva, and thank you, 
governors, for being here today. I have had the opportunity to 
spend quite a bit of time in both of your states. You have 
beautiful states with beautiful forests and clean water there.
    I get accused sometimes of getting too far into the weeds 
when I start talking about climate, environmental policy. So, 
taking a little bit of a different approach today, I was going 
to submit this to the record, but I haven't got a hard copy 
yet. But this is a Dilbert cartoon. And they are sitting around 
the table, and Dilbert says, ``I have invented a cost-effective 
product to harvest CO<INF>2</INF> from the air and turn it into 
construction material,'' and his colleague says, ``So . . . you 
invented a tree.'' And it goes on from there.
    But you know, when we look at the climate and how we all 
want to be good stewards of it, we know that trees are one of 
the best things on earth to clean the air, to clean water, and 
provide good habitat.
    Governor Cooper, I am from Arkansas and did a lot of work 
in your state before I got into Congress. I actually did a 
comparison one time of the forested area in Arkansas versus 
North Carolina. And both states are almost exactly the same, 17 
to 18 million acres of forested land in both states, almost the 
same breakdown of hard wood versus soft wood.
    There is a difference there, though. North Carolina has one 
of the most vibrant forest products industries in the country. 
Even though we have basically the same land mass and the same 
amount of forest, you all produce a lot more wood products than 
we do in Arkansas, although our forest products economy is 
growing and thriving there.
    So, as we look at this issue of cleaning the air, I would 
like to get your take on how important the forest products 
industry and forest management is in North Carolina to keeping 
your forest pristine, which also helps your water quality and 
your wildlife habitat, and the different kinds of products that 
are made there, and how they may affect the environment.
    Have you had a chance to get out--I am sure you have--to 
see all of the varied forest products industries in your state?
    Governor Cooper. Yes, we do have a strong forest product 
industry in North Carolina. I think we have to be careful about 
going too far with it. And I know that our department of 
environmental quality is looking at additional safeguards that 
we may need in order to make sure that our forests are 
protected.
    I do know, though, that it is an important industry in our 
state, and we are working hard to make sure that our forests 
are managed properly, because we know that those natural 
resources are critically important, not only to clean air, but 
to our tourism, as well, in North----
    Mr. Westerman. I believe about 68 percent of your forest 
land is privately held and managed by private owners who are 
doing that, just using good science. And you obviously have a 
sustainable forest there to be able to continue with a strong 
forest products industry.
    I know also that North Carolina is one of the leading 
states in producing wood pellets. Those pellets were driven by 
the fact that Europe put a tax on carbon coming out of some of 
their big coal-fired plants, so that drove them to come to the 
United States to buy renewable pellets. How do you think that 
is affecting the health of the forest in North Carolina, and 
then the global climate as well, being able to use those 
renewable wood pellets to replace coal in Europe?
    Governor Cooper. There is a concern about the increase of 
the use of wood pellets in North Carolina. There is a concern 
about that, yes.
    Mr. Westerman. But that was all driven by a mandate from a 
government saying you had to get the coal out of the plants. 
So, they wanted to replace that with a bio-fuel. And North 
Carolina, obviously being on the East Coast and having the 
abundant forests they have, were a really good supplier to help 
in Europe to offset carbon emissions over there.
    Governor Cooper. I don't know about that, Congressman. I 
don't know about that.
    Mr. Westerman. Are we going to get a second round of 
questions?
    Real quickly, Governor Baker, the Quabbin in Massachusetts 
is a great example of how to manage forests and get clean 
water. Boston relies on that. It is a wonderful system, and I 
wish we could mimic that other places around the country.
    I yield back.
    Governor Baker. So, just two things. We have planted 
thousands and thousands and thousands of trees since we took 
office for exactly the reason you just raised. And we have 
about 4 million acres of forest in a state with 6\1/2\ million 
acres, overall. And about a million acres are managed by the 
Commonwealth.
    Planting trees is one of the best----
    The Chairman. Thank you.
    Governor Baker. Give us some money to plant trees, we will 
plant trees. They also help with soil runoff and a whole bunch 
of other things, as well.
    The Chairman. Mr. Sablan.
    Governor Baker. And the most interesting thing about it has 
been that the relationship between the sportsmen community and 
the environmental community over the importance of forest and 
wildlife habitat.
    The Chairman. Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Governor Baker and Governor Cooper, welcome. Thank you for 
being here. Thank you for your leadership on climate change you 
are both demonstrating in your states.
    Getting to the question, a little history, background, is 
in 2016, our bureau of environmental and coastal quality 
developed a 5-year strategy that noted that although the 
development surge in Saipan, one of the islands in the Northern 
Marianas, would result in dramatic loss of green space and 
permeable natural surface, particularly in shore land 
locations, the political leadership were calling for even less 
regulatory oversight and for expedited permit processing. And 
that leads me to no longer be hopeful that my political 
leadership would join your U.S. Climate Alliance.
    But having said that, and someone mentioned earlier about 
people being displaced from their homes. Over the past 2 years 
alone, hundreds of thousands of Americans have been forced from 
their homes, some of them as recent as Puerto Rico, Irma and 
Maria. And in the future we will see many more people who need 
to permanently move because their homes will become 
uninhabitable, either by rising sea levels or hurricanes and 
typhoons. The people of the Northern Marianas will be 
especially hard hit.
    So, what can states and the Federal Government do in order 
to more effectively address displacement due to climate change?
    Governor Cooper. Congressman, in North Carolina I think we 
have seen it just as you have, that the people who can afford 
it the least often get hit the hardest in these natural 
disasters. And one of our problems that we have right now is 
the issue of affordable housing, being able to find safe, 
affordable places for people to live.
    In the wake of this disaster, I think it is helping us put 
together a plan on affordable housing across the state. That is 
something that is going to require public-private partnerships, 
and investments, and trying to get developers into making sure 
that more affordable housing is constructed in areas that are 
not in flood plains and in danger of being destroyed during 
these disasters. It is a human tragedy.
    And I look forward to your ideas. And we certainly can 
provide you with some of ours on how we do that.
    The Chairman. And Governor Baker?
    Governor Baker. I would just get back to the question 
Congressman Costa asked about rebuilding to the standard of 
what it was before. I mean, clearly, we need to be taking a 
much more forward-looking approach to the way we handle that 
stuff, because building to the standard that existed before 
will be nowhere near as resilient as you need to be to deal 
with many of those issues.
    Mr. Sablan. Right, and I agree with you, Governor Baker, 
because where I come from, the Northern Marianas, we just had a 
super-typhoon, I think the second-largest in U.S. history. And 
we are not actually a wealthy community.
    So, what took people years to build as their homes were 
destroyed, demolished. And FEMA has inspections. Some of them 
got awarded $6,000. So, they were made an offer: ``We can take 
you and move you to another location away from the Northern 
Marianas until you can get your structure rebuilt.'' The $6,000 
is going to take care of 20 percent, maybe, of the cost of the 
building, if at all.
    So, that person, this family, will move and probably never 
come back. And from a case where our population is hardly, very 
little over 50,000, we need all our people to remain at home. 
But it is not. So, yes, I agree. FEMA encourages this 
relocation.
    And my time is up. Thank you very much.
    The Chairman. Thank you very much.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I appreciate the time. 
Governors, I want to thank you very much for being here.
    Governor Cooper, I know that--I am from Louisiana. We sent 
many volunteers and rescue teams to your state----
    Governor Cooper. Thank you, sir.
    Mr. Graves [continuing]. Following--I am trying to 
remember--Chris, Matthew, Florence, Michael, a number of storms 
you have had in recent years. I have been praying for you all 
and working closely with your delegation.
    Two things, real quick.
    You mentioned some of these resiliency measures on--I think 
it was October 3, the President signed the Disaster Recovery 
and Reform Act into law. That law that we worked closely with 
your delegation in putting together does provide some 
additional flexibility and dollars on more resilient 
reconstruction, to where we are not rebuilding the same things 
over and over again, and I urge you to take a look at that.
    Next, on the duplication of benefits letter you sent to the 
White House, in regard to your recovery we are working 
closely--our governor has done the same thing--we are working 
closely----
    Governor Cooper. Have you gotten an answer yet?
    Mr. Graves. Blood pressure is going up a little bit, 
potentially filing a lawsuit, but we will be working closely 
with you all on that.
    Governor Cooper. OK.
    Mr. Graves. I also spent a good bit of time in Pisgah, 
Linville, Bent Creek, a lot of your real jewels over there. You 
have a great state.
    Governor Baker, reading about some of the things that your 
state has done in regard to emissions reduction and climate 
change, it is interesting. Our states, again, south Louisiana, 
Massachusetts, very different. I heard you in your testimony 
talking about ski slopes. And, of course, the Ranking Member 
was discussing that, as well. We would love to have that. We 
have some resource issues. Ski slopes aren't really conducive 
to south Louisiana.
    Some of the top industries in Massachusetts, it is 
technology patents, venture capital, computing technology. Some 
areas that aren't necessarily licensing, aren't necessarily 
energy or emissions intensive. My home state of Louisiana, we 
are one of the top energy producers in the Nation, one of the 
top refiners in the Nation, one of the largest petrochemical 
industries in the Nation, one of the largest industrial 
corridors in the Nation. It is a very different economy.
    Your home state of Massachusetts, according to the EIA, 
part of the Department of Energy, they indicated that your 
state has virtually no oil and gas production. Yet, just within 
the last few years, your state has averaged over 1 quadrillion 
BTUs of fossil fuels being used to just operate your state, 
over 1 quadrillion BTUs of fossil fuels being consumed for 
everything going on in the state of Massachusetts.
    In Revere, you have one of the three home heating oil 
reserves. Much of your, if I remember right, coal and natural 
gas, approximately 70 percent of the energy production in your 
state is from coal and natural gas. That comes from Louisiana, 
it comes from other states.
    My home state of Louisiana, we are blessed with natural 
resources. We are blessed with port systems and have a big 
industrial corridor. How do you reconcile what you are able to 
do based on your economy, versus the challenges in Louisiana 
based on what our economy is founded on?
    Governor Baker. Well, our view on this issue for the better 
part of the past decade has been to make the kinds of 
investments that can either reduce our draw on energy when we 
produce productivity, or continue to redefine our source points 
for energy, generally.
    And if you look at the last 10 years, or even go back 
before that, maybe the last 20, we have had significant 
increase in our gross state product. We have had modest 
population growth. We have had modest increase in the number of 
vehicle miles driven, and a 20 percent reduction in our 
greenhouse gas emissions over that same period of time. And the 
energy draw generally has been flat over the same period, 
because we have gotten more productive about how we actually 
use energy.
    And I think in some respects that is one thing that we 
haven't really talked about at all today. One of the biggest 
and best opportunities we all have with respect to climate 
change and greenhouse gas emissions, generally, is energy 
efficiency. Our Mass Save program----
    Mr. Graves. And, Governor, I agree. I need to reclaim my 
time because I am about----
    Governor Baker. We have installed 24 million LED lights----
    Mr. Graves [continuing]. To run out right now, but I do 
appreciate that you all have taken steps, I do. But I also 
think it is important to recognize that states in some cases 
are fundamentally differently.
    Governor Baker. Agreed.
    Mr. Graves. Years ago I calculated the amount of energy 
that Massachusetts consumed, and I think it was 24 times more 
energy than they produced. So, you built three LNG terminals, a 
lot of energy is coming in from Louisiana and other states.
    Mr. Chairman, I want to ask to insert in the record two 
things.
    First, and it is interesting, it is a letter asking the 
President to increase global oil production--to increase global 
oil production. And that letter is signed by Senators Cantwell, 
Schumer, Menendez, and Markey.
    Second, Mr. Chairman, I ask unanimous consent to include in 
the record a statement that shows the average electricity 
prices for each state, indicating the state of Massachusetts 
has electricity prices that are usually the top or the second 
top in the continental United States, more than double that of 
the state of Louisiana.
    The Chairman. Thank you. Without objection.

    [The information follows:]

                               United States Senate
                                       Washington, DC 20510

                                                       May 23, 2018

The President
The White House
Washington, DC 20500

    Dear Mr. President:

    World crude oil prices increased over 75 percent in the past year, 
with some market analysts expecting prices to approach $100 per barrel 
in the coming months. Elevated fuel prices are a burden on every 
family, business, and farm and threaten our nation's continued economic 
growth and global competitiveness. Today, we call on you to use all of 
your authority to take timely action to pressure the Organization of 
the Petroleum Exporting Countries (OPEC) and cooperating countries to 
increase world oil supplies in order to lower prices at the pump during 
the upcoming summer driving season.
    The U.S. Energy Information Administration (EIA) attributes current 
increases in crude oil prices to ``falling global oil inventories, 
heightened market perceptions of geopolitical risks, and strong global 
economic growth signals.'' Indeed, global oil supplies have been 
relatively flat over the last two years, despite record U.S. crude oil 
production, because of an agreement between the OPEC and non-OPEC 
countries like Russia to decrease their oil production by around 1.7 
million barrels per day starting in January 2017. Since the agreement 
has been in place, those countries have actually reduced production by 
over 2.4 million barrels per day.

    Surging oil prices have made gas station fill-ups more expensive. 
According to the EIA, gasoline prices will average $2.95 per gallon 
this summer, 61 cents higher than last year. That means the average 
U.S. household will be forced to pay $167 more in fuel costs this 
summer driving season as compared to the same period last year. Diesel 
fuel, essential for transporting American goods to market, will average 
64 cents more per gallon than last summer, and prices could top $4 per 
gallon in some states.

    The impact of rising fuel prices on our economy and on family 
budgets is significant and widespread. According to a recent analysis 
by Goldman Sachs, the run up in oil prices will roughly cancel out the 
effects from tax reductions this year, with the greatest impact on 
households that can least afford it.

    Last month, you said it was unacceptable for OPEC to artificially 
inflate oil prices. We agree and urge you to work with our 
international partners to take the following actions to make sure OPEC 
does not continue to suppress world crude oil supplies, and to protect 
domestic policies that help consumers:

    <bullet> Leverage your personal relationship with Saudi Crown 
            Prince Mohammad bin Salman to urge Saudi Arabia to use 
            their swing capacity to increase world oil supplies.

    <bullet> Send Energy Secretary Perry to the June 22, 2018, OPEC 
            meeting in Vienna, Austria to personally communicate the 
            importance of maintaining stable crude oil prices.

    <bullet> Initiate World Trade Organization dispute proceedings 
            against countries engaged in anticompetitive practices that 
            artificially inflate world oil prices.

    <bullet> Work with our European allies and China, which last year 
            surpassed the United States as the world's largest oil 
            importer, to put pressure on oil exporting nations.

    <bullet> Direct the Federal Trade Commission, Commodities Futures 
            Trading Commission, and the Department of Justice to 
            exercise vigorous oversight over oil markets.

    <bullet> Maximize the use of more environmentally friendly and 
            domestically produced biofuel alternatives by protecting 
            the Renewable Fuel Standard.

    <bullet> Abandon your Administration's stated plan to roll back 
            fuel economy standards that otherwise will save the average 
            car owner more than $6,000 over the life of the car and cut 
            the nation's oil consumption by over two million barrels 
            per day by 2025.

    The current run up in world oil prices is effectively a tax on 
every American family's discretionary budget, except that the money 
goes to the OPEC cartel rather than the U.S. Treasury. Adding to our 
constituents' pocketbook concerns is their understanding that our 
nation's continued dependence on oil is at the heart of many of our 
nation's greatest economic, environmental, and national security 
challenges.

            Sincerely,

        Maria Cantwell                Robert Menendez
        Washington                    New Jersey

        Charles Schumer               Edward J. Markey
        New York                      Massachusetts


                                 ______
                                 

Submission for the Record by Rep. Graves
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Graves. Thank you. I yield back.
    The Chairman. Also insert in the record--NOAA just released 
their recap today for the U.S. and Global Climates for 2018. A 
couple of highlights in that release, in that report: 2018 was 
the fourth hottest year on record for our planet, falling 
behind only 2015, 2016, and 2017; in 2018 the United States was 
warmer than average, and the wettest in 35 years; in 2018 there 
were 14 weather and climate disasters, each with damages over 
$1 billion, total cost $91 billion. And this is a report that 
was released as of today by NOAA. And we want that entered into 
the record, as well.
    Mr. Bishop. Are you asking for objections?
    The Chairman. Without objections, I hope.

    [The information follows:]

Submission for the Record by Rep. Grijalva

    Just now, NOAA released their recap for U.S. and global climate for 
2018. A couple highlights from this report:

    <bullet> 2018 was the 4th hottest year on record for our planet, 
            falling behind only 2015, 2016, and 2017.

    <bullet> The 2018 Arctic sea ice extent was its second smallest 
            since recordkeeping began, only behind 2017.

    <bullet> In 2018, the United States was warmer than average, and 
            the wettest in 35 years.

    <bullet> In 2018, there were 14 weather and climate disasters each 
            with damages over $1 billion, total cost was $91 billion.

        NOAA: 2018 was 4th Hottest Year on Record for the Globe

  U.S. Experienced $14 Billion Disasters in a Warmer- and Wetter-Than-
                              Average Year

2018 Global Temperature and Sea Ice

    <bullet> For 2018, the average temperature across global land and 
            ocean surfaces was 1.42+F (0.79+C) above the 20th century 
            average. This was the fourth highest among all years in the 
            1880-2018 record,.behind 2016 (highest), 2015 (second 
            highest), and 2017 (third highest). Nine of the warmest 
            years have occurred since 2005, with the last 5 years 
            (2014-2018) ranking as the five warmest years on record.

    <bullet> In a separate analysis of global temperature data, 
            released today, NASA scientists also determined 2018 to be 
            the fourth warmest year on record. Analyses from the United 
            Kingdom Met Office and the World Meteorological 
            Organization ranked 2018 among the top four warmest years 
            on record.

    <bullet> Sea Ice: Average annual sea ice extent in the Arctic was 
            approximately 4.00 million square miles, just edging 
            2017,as the second smallest annual average in the 1979-2018 
            record. The annual Antarctic sea ice extent was 4.20 
            million square miles. This was the second smallest annually 
            averaged value on record, about 77,000 square miles larger 
            than the previous record set in 2017.

2018 Annual U.S. Temperature and Precipitation

    <bullet> Much of the contiguous U.S. was warmer than average, 
            particularly west of the Rockies and across the coastal 
            Southeast, which were characterized by much-above-average 
            temperatures, within their warmest 10 percent of the 
            record. Fourteen states across the U.S. had annual 
            temperatures among the 10 highest on record. Arizona: 
            second highest; New Mexico: third highest; and California: 
            fourth highest. Most of the Northern Plains and Upper 
            Midwest experienced near-normal temperatures. South Dakota 
            and Nebraska, respectively, observed annual average 
            temperatures 0.4+F and 0.1+F below their 20th century 
            averages, marking the first year since 2014 that any state 
            observed a temperature nominally cooler than its 20th 
            century average.

    <bullet> The 2018 nationally averaged precipitation for the 
            contiguous U.S. was 34.63 inches. This total was 4.69 
            inches above average, the wettest in the past 35 years, and 
            third wettest since record keeping began in 1895. The total 
            was largely driven by record and near-record annual 
            precipitation across much of the eastern United States. 
            Nine eastern states--Delaware, Maryland, Massachusetts, New 
            Jersey, North Carolina, Pennsylvania, Tennessee, Virginia 
            and West Virginia--experienced their wettest year on 
            record. Much of the West and Pacific Northwest experienced 
            a drier than normal year.

2018 Weather Events

    <bullet> There were 14 weather and climate disasters with losses 
            each exceeding $1 billion during 2018. These disasters 
            included: two tropical cyclones (Hurricanes Florence and 
            Michael), one western wildfire disaster comprised of 
            several constituent fire complexes over several months, 
            eight instances of severe convective storms (hail, tornado, 
            and/or damaging winds), one large drought episode, and two 
            winter storms. The 14 events, in total, claimed at least 
            247 lives and cost $91 billion. About $73 billion of this 
            total was attributable to three events: Hurricanes Michael 
            ($25 billion) and Florence ($24 billion), and the complex 
            of western wildfires ($24 billion).

    <bullet> In other notable extremes, during a 24-hour period 
            spanning April 14-15, 2018, a rain gauge at Waipa Garden, 
            near Hanalei on the Hawaiian island of Kauai, observed 
            49.69 inches of rainfall. This is the largest verified 
            amount of precipitation observed in 24 hours in the United 
            States. The previous record of 43 inches was set at Alvin, 
            Texas, in July 1979.

January 2019 U.S Temperature, Precipitation and Drought

    <bullet> January 2019 average temperature for the contiguous U.S. 
            was 32.7+F, 2.6+F above average and ranked among the 
            warmest third of its historical record. Near-normal 
            temperatures generally prevailed in the eastern half of the 
            country, while the West was above average for the month. 
            Although short-lived, a cold outbreak near the end of the 
            month gripped much of the Midwest and Northeast, where many 
            daily cold records were set.

    <bullet> The contiguous U.S. precipitation total for January was 
            2.49 inches, 0.18 inch above average. Large portions of the 
            Northeast recorded much-above-average precipitation. Rhode 
            Island and Vermont each had their eighth wettest January on 
            record. This was the sixth consecutive month with 
            nationally averaged precipitation categorized as above 
            average or much above average.

    <bullet> According to the January 29 U.S. Drought Monitor report, 
            16.5 percent of the contiguous U.S. was in drought, down 
            more than five percentage points since the end of December. 
            Drought improved across much of the Southwest and 
            California.

For More

  <bullet> A more complete summary of climate conditions and events can 
be viewed at: http://www.ncdc.noaa.gov/sotc/global/ and http://
www.ncdc.noaa.gov/sotc/national/

       Summary of 2018 Billion Dollar Weather and Climate Events

    <bullet> There were 14 weather and climate disasters with losses 
            each exceeding $1 billion during 2018. These disasters 
            included: two tropical cyclones (Hurricanes Florence and 
            Michael), one western wildfire disaster comprised of 
            several constituent fire complexes over several months, 
            eight instances of severe convective storms (hail, tornado, 
            and/or damaging winds), one large drought episode, and two 
            winter storms.

            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            

    <bullet> The 14 events, in total, claimed at least 247 lives 
            and had total losses estimated at $91 billion. About $73 
            billion of this total was attributable to three events: 
            Hurricanes Michael ($25 billion) and Florence ($24 
            billion), and the complex of western wildfires ($24 
            billion)

    <bullet> 2018 marked the eighth consecutive year with eight or more 
            billion dollar disasters, exceeding the long-term average 
            of 6.2 per year. This was 4th highest total number of 
            events, behind the years 2017 (16), 2011 (16) and 2016 
            (15). It was also the eighth year in the period of record 
            (1980-present), and seventh since 2008, with at least 10 
            billion-dollar disasters.

    <bullet> 2018 also had the 4th highest total costs ($91 billion) 
            behind the years 2017 ($312.7 billion), 2005 ($220.8 
            billion) and 2012 ($128.6 billion) when adjusted for 
            inflation.

    <bullet> 2018 experienced a historically damaging wildfire season 
            ($24.0 billion), a new U.S. annual record, exceeding the 
            previous $18.0 billion wildfire cost record set in 2017.

                                 ______
                                 

    The Chairman. Mr. Huffman.
    Mr. Bishop. No, Mr. Westerman has something for the record, 
too, maybe.
    The Chairman. Yes.
    Mr. Westerman. While we are submitting for the record, I 
would like to submit this Dilbert cartoon to the record.
    [Laughter.]
    Mr. Westerman. It explains the photosynthetic process.

    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                                                 

    Mr. Huffman. Mr. Chairman, that is one of the more 
substantive submittals I have seen from the other side.
    The Chairman. That one will be framed.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. Thank you for having 
this hearing. It is so important that we have an honest 
conversation about climate change. And while Ranking Member 
Bishop wondered where this is heading--obviously, it is too 
early to say which policy prescriptions and solutions this 
Committee may eventually support, but you have to begin with 
the kind of conversations, science-based, fact-based, policy-
based that we are having in this room.
    And what better way to have it than this bipartisan duo of 
governors? I am struck, in listening to your testimonies, that 
when honest people simply listen to the facts, listen to the 
science, and try to solve problems for those they represent, 
the party labels kind of melt away and we just become problem 
solvers. That is refreshing.
    This Committee and this Congress need to hear more of that. 
This country needs to hear more of that. Because, frankly, I 
think America is tired of the shrill, fact-free partisan food 
fight that has tended to be what they see when we talk about 
climate change. So, thank you both so much for being here.
    Governors, I want to ask you about offshore drilling. You 
know that the Trump administration has proposed issuing new 
leases for offshore drilling that would potentially affect each 
of your states. You might say that they want to make your 
states' economies look a little more like my friend, Garret 
Graves' economy in Louisiana, which is still reeling in many 
respects from the BP oil spill.
    What does new offshore drilling represent, from your 
perspective? Is it a threat? What would it do to the coastal 
economies of your states?
    Governor Cooper. North Carolina says not off our coast. We 
oppose seismic testing. We oppose offshore drilling. We have 
too much invested in our tourism economy and our commercial and 
recreational fishing economy and our ports. We cannot tolerate 
a disaster of epic proportions which could occur.
    We have continued to file comments, we have stated our 
opposition, we have met with Federal authorities, and will 
continue to oppose it in North Carolina, just like over 200 
bipartisan local governments have passed resolutions opposing 
offshore drilling off of the North Carolina coast.
    Mr. Huffman. Governor Baker?
    Governor Baker. It is pretty unanimous support for not 
drilling off the coast of Massachusetts, as well, for many of 
the same reasons. We have one of the most important fisheries 
in the United States. The New Bedford scallop fishery is more 
than $1 billion. I think it is the largest, from a dollar 
basis, of any fishery in the United States.
    We also have demonstrated that the best and biggest 
opportunity, we believe, for offshore energy activity is around 
Deepwater Wind. And just to put a point on that, we put our bid 
out, we took the best of the bids that we got. Rhode Island 
took one of the bids, Connecticut took one of the bids. And New 
York, New Jersey, Virginia, and Delaware all of a sudden got 
very interested in Deepwater Wind when they saw the price 
points on the procurement that we had negotiated.
    And the Federal Government, the Bureau of Ocean Energy 
Management, put a series of Federal leases out on Federal 
waters to see what kind of bids they would get on those, and 
they got tremendous bids on that. And I think if we are looking 
for a way to grow energy resources on the East Coast, my view 
would be let's do the Deepwater Wind, which I believe has huge 
potential.
    But the tourism industry, the fishery industry, there are a 
lot of really good reasons not to be doing offshore drilling 
off the coast----
    Mr. Huffman. We have never heard of a catastrophic wind 
spill off our coast.
    [Laughter.]
    Mr. Huffman. So, that seems like a prudent course.
    Governor Baker, you referred a little bit to this when you 
talked about climate change impact on your fisheries, and this 
is something you do very much have in common with Louisiana. 
You have a thriving and very vibrant commercial fishing 
industry.
    But I understand that the Gulf of Maine is one of these hot 
spots for ocean warming. It is warming much faster than most 
other parts of the ocean. Could you speak to what that is doing 
to the movement of these fish that have historically been 
there, how that might impact the seafood industry that you 
represent, and coastal fishing communities?
    Governor Baker. Well, if you think particularly about cod 
and lobster, which are probably two commercial fishing 
industries that are as identified with Massachusetts and Maine 
as any you are going to find--in fact, there is a cod that is 
actually hanging on the wall in our State House of 
Representatives chamber, because that is considered to be kind 
of the----
    Mr. Huffman. Sacred.
    Governor Baker. Yes, exactly. And that cod fishery is 
moving north. And the lobster fishery is moving north, as well. 
We are all very concerned that, as the water continues to warm 
in the Gulf of Maine, it could have huge implications for the 
shellfish industry, as well.
    It is a very big problem, and it is one that you don't have 
to project out. It is already happening, and it is there, and 
you can see it in the data. And you can see it when you talk to 
any of the folks who are part of those fishing communities.
    Mr. Huffman. Thank you both for your leadership. I yield 
back.
    The Chairman. Thank you very much.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you. And I want to thank the 
panelists, both----
    The Chairman. Mr. Lowenthal, I just want to be respectful 
of the governor's time. We probably have him for the rest of my 
colleagues--they are gracious enough for an additional 10 
minutes. Maybe if we can--and then we will have to end at that 
point.
    Dr. Lowenthal. Thank you, Mr. Chairman.
    The Chairman. I apologize----
    Dr. Lowenthal. In my 10 seconds, I would like to talk about 
the speed by which we move toward zero carbon economies. In 
your experience, and you both have stated in your testimony 
that you set targets for the reduction of greenhouse gases. Can 
you share with us some of your thoughts about what we can do at 
the Federal level in setting targets? And what are the 
obstacles you received, or you found in doing this? How far can 
we go?
    Because I am leaning toward what is the balance between a 
regulatory approach and an incentive, market-driven approach? 
Can they complement each other? Or should we just have one 
versus the other?
    Governor Cooper. We have set a goal in North Carolina of a 
40 percent reduction by the year 2025. And one thing we know, 
it is going to take a balanced approach. For example, our 
renewable portfolio standard, we are making requirements of our 
utilities to increase their renewable energy production, while 
at the same time we are doing things to encourage zero-emission 
vehicles, energy efficiency. I mean it has to be a combination 
of all of the above.
    One thing I do know is that the United States needs to be a 
world leader again in this issue. And anything that you can do 
from a Federal perspective to make that happen, we would 
appreciate it. Our 20-state Climate Alliance represents about 
47 percent of the population of the United States, and a little 
over half of the gross domestic product. So, we do have a 
strong voice that we want the United States to be a leader in 
this again. And anything that you can do, legislatively from 
your bully pulpit to make that happen is greatly appreciated. 
It is absolutely necessary.
    Governor Baker. And I would just say a couple things. One 
is I do think the most important thing is to establish long-
term goals and objectives, because that helps the private 
sector plan. The second thing I would say is that the goals and 
objectives can vary from region to region. And I think that, 
back to the Louisiana versus Massachusetts issue, that is a 
legitimate issue.
    The regional greenhouse gas coalition that we put together 
with the northeastern states around electricity and energy 
production has been incredibly effective at reducing greenhouse 
gases through energy production.
    And we are currently talking to the same states about doing 
something in transportation, which I believe will have similar 
implications for nudging people and encouraging people to move 
to zero-emission-type vehicles over time. And as I said in my 
remarks before, our economy has continued to perform, even as 
our actual energy use has stayed completely flat, and our 
greenhouse gas emissions have gone down.
    I think one of the things that is important here is, we 
have created state-based incentives to encourage our utilities 
and to encourage our businesses to head in this direction. And 
we have about 100,000 jobs now in Massachusetts that are 
related to the green economy, getting back to the point that 
Governor Cooper made previously, which is even in Massachusetts 
the solar industry has been very successful at finding a path 
forward.
    And we are now pairing solar investments with storage, and 
that is another area where the Federal Government can play a 
big role. I mean storage has tremendous potential, and it has 
tremendous potential on both price and on environmental issues.
    The time we typically burn the most environmentally 
dangerous fuels at the highest price is when it is really cold 
out, or really hot out, and we are paying a ton for what we 
get, and most of the time it is our most environmentally 
dangerous sources. And I think storage is a big opportunity to 
do something about that, and that is a place where the Feds 
could really play a big role.
    Dr. Lowenthal. I just want to say one thing. Thank you for 
that. I represent the port area of Long Beach, Los Angeles. We 
are the largest complex. We have reduced our greenhouse gas 
effect by 80 percent and had the greatest economic growth 
because of that. So, there are a lot of models out there.
    The last thing is, I think that there are regional 
differences. I am glad that Representative Graves mentioned it, 
the difference between Louisiana and Massachusetts. You pointed 
that out. I think the transition to a green economy, which we 
are doing, and green energy, is going to have to deal with 
that, the transition in workers and resources to different 
regions. And I think it is important that he at least mentioned 
it, even though I think we have differences of opinion on how 
we reach that goal.
    Governor Baker. I mean I have always been--Texas is a very 
big oil and gas state. It also is a very big wind and solar 
state. It is a big energy state. And I wonder if that is one of 
the ways we could think about some of these issues, going 
forward.
    The Chairman. Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. I thank Governor Cooper, 
Governor Baker for being here today.
    Every day, when I come to work for the people of 
California's Central Valley, I think about how what we do is 
going to affect their lives, particularly in these rural 
communities that I represent. And while it is clear as day that 
climate change is real, according to the National Climate 
Assessment, rural communities in particular face more challenge 
obstacles responding to climate change, because they are so 
highly dependent on our natural resources.
    And, certainly in California, we have seen those direct 
impacts, the heat waves, the fires, the droughts. And we all 
know it is only going to get worse unless we do something about 
it.
    But my particular concern and interest--and to you, 
Governor Baker, because I know that you worked in the 
healthcare industry--is really the linkage between climate 
change and public health. And particularly public health, how 
it is going to affect our rural communities.
    Governor Baker. I think the two things I would speak to on 
that, the first is, obviously, the air quality issue, which 
Congressman Bishop mentioned before. There are definitely air 
quality issues associated with climate, and those air quality 
issues translate into issues around asthma, emphysema, and 
other both acute and chronic conditions that are associated 
with that.
    The second thing I would say with respect to the rural 
piece is the rural communities generally have difficulty not 
just with climate, but with access to what I would describe as 
sort of modern and sort of standard operating procedure 
technology that you see in other places.
    I mean one of the biggest things we have been working on in 
western Massachusetts, which has many hill towns and many rural 
communities, is broadband, which is a really big issue, in 
terms of economic development and sort of just future capacity 
to support and serve the people who live in those communities, 
and provide jobs and economic opportunity. And I think, in many 
ways, the strategy around rural communities needs to be about a 
lot of things, one of which relates to energy and the climate.
    But there are a lot of things we should be doing with rural 
communities, because they have very different issues that they 
need to worry about.
    Mr. Cox. Yes, thank you, I appreciate the comments 
regarding the air quality. San Joaquin Valley is the worst air 
quality basin in the Nation. And it is not getting any better. 
It is such a shame that we get to see the mountains once or 
twice a year, right after a nice rainfall.
    And Governor Cooper, I don't know if you had----
    Governor Cooper. When we, in North Carolina, forced the 
Tennessee Valley Authority to significantly reduce coal-fired 
plant emissions, there was a demonstrable positive effect on 
public health. That matters a great deal.
    And from the rural perspective, farmers are getting hit 
hard by the effects of climate change. And they know it. And 
you hear from them, because in North Carolina now we have made 
significant state appropriation to get some immediate help to 
our farmers, many of them hit by flood after flood, storm after 
storm, who are now beginning to make the decision this is just 
not worth it. It is not worth it to be in this business. That 
should be a frightening result, not only for my state, but for 
the rest of the country and the world, for that matter.
    Mr. Cox. Amen.
    Mr. Chairman, I yield back the rest of my time.
    The Chairman. Thank you, and to the governors, our 
appreciation. Thank you very much for your testimony. Members 
have up to 3 days to submit questions that we will forward to 
you. And if you would be gracious enough to respond to them, 
particularly the Members that didn't have an opportunity today 
to ask questions or make comments and have a dialogue with you.
    Governor Baker. Thank you for that, Mr. Chairman.
    Mr. Bishop. Can I just say one last thing? I will be 
actually asking some questions, as well, to you, specifically 
on Mr. Huffman's response or questions on offshore drilling, 
that if you think the governors or the states have a right or 
at least a say on what happens in Federal waters off your 
shores.
    And if your answer is yes, then I am going to wonder why my 
governor doesn't have a right and a say on Federal lands within 
my state. Anything short of that is hypocritical, and that 
issue is something that is the jurisdiction of our Committee.
    The Chairman. Thank you very much, governors.
    Governor Baker. Thank you, I appreciate it.
    The Chairman. And we very much appreciate it and thank you 
for initiating this very important discussion and solution 
seeking here in this Committee.
    With that, let me invite the second panel up and we will 
begin then. And I will begin the questioning with the Members 
that didn't have an opportunity for the second panel. OK, 
senior Members?
    [Pause.]
    The Chairman. Let me resume the meeting and welcome the 
second panel. Let me introduce the second panel.
    We have Ms. Elizabeth Yeampierre, the Executive Director of 
UPROSE; Ms. Nadia Nazar, Co-Founder and Co-Executive Director 
of Zero Hour Movement; Dr. Kim Cobb, Professor of Earth & 
Atmospheric Sciences and the Director of the Global Change 
Program at the Georgia Institute of Technology; Ms. Paula 
DiPerna, Special Advisor, CDP North America; Reverend Lennox 
Yearwood, President and CEO of Hip Hop Caucus; Mr. Derrick 
Hollie, President of Reaching America; and Dr. Judith Curry, 
President of Climate Forecast Applications Network.
    As with the first panel, all statements are limited to 5 
minutes. Your entire statement will be part of the hearing 
record.
    I explained the lights. Yellow means you have 1 minute. 
Red--for the sake of everybody having their questions and 
additional time to engage with the witnesses today, we would 
hope that you would stop at that point.
    Let me begin with Ms. Nazar. Your 5 minutes--thank you for 
being here. I appreciate it, and I am looking forward to your 
comments and your perspective.

 STATEMENT OF NADIA NAZAR, CO-FOUNDER, CO-EXECUTIVE DIRECTOR, 
AND ART DIRECTOR, ZERO HOUR MOVEMENT; CO-ORGANIZER OF THE YOUTH 
              CLIMATE MARCH, PERRY HALL, MARYLAND

    Ms. Nazar. Thank you for inviting me to be here today. I 
would first like to acknowledge that we are on the land of the 
Piscataway Indian Nation, an indigenous tribe. My name is Nadia 
Nazar. I am 16 years old, and I am a junior in high school in 
Baltimore, Maryland. I am an artist and environmentalist. I 
have dedicated my time and efforts to the community and animals 
on this planet since I was 12 years old. I am a founder of the 
youth-led climate organization Zero Hour.
    We say this is Zero Hour because this is zero hour to act 
on climate change. In fact, Zero Hour will soon launch a 
nationwide campaign for youth to educate their peers about 
climate justice.
    Climate change has already impacted my future. Scientists 
say we will be at irreversible climate chaos by the year 2030 
if we don't drastically reduce our emissions right now. I will 
be 28 years old in 2030.
    Our world is already experiencing the impacts of global 
warming, and living conditions will only get closer and closer 
to the extremes. Humanity has pushed this planet to the edge. 
And, from my view, it seems that few in the policy and 
political world are paying attention to the consequences of our 
actions over the generations.
    The climate crisis exasperates problems that are already 
prevalent, especially in developing nations. Clean water, a 
vital element to life, is becoming even more scarce. Extreme 
weather and natural disasters are now the norm, creating new 
crises against vulnerable populations.
    The United States is historically the largest emitter of 
greenhouse gases. But those who are facing the most severe 
consequences are the people in developing countries and those 
in lower-income communities. People in poverty have less access 
to resources needed to survive when climate extremes take 
place.
    Marine life, such as sea turtles and whales and other 
species are facing a mass extinction, because of the warmer 
ocean waters that we humans have caused. My community in 
Baltimore depends on the Chesapeake Bay. These warming waters 
will not only harm future generations of my community, but it 
will also harm generations around the world that rely on bodies 
of water for their livelihoods.
    It seems here in Washington the policy makers have for far 
too long put the interests of fossil fuel corporations and 
other carbon-emitting industries over the health and prosperity 
of the people, the wildlife, and this planet. The lives of my 
generation have been disregarded for far too long.
    You should put the interests of your future generations 
first, not just because it is the right thing to do, but 
because many of us have the right to vote in just a couple of 
years. We care about clean air and clean water, and we will be 
voting for those who want to address climate change head on.
    Some of my friends say they don't want to have children, 
because they are worried about the kind of lives they would 
have to live on a warming planet. In the future, asthma rates 
will be higher, there will be less access to food, and more 
extreme natural disasters in weather will occur, all due to 
climate change.
    Climate change not only threatens the future of my 
generation, but it continues to displace and kill people. My 
family in Kerala, India experienced the floods that occurred 
there this past summer. These floods displaced approximately 
800,000 people and killed 483 people. Around the same time my 
friends in Ellicott City, Maryland experienced floods that 
caused landslides and infrastructural damage in a historical 
city.
    Climate change has been happening. Climate change is 
happening. Climate change will continue to happen. Climate 
change is my future, unless you do something about it right 
now. My generation includes your children and your 
grandchildren.
    I see climate change as an issue that connects everyone and 
everything on our planet. This is not just about changes in the 
weather. It is about these changes that will impact and harm 
populations all around the world. If there is no food because 
plants can't grow due to extreme drought, that can cause war. 
And the most vulnerable populations oppressed by racism, the 
patriarchy, colonialism, and more will be the ones who suffer.
    These are the people who are so often left out of 
conversations, conversations about the quality of the air and 
water, about energy, and about how we treat this land. We at 
Zero Hour believe that not only have the voices of the Nation's 
youth been ignored, but others, as well: women, people of 
color, indigenous communities, and some of our most vulnerable 
populations.
    How can we progress toward an equal and equitable society 
of justice if we can't listen to those who make up our country?
    I believe that everyone must work together, united and with 
compassion, on this issue. Those who hold the most power and 
influence in our society should work with those working in our 
local communities. I ask of you, Congress, to work with the 
grass roots climate movement, including the youth, and listen 
to them in order to bring sustainable change swiftly in time 
for my generation and I to be able to enjoy life, liberty, and 
the pursuit of happiness. Thank you.

    [The prepared statement of Ms. Nazar follows:]
   Prepared Statement of Nadia Nazar, Co-Founder, Zero Hour Movement
    Hello, my name is Nadia Nazar. I am 16 years old and I am currently 
a junior in high school. My SATs are in 2 months, and even though I'm 
swamped with my academic studies and obligations, climate change is so 
important to me that I'm here to talk to you about this crisis and the 
impact it will have on me and my peers' future. I need your help to 
solve this crisis that is taking away my future.
    I live near Baltimore, Maryland. I was born and raised there. Both 
of my parents are immigrants from Kerala, India. I have been surrounded 
by nature for as long as I can remember, and I'm sure you have too. My 
mother is a marine biologist and every year she would take me to the 
National Aquarium. I would stare at the stingrays, sharks, turtles, 
jellyfish, and seahorses as they swam by my tiny self. The beauty of 
life in the ocean was absolutely mesmerizing. As I got older, people 
would tell me about how humans kill these animals. I'd always wonder 
why, and I still do.
    I have been studying climate since I was in the 8th grade and I 
have become increasingly troubled by the dangerous impact of climate 
change to people, wildlife, and the planet.
    That is why I co-founded Zero Hour, a youth-led organization, with 
three friends online. We were youth who just wanted a livable planet. 
This organization became Zero Hour, a youth led climate organization. 
We organized the Youth Climate March on July 21, 2018. We had a Youth 
Climate Lobby Day, where 180 youth from across the country lobbied for 
the Zero Hour Platform and the No Fossil Fuel Money Pledge. We also had 
a Youth Climate Art Festival where we brought together art, music, and 
climate action. I love my work with Zero Hour because we push for 
change on all levels. Change starts from the ground up; we must work 
locally, nationally, and globally. One of the key aspects of Zero 
Hour's platform is that it provides a variety of solutions 
systematically, and for individuals. Climate change is an issue that 
needs to be fought on a global and at a household level in order to 
achieve a livable planet.
    Zero Hour will soon be launching a campaign that will educate youth 
across the country about climate justice and how systems of oppression 
intersect with the climate crisis.
    I am the Co-Executive and Art Director of Zero Hour. I wake up 
early to go to school. Send out e-mails on the school bus, during 
lunch, and on the school bus home. I do my homework and then work for 
Zero Hour for hours. I stay up till 1 a.m. almost every night, sometime 
3 a.m., doing calls, e-mails, and homework for my AP classes. That's 
how important this issue is to me.
    This lifestyle is something I'd never imagine myself pursuing. I 
always saw myself having a normal high school experience with my 
friends. But I had to act on climate because it just didn't seem many 
of the adults were. We are spending our teenage years, which you only 
have once, are being spent organizing for something we didn't choose to 
happen to us. None of us wanted this burden to be passed down onto us.
    Why do we have to clean up the mess that past generations, and YOUR 
GENERATION, has left us?
    People always ask if I have hope. As a young climate activist, 
people look to youth like me and see hope. Every time that happens I 
lose hope, because the adults are looking for us to solve the problem. 
But how can we solve it if many people doing nothing. My hope is equal 
to the time we have left. We have such little time left, so we must act 
upon that hope, not just stare at it ignorantly from a distance. Adults 
are glad that we are taking action, but we need YOU adults to take 
action too. We, the youth, need everyone to act in order to solve 
climate change, before it is too late.
    According to the United Nations Intergovernmental Panel on Climate 
Change report, that time is in 11 years. We have until 2030 to kick our 
addiction to fossil fuels if we want to have a chance at keeping 
warming below 1.5C. I will be 28 years old in 2030. The rest of my 
life, then, will depend on the decisions we make today. As the latest 
National Climate Assessment shows, I've already lived my whole life in 
a changed climate.
    My peers have similar worries.
    Youth all over the world have held strikes from school to bring 
attention to climate change, and its effect on my generation. On March 
15, youth from all across the United States will be on strike to 
protest and demand climate action. Specifically, Zero Hour and the 
youth striking will be asking you, Members of Congress, to support the 
Green New Deal and act on climate. Please, listen to the youth of this 
country.
    Climate change may not have affected you personally yet, but many 
individuals all around the world are already coping with the effects 
from the suffocating and deadly wildfires in California to the massive 
flooding from the most vicious hurricanes our United States has ever 
seen.
    The magnitudes of natural disasters will only continue to increase 
as climate change grows stronger. There will be more floods. Deserts 
will be drier. This past summer's heatwave has already shown that 
summer is getting hotter. These irregular weather patterns are from the 
changing climate. Climate is different than weather, but climate has a 
significant impact on the weather.

    Here are some more natural disasters from just the past 3 years:

 
 
 
Nov. 8, 2018    Paradise, CA           Camp Fire          79
 
Sept. 13, 2018  Carolinas              Hurricane          42+
                                        Florence
 
Sept. 9, 2018   Guam, Marshall         Super Typhoon      69+
                 Islands,               Mangkhut
                 Philippines, and
                 southern China
 
July 23, 2018   Redding California     The Carr Fire      8/1,604 homes
                                                           destroyed
 
July, 2018      Japan                  Japan Flooding     122+
                                        and Mudslides
 
May 2, 2018     Western and Northern   India Dust Storms  125+
                 India
 
Jan. 9, 2018    Southern California    Montecito          21/129 homes
                                        Mudslides          destroyed
 
Aug. 14, 2018   Sierra Leone, West     Sierra Leone       1000+
                 Africa                 floods and
                                        landslides
 
Aug. 17, 2017   Houston, Texas         Hurricane Harvey   68
 
Aug. 30, 2017                          Hurricane Irma     52
 
July 2017       Indian Subcontinent    2017 South Asian   1,300+
                                        floods
 
Sept. 16, 2017  Puerto Rico and        Hurricane Maria    2,975
                 Virgin Islands
 
Jan. 23, 2016   U.S. Northeast         Winter Storm       49
                                        Jonas
 
Sept. 28, 2016  Atlantic Ocean         Hurricane Matthew  603
 


    Systems of oppression have magnified the effects of climate change. 
Systems including--racism, patriarchy, colonialism, homophobia, 
ableism--have made the effects of climate change disproportionately 
affect certain groups of people.
    People of color are disproportionately incarcerated, with black 
people incarcerated at more than five times the rate of white people. 
Prisoners were forced to clean up toxic areas after the BP oil spill. 
They're also fighting wildfires, and cleaning up after hurricanes and 
floods. In the event of a natural disaster, prison protocol (in some 
prisons) is to lock prisoners in their cells while the staff evacuates 
the building, leaving prisoners to die if the prison is hit. Example, 
when Hurricane Katrina hit New Orleans. This past weekend, the inmates 
at the Metropolitan Detention Center in Brooklyn were left without heat 
during the frigid temperatures of the polar vortex, that was linked to 
climate change.
    Often, the majority of industrial fossil fuel projects are 
constructed around or near minority neighborhoods, impacting the health 
of those peoples.
    And climate change's impacts are even more dire in developing 
countries.
    Colonialism refers to control over a piece of land and its people 
by a more dominant power. One example on the negative impact climate 
change has with colonialism, patriarchy, and racism is the impact on 
girls of color in the United States who are the missing and murdered 
Indigenous girls. Fossil fuel companies hire land men to build 
pipelines carrying crude oil through Indigenous lands. Some of these 
men rape native girls on their land. Monica Jack, Aielah Saric-Auger, 
and Cheyenne Begay are some of the Indigenous women that have been 
assaulted on their land. These are just a few of the girls that were 
endangered. And trans-native girls are more likely to be victim to 
sexual assault by some of these men that build the pipelines. Sometimes 
pipelines leak crude oil into the water source. This pollutes drinking 
water for the Indigenous people.
    Homophobia, the hate against the LGBTQIA community, has led 
transgender people to be two times more likely to be homeless. Just 
last week, many homeless people passed away due to the extremely cold 
temperatures. Many homeless people don't have access to the resources 
to survive when climate extremes take place.
    Many people's voices in the climate crisis who make up our country 
have been ignored. The Indigenous communities have been ignored. People 
of color have been ignored. Women have been ignored. The LGBTQIA 
community have been ignored. Disabled people have been ignored. The 
Youth have been ignored. To solve climate change, we must work with the 
people, the wildlife, and nature.
    I was given the honor and opportunity to speak at the United 
Nations for International Day of the Girl last October 11. I spoke 
about climate change's effect on girls around the world. Climate 
change's effects are intruding on a successful life filled with 
happiness for many girls in developing countries. After natural 
disasters, sexual violence in the area increase. Girls are more likely 
to be raped in disaster struck areas.
    I stood next to a girl from the Philippines at the International 
Day of the Girl event. I will never forget her story. Her name was 
Hani. Her community in the Philippines was hit with a typhoon. She lost 
many things including important legal documents and more. But she also 
lost her best friend.

    I don't want to lose my best friend.

    I don't want to lose my brother.

    I don't want to lose my family in India.

    I don't want to lose myself.

    The youth who fight day and night for you to take action on climate 
change don't want to lose out on their future. That is why we fight, 
and why we will continue to fight.
    One cause of climate change that many people overlook is industrial 
animal agriculture. This industry has contributed to between 14.5 and 
18 percent of the greenhouse gas emissions in the atmosphere.
    What disappoints many other youth and I, is that there are elected 
officials prioritizing money from fossil fuel corporations over the 
lives of my generation. I hope you aren't one of them.
    Our relentless greed, our relentless thirst for things that don't 
make us happy, has taken away our connection from earth. Basic 
necessities--food, shelter, air, water--have been critically endangered 
because we are in a mass extinction. It is surreal that profit is being 
put above the people. Adults have been compromised by greed.
    Not only are these actions of these corporations hurting people, 
but it is also harming the wildlife of this planet. Earth is now in the 
6th mass extinction in all of history. More species are reaching 
extinction. The last mass extinction was the one that killed all the 
dinosaurs. Humanity's legacy on earth will be that we killed a 
significant amount of species on this planet. As Elizabeth Kolbert 
said, if you look closely in your backyard you can see species going 
extinct at this moment. Humanity cannot survive without the 
biodiversity of the environment.
    I have to take an inhaler multiple times a week, sometimes multiple 
times a day. Clean air is a necessity of life. How can ``Life, Liberty, 
and the Pursuit of Happiness'' be pursued when clean air and clean 
water is harder to have?
    The United States' inaction on climate change is violating my right 
to life, liberty, and the pursuit of happiness as a citizen of the 
United States.
    I ask that you push your efforts into climate legislation, for the 
sake of my generation. I ask that you believe in science. I ask that 
you make sure the sacrificed time and efforts of the youth are not 
ignored. I ask that you recognize climate justice.
    I ask that you listen to my voice.

                                 ______
                                 

    The Chairman. Thank you very much.
    Ms. Yeampierre, Executive Director, UPROSE, the floor is 
yours.

STATEMENT OF ELIZABETH YEAMPIERRE, EXECUTIVE DIRECTOR, UPROSE, 
  CO-CHAIR OF THE CLIMATE JUSTICE ALLIANCE, BROOKLYN, NEW YORK

    Ms. Yeampierre. Buenos dias. My name is Elizabeth 
Yeampierre. I am the Co-Chair of the Climate Justice Alliance, 
an inter-generational alliance of more than 68 front-line 
community organizations, movement networks, and movement 
support groups rooted in Indigenous, African-American, Latinx, 
Asian-Pacific Islander, and poor white communities living on 
the front lines of climate change, as well as the dig, burn, 
drive, dump industries causing the climate crisis.
    I am also Executive Director of UPROSE. It is a woman-of-
color-led inter-generational organization founded in 1966 
dedicated to environmental and social justice. We are home to 
the largest gathering of young people of color and climate 
justice, the Climate Justice Youth Summit. We are located in 
Sunset Park, Brooklyn, a diverse community of color made up 
predominantly of people of color and immigrants. We have a 
poverty rate of nearly 26 percent above the city average, and 
far above the national average.
    From a climate perspective, we are an industrial waterfront 
community exposed to flooding from hurricanes and storm surges, 
as was the case in 2012 when Superstorm Sandy hit.
    Like climate change, the conditions of our communities are 
the consequence of a long history of extraction. We share 
legacies of fighting colonialism, as well as race, class, and 
gender oppression, while advocating for environmental justice. 
Our communities are the first and most impacted by the storms, 
fires, floods, and droughts, and are disproportionately 
burdened by the pollution, poverty, and systemic violence 
associated with the multi-national corporations driving these 
ecological crises.
    Puerto Rico is the most recent and drastic example of a 
land ravaged by corporate extraction, with people left to fend 
for themselves after years of colonialism, austerity, and 
neglect. The double disasters of Hurricanes Maria and Irma 
created an opportunity for disaster capitalists to profit from 
people's suffering in a time of social and economic 
devastation. The same thing took place in the Gulf South for 
black and indigenous communities after Hurricane Katrina.
    Climate change solutions must honor human rights and 
respect front-line leadership through the solutions that are 
proposed.
    Elsewhere, the extractive economy continues to harm entire 
communities, as is the case with uranium mining in New Mexico, 
which affects over 60 indigenous nations. The southwest United 
States was declared a national sacrifice zone in the Federal 
energy policy of the 1970s.
    This means that environmental safeguards were not enforced, 
thus endangering human life. Drinking water is tainted with 
uranium and arsenic, and there is a high rate of cancer, heart 
disease, and lung disease. Uranium mining is a key element of 
nuclear energy, which is considered renewable energy in most 
Federal clean energy policy initiatives.
    You can understand why we do not support the use of large-
scale bio-fuel, bio-mass, mega-hydro dams, nuclear energy, or 
energy derived from burning waste. They are usually developed 
in our backyards, where we live, work, play, and pray, and they 
do not reduce emissions at the source of extraction, only 
prolonging any real solutions to the climate crisis.
    To effectively tackle climate change, we must invest in a 
just transition. A just transition will not be smooth, but must 
be just, leaving no worker or community behind. Front-line 
communities and an economic framework that moves us away from 
extraction must be at the center of any effort to address 
climate change.
    All around the country there are examples of front-line 
communities developing projects that engage in innovative 
infrastructure, further control, and create jobs. Some are at 
the early stages, while others are ready to be scaled up and 
replicated. They will benefit more people and communities if 
there is political will, public investment, and incentives to 
do so.
    The fossil fuel industry receives millions in subsidies. 
Imagine what communities are already forging comprehensive 
solutions to the climate crisis could do with a reallocation of 
these subsidies. My organization, UPROSE, just recently 
partnered with the New York City Economic Development 
Corporation, Solar One, and Co-Op Power, to create the first 
community-owned solar cooperative in the state of New York.
    On a larger scale, we advocate for turning the area's 
industrial sector into an economic engine able to build for the 
region's climate adaptation future. Offshore wind alone can 
deliver power to New York City, displacing the need for dirty 
power plants. But just as importantly, it would position the 
city at the center of this emerging industry, driving local 
economic development.
    For years in another part of the country, the residents of 
Highland Park, Michigan suffered high energy costs and 
blackouts, along with massive flooding. When the municipality 
was in a financial crisis, the local energy company repossessed 
1,000 street lights, leaving the residents in the dark. 
Soulardarity, a local environmental justice group and a CJA 
member stepped in and designed a system for installing solar 
power lights.
    Soulardarity created a bulk purchasing program that is 
training residents in the solar installation and 
weatherization, readying them to step into clean energy jobs. 
They are using education and organizing to literally make light 
of a dark situation.
    Front-line communities know what is at stake. The question 
is, will legislation aid our communities' future survival, or 
hinder it? I hope, for all of our sakes, it will be the former. 
The bottom line is that our communities are not sacrifice 
zones, and they have been for too many years. Gracias.

    [The prepared statement of Ms. Yeampierre follows:]
Prepared Statement of Elizabeth Yeampierre, Executive Director, UPROSE; 
                   Co-Chair, Climate Justice Alliance
    My name is Elizabeth Yeampierre. I am Co-Chair of the Climate 
Justice Alliance, a national organization that links 68 organizations 
across the United States and Puerto Rico. I am also Executive Director 
of UPROSE, Brooklyn's oldest Latinx organization. Founded in 1966, 
UPROSE is dedicated to environmental and social justice and part of the 
national frontline climate justice movement representing those most 
impacted by climate change.
    UPROSE is located in Sunset Park, Brooklyn. It is a diverse 
working-class community where over half of the residents are People of 
color/immigrants, mostly of Latinx descent. We have a poverty rate of 
nearly 26 percent, above the city average and far above the national 
average. Housing affordability is a major crisis, with nearly half of 
my neighbors being rent-burdened and the city undergoing extreme 
gentrification that will only worsen with the expansion of Opportunity 
Zones.
    From a climate perspective, we are an industrial waterfront 
community exposed to flooding from hurricanes and storm surges, as was 
the case in 2012 when Superstorm Sandy hit. As a poor and working-class 
community, housing displacement and disruption of services due to 
storms and other severe weather affect our people much more acutely 
compared to residents of affluent communities with more resources. 
Further, on a day-to-day basis, disproportionate exposure to fossil 
fuel pollution and other climate change impacts, such as extreme heat, 
is built into New York City's policy fabric, transportation planning, 
and economic development, all arising from racism that compounds the 
pollution impacts with socioeconomic inequities. The oppression of low 
wages and underfunded schools in our community is exacerbated by high 
rates of asthma and other pulmonary diseases, heart disease, and lung 
cancer, which further restrict my neighbors' economic and educational 
potential.
                      the climate justice alliance
    The Climate Justice Alliance (CJA) is an alliance of more than 68 
frontline community organizations, movement networks, and movement 
support groups rooted in Indigenous, African American, Latinx, Asian 
Pacific Islander, and poor white communities living on the frontlines 
of climate change, as well as the ``dig, burn, drive, dump'' industries 
causing this crisis.
    Like climate change, the conditions of our communities are the 
consequence of a long history of extraction. We share legacies of 
fighting colonialism, as well as race, class and gender oppression, 
while advocating for environmental justice. And we share vision, values 
and principles that guide our environmental, economic, and social 
justice organizing. Our communities are the first and most impacted by 
the storms, fires, floods and droughts, and are disproportionately 
burdened by the pollution, poverty and systemic violence associated 
with the multi-national corporations driving these ecological crises.
    Puerto Rico is the most recent and drastic example of a land 
ravaged by corporate extraction, with people left to fend for 
themselves after years of colonialism, austerity and neglect. The 
double disaster of Hurricanes Irma and Maria created an opportunity for 
``disaster capitalists'' to profit from people's suffering in a time of 
social and economic devastation. The same thing took place in the Gulf 
South for Black and Indigenous communities after Hurricane Katrina. 
Climate change solutions must honor human rights and respect frontline 
leadership through the solutions that are proposed.
    Elsewhere, the extractive economy continues to harm entire 
communities, as is the case with uranium mining in New Mexico, which 
affects over 60 Indigenous nations. The southwest United States was 
declared a ``National Sacrifice Zone'' in the Federal Energy Policy of 
the 1970s. This means that environmental safeguards were not enforced, 
thus endangering human life. Drinking water is tainted with uranium and 
arsenic and there is a high rate of cancer, heart disease, and lung 
disease. Uranium mining is a key element of nuclear energy which is 
considered renewable in most Federal clean energy policy initiatives. 
You can understand why we do not support the use of large-scale 
biofuel, biomass, mega-hydro dams, nuclear energy, or energy derived 
from burning waste. They are usually developed in our backyards, where 
we live, work, play and pray and they do not reduce emissions at the 
source of extraction, only prolonging any real solutions to the climate 
crisis.
                        toward a just transition
    To effectively tackle climate change, we must invest in a Just 
Transition toward specifically local, living economies of scale.
    Just Transition is a vision-led, unifying and place-based set of 
principles, processes and practices that build economic and political 
power to shift from an extractive economy to a regenerative economy--
not just for workers but for whole communities. This means approaching 
production and consumption cycles holistically and waste-free.
    This transition away from fossil fuels itself must be just and 
equitable, redressing past harms and creating new relationships of 
power for the future through reparations, living wage jobs and economic 
and social development that aims to address historical harm and 
discrimination. If the process of transition is not just, the outcome 
will never be.
    It is clear from the scientific data that we must move away from 
fossil fuels. It will not be smooth but the transition must be just, 
leaving no worker or community behind. Frontline communities and an 
economic framework that moves us away from extraction must be at the 
center of any effort to address climate change.
    Climate change demands that we live with what we need instead of 
what we want. Everywhere people are learning to do this, and frontline 
communities are leading the way and reclaiming their traditions.
         new york's first solar cooperative is community owned
    All around the country there are examples of frontline communities 
developing projects that engage innovative infrastructure, further 
local control, and create jobs. Some of these projects are in the early 
stages. Others are ready to be scaled up and replicated in ways that 
will benefit more people and communities if there is public investment 
and incentives to do so. The fossil fuel industry receives millions in 
subsidies. Imagine what communities already forging comprehensive 
solutions to the climate crises could do with the reallocation of those 
subsidies.
    My organization, UPROSE, partnered with the NYC Economic 
Development Corporation, Solar One and Co-op Power to create the first 
community-owned solar cooperative in New York State.
    On a larger scale, we advocate for turning the area's industrial 
sector into an economic engine able to build for the region's climate-
adaptable future. Offshore wind alone can deliver power directly to New 
York City, displacing the need for dirty power plants. But just as 
importantly, it would position the city at the center of this emerging 
industry, driving local economic development.
    This industry will revitalize our working waterfront and create 
thousands of blue-collar industrial jobs. The Department of Energy 
expects 40,000 new jobs in the sector by 2030. Those jobs will be 
located wherever the ports and the work force are. This could move our 
region away from the fossil fuels that threaten our climate while 
blunting the forces of real estate speculation that are disrupting our 
communities. An offshore wind hub in Sunset Park would serve as an 
innovative model of economic development that would transform our 
energy system and provide pathways to a middle class income for 
workers. It would act as a bulwark against extractive real estate 
interests and position the city as a leader on climate change solutions 
at the national level. From the very local to a much larger scale, 
frontline communities like ours are working to operationalize creative 
solutions that address local needs.
             educating for the future, solving problems now
    For years, in another part of the country, the residents of 
Highland Park, Michigan suffered high energy costs and energy blackouts 
along with massive flooding. When the municipality was in financial 
crisis, the local energy company repossessed 1,000 streetlights, 
leaving the residents in the dark. Soulardarity, a local environmental 
justice group and a CJA member, stepped in and designed a system for 
installing solar-powered street lights. They have installed 7 solar-
powered streetlights and created a proposal for the City to finance and 
install a full 1,000, re-lighting the streets and providing affordable 
internet and civic engagement tools. Building on its commitment to 
energy democracy and community empowerment, Soulardarity created a bulk 
purchasing program that is training residents in solar installation and 
weatherization, readying them to step into clean energy jobs as they 
become available, and has deployed $30,000 of solar lighting and other 
products in Highland Park and neighboring communities. They are using 
education and organizing to literally make light of a dark situation. 
The group is shortly releasing a Blueprint for Energy Democracy, a plan 
to make Highland Park a global model of sustainability and democracy, 
and collaborating with a diverse array of stakeholders to advance the 
plan, and advocating for state and Federal actors to provide financial 
resources and technical assistance to bolster community plans.
              expanding solar while growing community jobs
    In Chicago, CJA member Little Village Environmental Justice 
Organization (LVEJO), which is based in a low-income, mainly Latinx 
immigrant neighborhood, worked hard to directly represent environmental 
justice communities in the state of Illinois' Future Energy Jobs Act 
(FEJA) by insisting that it focus on health, environmental justice, and 
economic justice opportunities. With unprecedented funds directed to 
low-income environmental justice communities, LVEJO developed access to 
a solar panel training program delivered in communities across the 
state that prioritizes community members that were formerly 
incarcerated or had aged out of the foster care system. FEJA programs 
were designed to bring the benefits of solar energy to low-income 
communities, whether or not they are able to install the panels on 
their homes, including energy sovereignty opportunities for low-income 
communities to build ownership of solar systems. The group is also at 
the center of a plan to repurpose a closed down coal-fired power plant, 
with the goal of using it for community-run projects.
    These are but a few examples of how our communities are developing 
concrete projects to address the climate crisis. There are many more 
that look at the different tipping points and sectors needed to halt 
the climate crisis and if we want to ensure a healthy future for future 
generations we must start prioritizing and scaling them now.
          following the lead of the frontlines and acting now
    Today, we are at the tipping point with little time to waste. We 
urgently need a Just Transition to be centered in community-driven 
Climate Action Bills, coupled with a commitment to Just Recovery and 
Rebuilding Infrastructure. Simply put, we must have legislation that 
clearly prioritizes investments in scalable projects like those 
mentioned today that reduce emissions at the source and address the 
historical harm and discrimination communities like mine have faced for 
centuries.
    Investment in just development plans around the Nation through 
block grants earmarked for community-based organizations and community 
development funds would go even further to repair historical harm and 
center community innovation for water, land, air, and energy resources, 
in both urban and rural areas, as well as Indian Country.
    Frontline communities know what is at stake, the question is: will 
legislation aid our communities' future survival or hinder it. I hope 
for all our sakes it will be the former.

                                 ______
                                 

  Questions Submitted for the Record by Rep. Haaland to Ms. Elizabeth 
                 Yeampierre, Executive Director, UPROSE

Ms. Yeampierre did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

    Question 1. Can you share with us some of the disproportionate 
impacts climate change has on underserved and underrepresented 
communities? Are there ways that climate change impacts indigenous 
peoples to an even greater extent?

    Question 2. The Tohono O'odham Nation is having an especially 
difficult time securing the Federal funding it needs to respond to the 
devastation of Hurricane Rosa. This systemic breakdown follows a 
pattern set by Hurricanes Katrina, Maria, and so many others, in which 
underrepresented groups bear the brunt of natural disasters.

    2a. Can you speak to the financial burden climate change puts on 
underserved communities?

    2b. Why it is so important that the government work to fund 
adaptation, mitigation, and response efforts in these areas?

    Question 3. We've seen the dire reports from the international 
scientific community, and even from the current Administration about 
the need to act on climate to avoid disastrous long-term outcomes. 
However, it's important we recognize that some communities are reliant 
on fossil fuel investments as a revenue base for their schools, 
hospitals and other essential services. How can we invest in those 
communities to ensure they are not left behind in a clean energy 
transition?

                                 ______
                                 

    The Chairman. Thank you.
    We will turn Kim Cobb.

 STATEMENT OF KIM COBB, GEORGIA POWER CHAIR, DIRECTOR, GLOBAL 
   CHANGE PROGRAM, ADVANCE PROFESSOR, EARTH AND ATMOSPHERIC 
  SCIENCES, GEORGIA INSTITUTE OF TECHNOLOGY, ATLANTA, GEORGIA

    Dr. Cobb. Thank you. I thank Chairman Grijalva and Ranking 
Member Bishop for allowing me to contribute to this important 
conversation about our Nation's future. My message today is 
simple: the data and the science could not be more clear. It is 
time to act.
    There are many no-regrets, win-win actions to reduce the 
growing cost of climate change. But we are going to have to 
come together to form new alliances in our home communities, 
across our states, and, yes, even in Washington.
    I know I speak for thousands of my colleagues when I say 
that scientists all over the country are willing and eager to 
assist policy makers and the design of data-driven defenses 
against both current and future climate change impacts.
    As a professor at the Georgia Institute of Technology for 
the last 15 years, my research uses samples collected from the 
remote Pacific to reconstruct past climate variations. Our 
records are consistent with countless other records indicating 
that the rate in magnitude of recent climate change dwarf 
natural climate variability over the last millennium.
    I love my work, but 3 years ago, I witnessed something that 
would change my life forever. In 2015, we received funding from 
the National Science Foundation for a series of field 
expeditions to document the evolution of a strong El Nino event 
projected that winter. I had waited 15 years for this 
scientific opportunity. However, little did I know that warming 
ocean temperatures 6 degrees Fahrenheit warmer than average 
would kill up to 90 percent of the coral at our study site. And 
I had a front-row seat to that carnage.
    And 2016 would go on to become the worst global-scale coral 
bleaching and mortality event on record, and the warmest year 
on our planet since records began. Personally, 2016 was my 
wake-up call. Unfortunately, the last years brought a number of 
devastating wake-up calls much closer to home. Hurricanes 
Harvey, Lane, and Florence decimated entire communities, 
delivered record-breaking rainfall, while Hurricanes Maria and 
Michael decimated entire communities with their force, 
including many in my home state of Georgia.
    The National Climate Assessment, released this last 
November by a consortium of 13 Federal agencies, documents how 
climate change loads the dice in favor of extreme precipitation 
events, and how warmer oceans fuel larger tropical storms. On 
the other side of the country, record-breaking wildfires raged 
across California, linked to prolonged drought and warmer 
temperatures.
    The economic toll of these disasters can be measured in the 
hundreds of billions of dollars. However, their real toll, the 
vast human suffering left in their wake, is immeasurable. And 
beyond these deadly extremes, a host of additional climate 
change impacts represent a growing threat to ecosystems and 
communities alike. Sea levels are rising with up to 6 feet of 
global sea level rise projected this century. Drought threatens 
water supplies across the western United States with no end in 
sight. The oceans are becoming more acidic, as excess carbon 
dioxide reacts with sea water. And, as of today, 2018 will 
officially take its place as the fourth warmest year on record 
behind 2016, 2017, and 2015.
    Climate change impacts are now detectable all across 
America, and they will get worse. That is the bad news. I am 
sure you are ready for some good news, and there is plenty to 
go around.
    The good news is that science can help inform measures to 
help protect communities, as well as our oceans, forests, 
parks, waterways, and wildlife from the most devastating 
impacts of climate change. Here, early action is essential to 
the success of these approaches delivering vast returns on 
investment.
    Many jurisdictions, from the local to the Federal, have 
developed a suite of climate adaptation measures informed by 
rigorous science, stakeholder engagement, and cost benefit 
analysis. But we must accelerate these efforts. Toward that 
end, a national climate assessment provides an actionable 
blueprint for such adaptive measures, including an in-depth 
assessment of climate impacts on ecosystem structure, function, 
and services.
    The other good news is that it is not too late to avoid the 
most damaging impacts of future climate change. We have the 
tools we need to dramatically reduce greenhouse gas emissions. 
And in doing so, we will enjoy cleaner water, cleaner air, and 
healthier communities.
    The rapid expansion of renewable energy across the Nation 
demonstrates a strong appetite for carbon-free, clean power. 
Even so, U.S. greenhouse gas emissions were up 3 percent last 
year.
    The bottom line is that we are running out of time. 
Comprehensive Federal policies are needed to speed the 
transition to low-carbon energy sources. Top on the list must 
be a price on carbon to reflect the true cost of continued 
fossil fuel emissions and to incentivize consumers, companies, 
and the market to find the cheapest, most effective means of 
reducing emissions.
    With or without a price on carbon, increased energy 
efficiency is a win-win strategy that can deliver energy cost 
savings, while reducing harmful air pollution.
    Last, there is a strong case you made that we can deploy 
our vast forests, grasslands, and coastal marshes in service to 
natural carbon sequestration. At its most basic level, this 
means designing strategies to safeguard these environments with 
their rich carbon reserves in the face of continued climate 
change.
    As a climate scientist, I have to wonder how bad will it 
have to get for us to recognize that climate change represents 
a clear and present threat, and to act decisively to protect 
ourselves. I am heartened by recent polls showing that nearly 
three in four Americans are concerned about global warming and 
support a range of policy options to address it. As a mother to 
four young children, I am inspired by the sea of young people 
demanding that we not squander their chances for climate 
stability.
    I urge this Committee to capitalize on the vast trove of 
climate science findings by: (1) protecting our natural 
resources and the communities that depend on them from known 
climate change impacts; and (2) using Federal lands to advance 
climate solutions, rather than expanding the scope of the 
climate change problem. Thank you.

    [The prepared statement of Dr. Cobb follows:]
  Prepared Statement of Dr. Kim Cobb, Professor, Earth & Atmospheric 
    Sciences; Director, Global Change Program, Georgia Institute of 
                               Technology
    I thank Chairman Grijalva and the rest of the Committee for 
allowing me to contribute to this important conversation about our 
Nation's climate future. My message today is simple: there are many no-
regrets, win-win actions to reduce the growing costs of climate change, 
but we're going to have to come together to form new alliances, in our 
home communities, across our states, and yes, even in Washington. I 
know I speak for thousands of my colleagues when I say that scientists 
all over the country are willing and eager to assist policy makers in 
the design of data-driven defenses against both current and future 
climate impacts. It is not too late to alter the damaging trajectory of 
inaction. There are plenty of prizes for early, meaningful action. 
These include cleaner air and water, healthier, more resilient 
communities, a competitive edge in the low-carbon 21st century global 
economy, and the mantle of global leadership on the challenge of our 
time. I'm confident that through respectful discourse, we will 
recognize that our shared values unite us in seeking a better tomorrow 
for all Americans.
    My own journey began 20 years ago, at the Scripps Institution of 
Oceanography, where my research focused on extracting records of past 
climate variability and change from far-flung, remote islands in the 
deep tropics. At the time, I never thought that I would ever find 
myself testifying to Congress about climate change. I was a passionate 
and dedicated student of our earth system, eventually settling into a 
rewarding academic career at the Georgia Institute of Technology, where 
I teach courses on energy and climate change, and manage a lab full of 
instruments and student research assistants. Over the last 15 years, I 
have published over 60 peer-reviewed articles, been awarded a 
Presidential Early Career Award for Scientists and Engineers, and am 
currently a Lead Author for the Sixth Assessment Report of the 
Intergovernmental Panel on Climate Change. Together with my students 
and collaborators, I work to advance the tools and approaches of in my 
chosen field of paleoclimatology, in part by generating more and better 
records of past climate change. Such records help us peer into the 
distant future by quantifying the response of the climate system to 
past climate forcings, including greenhouse gases. I've led over 20 
expeditions to the middle of the Pacific, SCUBA-diving on abundant, 
diverse reefs where the largest corals are 10-ft tall and contain 100 
or more years of past climate data.

    But 3 years ago, I witnessed something that would change my 
personal and professional life forever.

    In 2015, we received funding from the National Science Foundation 
for a series of field expeditions to document the evolution of a strong 
El Nino event projected that winter. I was giddy with the expectation 
of scientific discovery. After all, I had waited 15 years for this 
opportunity. What I could not have predicted was that ocean 
temperatures 6 degrees Fahrenheit warmer than usual would kill up to 90 
percent of the coral at our study site over 9 months. And I got a 
front-row seat to the carnage. By early 2016, even the largest corals 
would succumb--corals that had lived through record-breaking El Nino's 
in 1983 and 1998. And the carnage was global--scientists report that by 
2017, up to 75 percent of global reefs had experienced bleaching-level 
heat stress and for up to 30 percent of reefs, heat stress reached 
lethal levels (Eakin et al., 2018). Reefs in Hawaii and Florida were 
not spared. It will take decades for our study site to recover, but 
with ocean warming accelerating (Cheng et al., 2019), we know that the 
next ocean heat wave is lurking around the corner. 2016 was my wake-up 
call.
    Unfortunately, 2017 and 2018 brought a number of devastating wake-
up calls much closer to home. As a physical climate scientist, I am 
trained to focus on data, and their uncertainties, but let me cut to 
the chase: many of the natural disasters in past years bear the 
unmistakable signature of climate change. Hurricanes Harvey, Lane, and 
Florence delivered record-breaking rainfall (National Weather Service) 
while Hurricanes Maria and Michael decimated entire communities with 
their force, including many in my home state of Georgia. The National 
Climate Assessment (hereafter NCA, 2018)--released this last November--
documents how climate change loads the dice in favor of extreme 
precipitation events, and how warmer oceans fuel larger tropical 
storms. On the other side of the country, record-breaking wildfires 
raged across California, linked to prolonged drought and warmer 
temperatures (Abatzoglou and Williams, 2016). The economic toll of 
these disasters can be measured in the hundreds of billions of dollars. 
However, their real toll--the vast human suffering left in their wake--
is immeasurable.
    And beyond these deadly extremes, a host of additional climate 
change impacts represent a growing threat to ecosystems and communities 
alike. Sea levels are rising, with 6-ft of global sea level rise 
projected this century (Sweet et al., 2017; NCA, 2018). Drought 
threatens water supplies across the western United States (NCA, 2018), 
with no end in sight. The oceans are becoming more acidic as excess 
atmospheric carbon dioxide reacts with seawater (NCA, 2018). A warming 
ocean holds less oxygen, increasing the risk for deadly coastal hypoxia 
events (NCA, 2018). All of these trends are expected consequences of 
climate change--most through fairly straightforward physics and 
chemistry--and all have been borne out by repeated sets of 
observations.
    The National Climate Assessment outlines the region-by-region and 
sector-by-sector impacts of ongoing climate change. The report makes 
clear that climate change is already impacting the lives of many 
Americans, with outsize impacts to those who can least afford it. The 
report singles out indigenous communities as uniquely vulnerable, given 
their economic and cultural dependence on natural resources. But 
there's plenty of threats to go around--America's farmers, fishermen, 
coastal residents, children, the elderly, and low-income families sit 
squarely in the crosshairs of climate change. As a resident of the 
southeastern United States, I am particularly concerned about the high 
concentration of vulnerable populations in our region, given that 
studies predict a pile-on of escalating climate impacts in our region 
(e.g. Hsiang et al., 2017).
    Climate change also represents a major threat to national security, 
a ``threat multiplier,'' in the words of a 2015 Department of Defense 
report (DOD report Ref ID 8-6475571). In the last month, a new 
Department of Defense report highlights the risk that current and 
future climate change poses to its infrastructure (DOD report Ref ID 9-
D30BE5A). It notes that 53 installations are currently subject to 
recurrent flooding, growing to 60 at risk over the next 20 years.
    Climate change impacts are now detectable all across America. And 
they will get worse. That's the bad news. I'm sure you're ready for 
some good news, and there is plenty to go around.
    The good news is that science can help inform measures to protect 
communities, as well as our oceans, forests, parks, waterways, and 
wildlife, from the most devastating impacts of climate change. Here, 
early action is essential to success, delivering vast returns on 
investment.
    Many jurisdictions--from the local to the Federal level--have 
developed a range of adaptation measures informed by the best science, 
stakeholder engagement, and rigorous cost-benefit analysis. But the 
adaptation portfolio is still spotty, and nowhere near the scale 
justified by the set of well-established climate impacts. Toward that 
end, The National Climate Assessment provides an actionable blueprint 
for such adaptive measures, including an in-depth analysis of climate 
impacts on ecosystem structure, function, and services. For example, 
the report highlights a key role that our Nation's natural resources, 
such as coastal wetlands, which can protect communities from rising 
seas while delivering a range of other valuable ecosystem services. The 
National and Regional Climate Adaptation Science Centers (https://
casc.usgs.gov) provide a mechanism to accelerate adaptation planning 
and implementation to protect our Nation's natural resources and 
safeguard the critical services that they provide.
    And there is plenty of room for innovation and advanced technology 
to assist communities in quantifying their unique risks and 
vulnerabilities to specific climate-related threats. At Georgia Tech, 
teams of scientists and engineers are teaming up with city and county 
officials in and around Savannah, Georgia to design and deploy sensors 
for monitoring water levels and air temperatures in real time, from 
neighborhood to neighborhood (see https://www.sealevelsensors.org).
    The other good news is that it's not too late to avoid the most 
damaging impacts of future climate change. We have the tools we need to 
dramatically reduce greenhouse gas emissions. And in doing so, we will 
enjoy cleaner water, cleaner air, and healthier communities.
    The rapid expansion of renewable energy across the Nation 
demonstrates a strong appetite for carbon-free, clean power on the part 
of private homeowners and large utilities alike. Even so, U.S. 
greenhouse gas emissions were up 3 percent last year (Rhodium Group, 
2019). The bottom line is that we are running out of time. 
Comprehensive Federal policies are needed to speed the transition to 
low-carbon energy sources. Top on the list must be a price on carbon, 
to reflect the true costs of continued fossil fuel emissions, and to 
incentivize consumers, companies, and the market to find the cheapest, 
most effective means of reducing emissions.
    As much as we need to ramp up low-carbon energy production, we also 
have a huge opportunity to dramatically reduce emissions in the near 
term through energy efficiency, while delivering energy cost savings to 
consumers and corporations alike. It's worth noting that efficiency 
gains come with significant health benefits, largely from reduced air 
pollution, and are effective even without a price on carbon. A 2018 
energy efficiency scorecard by the American Council for an Energy 
Efficient Economy (ACEEE) reports state-by-state gains in energy 
efficiency, with the winners providing a wide range of policy 
instruments to achieve large-scale gains. In general, southeastern 
states like Georgia rank near the bottom of the list, despite high 
energy burdens that leave many low-income families struggling to afford 
their monthly energy bills (ACEEE, 2017). In this case, policies that 
promote energy efficiency will improve living conditions for many of 
the most vulnerable members of society. And of course, improved energy 
efficiency will be critically important going forward, as demand for 
cooling increases across many areas of the country.
    I became a passionate spokesperson for energy efficiency after 
Georgia Tech undergraduates showed me what could be achieved by 
partnering with local businesses as part of the ``Carbon Reduction 
Challenge'' (http://carbonreduction.gatech.edu). In one semester, 30 
students routinely design and implement strategies to save their 
organizational partners energy, simultaneously banking carbon 
reductions and cost savings. During one Challenge, student teams 
brought 12 million lbs of CO<INF>2</INF> reductions to fruition, simply 
by identifying low-hanging interventions to champion with their large 
partner organizations. That's the CO<INF>2</INF> equivalent of 20 homes 
going 100 percent solar for 20 years, except this CO<INF>2</INF> 
savings didn't cost money. It made money.
    Last, there is a strong case to be made that we can deploy our vast 
forests, grasslands, and coastal marshes in service to natural carbon 
sequestration, in a variety of forms. At its most basic level, this 
means designing strategies to preserve our mature forests, grasslands, 
and wetlands, with their rich soil carbon reserves, in the face of 
continued climate change.
    Listening to the stories of those whose lives have already been 
destroyed by climate change I have to wonder: How bad will it have to 
get for us to recognize that climate change represents a clear and 
present threat, and to act decisively to protect ourselves and the 
natural resources that we all depend on?
    As a climate scientist, I'm heartened by recent polls showing that 
nearly 3 in 4 Americans are concerned about global warming, and support 
a range of policy options to address it (Leiserowitz et al., 2018). 72 
percent of Americans think that global warming is happening, 62 percent 
understand that it is mostly human-caused, and 72 percent of Americans 
think that global warming is important to them personally. On policy 
options, 68 percent of Americans support a carbon tax, and 82 percent 
support tax rebates for energy efficiency and solar panels. The path 
forward is clear.
    And as a mother to four young children, I'm heartened by the sea of 
young people demanding that we not squander their chances for climate 
stability.

    I urge this Committee to center the robust findings of climate 
science in making critical policy decisions about our Nation's natural 
resources by:

  1)  moving to protect these resources, and the communities that 
            depend on them, from the suite of ongoing, well-established 
            climate change impacts; and

  2)  ensuring that our use of Federal lands is geared toward advancing 
            climate solutions, rather than expanding the scope of the 
            climate change problem.

    references and resources (listed in the order that they appear)
2014-2017 coral bleaching event:

Eakin, C.M., et al., Unprecedented three years of global coral 
bleaching 2014-17. Sidebar 3.1. [in State of the Climate in 2017]. 
Bulletin of the American Meteorological Society, 99(8), S74-S75, 2018.

https://coralreefwatch.noaa.gov/satellite/analyses_guidance/
global_coral_bleaching_ 2014-17_status.php

Hughes, T.P. et al., Spatial and temporal patterns of mass bleaching of 
corals in the Anthropocene. Science, 2018.

https://www.climate.gov/news-features/understanding-climate/
unprecedented-3-years -global-coral-bleaching-2014-2017
Ocean warming:

Cheng, L., et al., How fast are the oceans warming? Observational 
records of ocean heat content show that ocean warming is accelerating. 
Science, 363. doi: 10.1126/science.aav7619, 2019.
Hurricane records:

https://www.weather.gov/lch/2017harvey

https://www.weather.gov/mhx/Florence2018

https://weather.com/storms/hurricane/news/2018-08-28-lane-hawaii-
tropical-cyclone-rainfall-record-one-year-after-harvey
Fourth National Climate Assessment:

USGCRP, 2018: Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II: Report-in-Brief 
[Reidmiller, D.R., C.W. Avery, D.R. Easterling, K.E. Kunkel, K.L.M. 
Lewis, T.K. Maycock, and B.C. Stewart (eds.)]. U.S. Global Change 
Research Program, Washington, DC, USA, 186 pp.
On wildfires and climate change:

Abatzoglou, J.T. and A.P. Williams, Impact of anthropogenic climate 
change on wildfire across western US forests. Proceedings of the 
National Academy of Sciences, 2016.
Sea level rise:

Sweet, W.V., R.E. Kopp, C.P. Weaver, J. Obeysekera, R.M. Horton, E.R. 
Thieler, and C. Zervas, 2017: Global and Regional Sea Level Rise 
Scenarios for the United States. NOAA Technical Report NOS CO-OPS 083. 
NOAA/NOS Center for Operational Oceanographic Products and Services.
Regional impacts of climate change:

Hsiang, S., et al., Estimating economic damages from climate change in 
the United States. Science, 2017.

Climate Impact Lab (http://www.impactlab.org/research/estimating-
economic-damage-from-climate-change-in-the-united-states/)
DOD reports on climate change:

https://archive.defense.gov/pubs/150724-congressional-report-on-
national-implications-of-climate-change.pdf?source=govdelivery

https://partner-mco-archive.s3.amazonaws.com/client_files/
1547826612.pdf
Energy efficiency scorecards by state:

https://aceee.org/sites/default/files/publications/researchreports/
u1808.pdf
Energy burdens in the low-income southeastern U.S. households:

https://aceee.org/fact-sheet/southeast-low-income-series
U.S. greenhouse gas emissions for 2018:

https://rhg.com/research/preliminary-us-emissions-estimates-for-2018/
Climate polling results:

http://climatecommunication.yale.edu/visualizations-data/ycom-us-2018/

http://climatecommunication.yale.edu/publications/climate-change-in-
the-american-mind-december-2018/

Leiserowitz, A. et al. Climate change in the American mind: December 
2018. Yale University and George Mason University. New Haven, CT: Yale 
Program on Climate Change Communication, 2018.

                                 ______
                                 

  Questions Submitted for the Record by Rep. Haaland to Dr. Kim Cobb, 
Professor, School of Earth & Atmospheric Sciences, Georgia Institute of 
                               Technology
    Question 1. This Committee has frequently discussed and will 
continue to discuss wildfire safety and forest management. Can you 
please explain the role that climate change plays in altering wildfire 
patterns?

    Answer. Data are now clear--the frequency and extent of western 
U.S. wildfires are increasing. The U.S. National Climate Assessment 
(specifically Chapter 6: Forests; https://nca2018.globalchange.gov/
chapter/6/) lays out the compound hazards that climate change poses to 
our nations forests, particularly in the vulnerable western United 
States. Most of these risks are directly associated with increased fuel 
loading linked to warmer temperatures, either directly or indirectly. 
For one, pine bark beetles have increased their geographic range as 
winters have become more mild, killing hundreds of millions of trees in 
the last decade, and creating an abundance of dead trees to fuel 
wildfires. Prolonged drought has also played a key role, weakening 
forest resistance to the pine bark beetles and drying out the landscape 
to add to the available fuel load. Severe drought in the western United 
States is directly linked to climate change, as warmer soil 
temperatures drive evaporation while decreased snow pack leaves mess 
water available for summer streamflow. These trends are expected to 
continue to exacerbate the risk of wildfires across the western United 
States. Regionally specific trends in wildfires call out the extreme 
vulnerability of the southwestern United States to wildfire, noting 
impacts to water quality and quantity that have profound societal 
impacts (Chapter 25: Southwest; https://nca2018.globalchange.gov/
chapter/25/). The National Climate Assessment notes a number of 
potential mitigation strategies to minimize the losses associated with 
wildfires, including maintaining the health of forest ecosystems by 
minimizing habitat fragmentation by human land use decisions. The 
report also highlights the role for data-driven forest wilderness 
management strategies such as allowing naturally ignited fires to burn 
where safe to do so, as well as pre-emptively setting low-intensity 
prescribed burns in reducing wildfire risk.

    Question 2. For over a decade, Congress has struggled to extend 
meaningful protections to important American landscapes--landscapes 
that protect wildlife habitat and provide valuable economic, 
ecological, and recreational benefits.

    2a. Do protected landscapes play any role in helping humans and 
wildlife adapt to climate change?

    2b. What do we risk when we fail to extend these protections?

    2c. How do policies that encourage energy extraction on public 
lands impact the climate?

    Answer. Protected landscapes play a vital role in increasing the 
``adaptive capacity'' of natural systems, the communities that live in 
them and/or depend on them for a variety of ecosystem services. The 
2018 National Climate Assessment defines ``adaptive capacity'' as ``the 
ability of human and natural systems to prepare for, adjust to, respond 
to, and recover from experienced or anticipated climate impacts'' 
(Chapter 28: Adaptation; https://nca2018.globalchange.gov/chapter/28/). 
This is perhaps most clear along the coasts, where salt marshes and 
mangroves serve as important natural barriers to reduce the risks of 
coastal flooding while delivering a range of additional ecosystem 
services to support local fisheries, tourism, and recreational 
activities. However, protected corridors across the nation's interior 
are cited as a critical mechanism to allow wildlife to migrate to more 
hospitable climatic zones as temperature and rainfall patterns shift. 
Most obviously, continued warming will place acute stress on 
temperature-sensitive species that might be mitigated by a northward or 
upslope shift in the range of those species to cooler temperatures. 
Habitat fragmentation represents a significant barrier to such natural 
redistributions of terrestrial species as they adapt to climate change. 
In the previous answer, I referred to the importance of maintaining 
forest health through habitat protection in bolstering our defenses 
against wildfires fueled by weakened forests. Wherever possible, data-
driven forest management practices are also effective tools to aid 
local communities in reducing the risk of wildfires under continued 
climate change.
    The National Climate Assessment outlines a number of specific 
threats to ecosystems, ecosystem services, and biodiversity in Chapter 
7 (https://nca2018.globalchange.gov/chapter/7) for your further review. 
The health of our nation's ecosystems is inextricably tied to human 
welfare in the following areas, especially through freshwater quality 
and availability, and economic and cultural dependence on specific 
species. When we fail to deploy data-driven defenses to protect 
ecosystems, we are putting American health, welfare, and prosperity at 
risk by reducing our capacity to adapt as a society to continued 
climate change. At the same time, we would be forsaking the important 
role that our ecological systems are playing in sequestering carbon--a 
critical climate service.
    Continued expansion of fossil fuel extraction across our nation's 
public lands represents a serious risk to current and future 
generations of Americans, who will face a warmer world characterized by 
increasingly severe climate change impacts. Increased fossil fuel 
production drives increased consumption, increasing emissions during a 
time when we must move aggressively to stem the most dangerous impacts 
of climate change. The National Climate Assessment details the dozens 
of specific risks that are now detectable across every community in 
America, and highlights the compounding risk of unmitigated climate 
change for every year that we fail to curb our emissions growth. The 
data could not be more clear. The many benefits of early action could 
not be more clear. Instead of using our precious public lands to 
compound the climate change problem, we should be using these precious 
national resources in the design of data-driven strategies to protect 
communities from climate change, assist key species in their efforts to 
adapt to climate change, expand our portfolio of low-carbon energy, and 
enhance our nation's natural carbon sinks.

                                 ______
                                 

    The Chairman. Ms. DiPerna?

STATEMENT OF PAULA DiPERNA, SPECIAL ADVISOR, CDP NORTH AMERICA, 
                       NEW YORK, NEW YORK

    Ms. DiPerna. Thank you for the opportunity to testify here 
today. And no doubt disclosure information on our CDP platform 
touches all the states represented on the Committee, and I 
thank you for your service to the Nation.
    CDP North America, formerly known as the Carbon Disclosure 
Project, is a non-profit that operates for the public good. 
Today, roughly 500 companies in the United States, including 70 
percent of the S&P 500, disclosed to us and through us their 
quantitative and qualitative information about their 
environmental performance, and the imperatives they perceive.
    Our standardized annual information request is signed off 
on by roughly 500 investor enterprises, represent over $94 
trillion in cumulative assets and most of the financial service 
sector of the world. Our signatories use disclosure as a gauge 
on corporate strategic advantages and vulnerabilities, and a 
reference for making investment decisions.
    If you stroll through our data, you would find there more 
than 15 years of evidence of the doability, desirability, and 
necessity of reducing greenhouse gas emissions to address 
climate change expressed voluntarily by companies themselves, 
many of whose shareholders are public pension funds, and thus 
relevant to much of the American people.
    As for me, you have my full resume. But suffice it to say 
here that I have seen the climate change issue from 360 
degrees, from coral reefs to carbon markets, literally, working 
closely with both economist Richard Sandor to help him design 
the world's first integrated cap and trade, the pioneering 
Chicago Climate Exchange, and with oceans explorer Jacques-Yves 
Cousteau, seeing the first President Bush twice at the Oval 
Office to discuss climate change.
    President Bush signed the United States to the landmark 
United Nations Framework Convention on Climate Change, to which 
the United States remains a signatory, even if the United 
States has pulled out of the Paris Agreement. And we now stand 
alone among nations outside the global consensus, and also 
likely missing out on opportunities to use coherent policy, 
state and local and Federal, to maximize jobs creation and 
future-proof our crumbling infrastructure.
    Sometimes it is said that American companies are concerned 
that strong policies will hurt business. On the contrary, 
companies are quite concerned about climate change itself. And 
following I will share with you a few examples from almost all 
of your districts and states--probably all--and refer you to my 
written testimony and other materials of CDP for further 
details.
    In Arizona and Colorado, for example, Arizona Public 
Services, 6,300 new employees serving 1.2 million customers, 
has said, ``Risks associated with forest fires are not new. But 
scientists have indicated that as the global temperatures 
increase, there is a greater risk of drought and a correlated 
increase in risk and intensity of forest fires. Potential 
threat is very real.''
    Of course, we have heard very much today about the burning 
in California. It is not only the trees. The downgrade of most 
of the utilities in California directly affects American 
people. The credit rating downgrade is very, very significant, 
rating companies from stable to negative by Moody's and S&P and 
Fitch's.
    In Connecticut, Stanley Black and Decker, an employer of 
nearly 60,000 Americans, has stated, ``Climate change can have 
potentially devastating impacts on our supply chain, should 
drought or flood occur.''
    In Ohio, American Electric Power, which has 17,500 
employees and 5 million customers across 11 states, including 
Texas, Louisiana, Kentucky, and West Virginia, in their SEC 
filing has said, ``Climate change risk is considered a major 
and material issue for AEP.''
    And on the issue of regulatory uncertainty, AEP is on the 
record as saying, ``Additionally, in recent years legal 
challenges to almost every major EPA rulemaking have added 
additional uncertainty and cost. While environmental 
regulations mentioned will have a large impact on our 
operations, the uncertainty regarding climate change regulation 
or legislation is a more challenging risk to manage.''
    In Texas, companies such as Chevron, Dupont, and Total have 
described risks in their disclosure pertinent to the need for 
storm barrier protection for oil facilities.
    Florida, Harris Corporation, with close to 17,000 
employees, is worried that their data centers will be affected 
as temperatures rise and they lose ``ambient cooling 
potential.''
    On the supply chain front, Johnson and Johnson, based in 
New Jersey with 134,000 global employees, is worried about 
climate change, extreme weather disrupting not only demand for 
products, but disruptions in manufacturing and distribution 
networks of vital medicines, and afraid that it will affect the 
overall design and integrity of our products and operations.
    Atlanta, Coca Cola, 90,000 companies, is worried about 
agricultural products, including sugar cane, corn, and citrus. 
Coca Cola has said, ``The affordability of our products and, 
ultimately, our business could be negatively impacted.''
    In Nevada, even Caesar's Palace is not immune from climate 
change. Its parent has said they are virtually certain to see 
short-term increase in cost, due to a shortage of 
precipitation.
    Even before the Paris Agreement, we were getting risks on 
supply chain. And if it wasn't from soup to nuts, it is soup to 
tomatoes. For example, Campbell's Soup cited water risks and 
climate change as very significant and of concern. And ConAgra 
has said, ``they have seen delayed tomato harvesting due to 
unseasonably cool weather.''
    Dr. Pepper, of course, is worried about water. It is one of 
their main ingredients, and has said, ``A portion of our cost 
of sales, or $2.5 billion, could be at risk through increased 
costs to our supply chain.''
    I could go on and on. I will not. I know my time is up, and 
I will be happy to answer any questions.
    Thank you again.

    [The prepared statement of Ms. DiPerna follows:]
Prepared Statement of Paula DiPerna, Special Advisor, CDP North America
    Thank you for the opportunity to testify here today on climate 
change and the recognition of its economic importance among businesses, 
investors, and consumers--all, of course, constituents. No doubt the 
CDP Platform has a touch point with all the states represented here on 
the Committee and I thank you for your service to the Nation.
    A word about CDP: CDP-North America, formerly known as the Carbon 
Disclosure Project, is a non-profit organization that operates for the 
public good. Today, roughly 500 companies in the United States disclose 
to us and through us quantitative and qualitative information about 
their environmental performance and imperatives they perceive. Our 
annual request for this information is standardized and signed by 
roughly 550 institutional investors, asset owners and asset managers, 
our signatories, who represent over $94 trillion in cumulative assets, 
and most of the financial services sector of the world. They use our 
disclosure as a reference on corporate environmental performance, 
strategic advantages and vulnerabilities, and a gauge for making 
investment decisions.
    The CDP disclosure platform also provides companies with 
information needed to benchmark to their peers, and we make this 
information available to the general public.
    If you took a stroll through our data, in sum, you would find more 
than 15 years of evidence of the do-ability, desirability and necessity 
of addressing climate change, expressed by companies themselves, as 
well as evolving corporate, investor and consumer attitudes on the 
topic.
    In short, we are the ``go to'' platform for companies to disclose 
how climate change is affecting their businesses. And what affects 
business affects average Americans directly--floods, power outages and 
disrupted supply chains means people can't get to work--who pays them 
for that time missed? Climate change is, in sum, a here and now issue 
that will hurt the poor and disenfranchised most of all.
    A word about me: My resume is part of my written testimony but 
suffice it to say here that I have seen the climate change issue from 
360 degrees, from coral reefs to carbon markets, literally, having 
helped spearhead, with renowned economist Richard Sandor, the world's 
first integrated cap-and-trade system, the pioneering Chicago Climate 
Exchange, also known globally as CCX; as well as with oceans pioneer 
Jacques-Yves Cousteau to visit the first President Bush in the Oval 
Office and his Cabinet to discuss these issues, resulting in the United 
States signing the landmark Framework Convention on Climate Change, to 
which the United States remains a signatory even if the United States 
has pulled out of the Paris Agreement. This withdrawal has left the 
United States the only nation on Earth to stand outside the circle of 
consensus that climate change must be addressed, not only because of 
the risks it poses, but the extraordinary opportunities that addressing 
it represents as we redesign, retool, rebuild and refit almost all our 
critical infrastructure, generating jobs and helping the United States 
regain dominance of 21st century technological innovation and 
manufacturing. For example, in Maryland, Lockheed Martin Corporation, 
which has more than 590 facilities in 50 U.S. states and employs 
approximately 100,000 people worldwide, in our disclosure identified 
the use of lower-emission energy sources as a $21 billion opportunity.
    The International Labour Organization (ILO) forecasts that ``24 
million new posts will be created globally by 2030,'' with the caveat 
that, ``the right policies to promote a greener economy must also be in 
place for this to happen, along with better social safety nets for 
workers.
    Sometimes it is said that American companies are worried about 
regulation on climate change hurting business. On the contrary, 
companies are quite concerned about climate change itself, and what 
they do need, above all is the certainty level playing field 
established by public policy, especially as all the other nations in 
the world enact rules that could hamper the ability of a U.S. company 
to compete as they struggle to smooth out uneven legal and operational 
requirements across global operations.
    I will share with you here a few examples of what key companies are 
doing or have disclosed about risks they face, and climate change 
related losses and costs they have incurred already. I refer you to my 
written testimony and CDP itself for further details and examples.
    In Arizona and the Colorado River Basin, Arizona Pinnacle West 
Capital Corporation, which owns Arizona Public Services, with 6,300 
employees and serving 1.2 million customers, identified catastrophic 
fires as an enterprise top risk in 2017-2018, with a potential 
financial risk of over $50 million. The company said ``Risks associated 
with forest fires are not new, but scientists have indicated that as 
the global temperatures increase, there is a greater risk of drought 
and a correlated increase in risk and intensity of forest fires,'' they 
state. ``Forest fires could threaten not only communities that APS 
serves, but also our vast network (35,000+ miles) of electric 
transmission lines and facilities . . .. The potential threat is very 
real.''
    In Connecticut: Stanley Black and Decker, employer of nearly 60,000 
Americans, stated, ``Climate change can have potentially devastating 
impacts on our supply chain should drought or flood occur.'' It 
estimated a potential loss of $118 million associated with supply chain 
disruption of primary materials and minerals used in their products 
from droughts in Chile and droughts and floods in Western Australia 
alone. SBD lists suppliers in USA, Israel, Brazin and Mexico as being 
potentially affected by drought.

    In Ohio, American Electric Power Company, responsible for employing 
17,500 people, and serving 5 million customers across 11 states, 
including Texas, West Virginia, Louisiana, and Kentucky, has disclosed:

        ``Climate change risk is considered a major and material issue 
        for AEP,'' adding ``AEP has invested to ensure its system is 
        reliable and resilient over more than a century. However, as 
        the generation fleet transitions to lower carbon and 
        intermittent resources and other infrastructure ages, 
        additional capital investment is needed for resiliency. 
        Additionally, public discourse about climate-related weather 
        events has also prompted public interest in resiliency 
        investment.'' And in 2017, about regulatory uncertainty, AEP 
        said, ``Additionally, in recent years, legal challenges to 
        almost every major EPA rulemaking have added additional 
        uncertainty and cost. This uncertainty can lead to uneconomic 
        decisions being made during the planning process as the 
        ultimate goals are subject to change. These uneconomic 
        decisions will lead to increased capital and operating costs. 
        While general environmental regulations mentioned above will 
        have a large impact on AEP operations, the uncertainty 
        regarding climate regulation or legislation is a more 
        challenging risk to manage.''

    In Texas, companies such as Chevron, Dupont, and Total described 
risks in their CDP disclosure pertinent to the need for storm barrier 
protection for oil facilities.
    In Florida, Jacksonville-based Harris Corporation, with close to 
17,000 employees, identifies increased severity of extreme weather 
events such as storms, cyclones and floods risks as a current and 
direct risk to its operations. Their disclosure states, ``For data 
centers, reduction in operational efficiency and increased component 
failure rates as increases in average temperatures and associated 
humidity will affect baseline design parameters. For example, the loss 
of ambient cooling potential. Changes in humidity may also lead to 
changes in patterns and rates of equipment corrosion. Higher humidity 
levels may also lead to new requirements to maintain internal 
environments within system tolerance ranges, as excess condensation can 
cause short-circuiting or water ingress.'' Harris also said it will, 
``expand the scope of events we consider in our planning to include 
more frequent and unusually disruptive storms in these locations, as 
well as the impacts of increased/more severe winter storms on our 
operations in the Midwest and Northeast.''
    Also of general interest, in 2017, 96 companies disclosing to CDP 
disclosed that they have set an internal carbon price, indicating that 
they accept and understand that greenhouse gas emissions carry a hidden 
cost to their business which they seek to make visible using a 
projected surrogate cost, an internal carbon price. 245 companies have 
stated they would disclose their internal carbon pricing by 2019. And 
many companies using this internal mechanism indicate they do so 
because they wish to be better prepared for eventual regulation and/or 
are operating in a jurisdiction where they already face mandatory 
requirements, such as in the EU or in China.
    Among the companies using an internal carbon is Oklahoma Gas and 
Electric, which employs 2,500 people and serves more than 800,000 
electricity customers. Citing opportunities ahead, OG&E also disclosed 
that it ``has leveraged its advantageous geographic position to develop 
renewable energy resources and completed transmission investments to 
deliver the renewable energy. The Southwest Power Pool (SPP) has begun 
to consider and authorize the construction of transmission lines 
capable of bringing renewable energy out of the wind resource area in 
western Oklahoma, the Texas Panhandle and western Kansas to load 
centers by planning for more transmission to be built in these areas.''
    In fact, given the links between drought and water availability, 
and anticipated scarcities in predictable water supply, 88 companies 
have also begun using internal water prices to better gauge rising 
costs and risk.
    Also, of general interest, far from denying the science of climate 
change, companies are bending over backward to establish reduction 
targets that are in line with the demand of climate change science on 
the scope and rate of emissions reductions, known as Science Based 
Targets or SBTIs. As of the end of 2018, 150 disclosing companies 
disclosed they had or were in the process of setting SBTs, as compared 
to 128 companies in 2017 and 88 in 2016.
    With regard to disruption of supply chains due to extreme and 
unpredictable weather, some may question whether there is a direct link 
between changing climate and the increases in extreme or unpredictable 
weather we have been experiencing of late, but the preponderance of 
scientific evidence establishes a strong likelihood. Some examples of 
what companies anticipate follow:

    Johnson and Johnson, headquartered in New Jersey and employing 
134,000 people, states ``changes to global climate, extreme weather and 
natural disasters could affect demand for our products and services, 
cause disruptions in manufacturing and distribution networks, alter the 
availability of goods and services within the supply chain, and affect 
the overall design and integrity of our products and operations.''
    Michigan based GM, employing 180,000 people, has an ``active'' 
crisis center that ``watches the weather 24/7'' and begins contacting 
suppliers when extreme weather events are forecasted, the system was 
partly developed in reaction to the Tohoku earthquake and the Thai 
floods in 2011. ``People felt pretty good because none of our 
production or manufacturing facilities were in the way,'' but those 
events impacted both GM's direct suppliers and the suppliers of its 
suppliers.
    In Georgia, Atlanta-based Coca-Cola Company employs over 90,000 
Americans. Coke and its bottling partners use many key ingredients in 
the manufacture and packaging of their beverage products. that are 
derived from agricultural commodities such as sugarcane, corn, sugar 
beets, citrus, coffee and tea. Coca-Cola has stated, ``Increased demand 
for food products and decreased agricultural productivity in certain 
regions of the world as a result of changing weather patterns may limit 
the availability or increase the cost of such agricultural commodities 
and could impact the food security of communities around the world . . 
. the affordability of our products and ultimately our business and 
results of operations could be negatively impacted.''
    In Nevada, even Caesar's Palace is not immune from climate change 
impacts. Its parent company, Caesar's Entertainment in Las Vegas, 
foresees increased operating costs as ``virtually certain'' in the 
short-term due to increasing temperatures and reduced precipitation in 
areas where water resources are more limited such as the U.S. southwest 
and their properties in Southern Africa and Egypt. Caesar spends 
``approximately $15 million per year on water utilities, a 10 percent 
increase in water prices due to increasing temperature causing water 
supply issues would represent a cost increase of up to $1.5m.'' Rising 
mean average temperature will impact Caesars supply chain. ``Caesars 
requires a steady stream of fresh produce and other food sources to 
stock our restaurants and kitchens. Our supply chain has been impacted 
by temperature fluctuations that have cause us to source from 
alternative suppliers. The relative magnitude has thus far been low on 
our total business operations. However, if enough suppliers face major 
climate related impacts the future magnitude could be substantial.''
    In fact, this very day in Las Vegas, we are conveying a conference 
on protecting supply chains and other related issues in Las Vegas co-
sponsored by Caesar's, to be attended by concerned large procurement 
entities as Walmart, Los Angeles Department of Water and Power, Johnson 
& Johnson and JBS, a $28 billion meat packaging and distribution 
company with 78,000 employees or so.
    With regard to supply chain disruption, the source of risk is 
eclectic and widespread, and many U.S. companies have acknowledged this 
likelihood as credible for some time.
    For example, as early as 2014, the year before the Paris Agreement 
was signed, we issued a report specifically focused on these 
disruptions and risks cited literally ranged if not from soup to nuts, 
soup to tomatoes.
    For example, Campbell's Soup cited water risks and climate change 
for all its products due to threats to agriculture and Con Agra told us 
literally, ``we have experienced weather-related sourcing challenges, 
such as delayed tomato harvesting due to unseasonably cool weather.''
    Gap and the VF Corporation told us that both drought and its 
opposite, increased precipitation, had reduced cotton production in 
India and China, and were contributing factors in the rise of global 
product prices.
    Sears, ill-fated, told us as early as 2011 that it faced more than 
$14 million in expenses just from repairing and replacing buildings and 
goods that were the direct or indirect result of extreme weather, as 
well as another $8.7 million due to flood damage that year alone.
    Dr. Pepper Snapple Group said, ``water is the main ingredient in 
substantially all of our products and climate change may cause water 
scarcity and a deterioration of water in areas where we maintain 
operations . . . a portion of our cost of sales, or $2.5 billion, could 
be at risk through increased costs to our supply chain.'' Concerns 
about water issues laced through the disclosures of Pepsi Co and other 
beverage companies as well.
    And, after Superstorm Sandy in the New York area, the venerable 
utility Con Edison reported that the costs of restoration in just two 
counties, Orange and Rockland, were $431 million and $90 million 
respectively.
    Obviously, events such as these affect the lives of people directly 
in myriad ways we have seen, from blackouts to hospital patients having 
to be evacuated in their beds to costs passed on to consumers, loss of 
work days, etc.
    As to investors and the capital markets, of substantial recent 
note, Moody's, which by its own wording ``strives to be the rating 
agency of choice,'' issued just recently in January this year its 
General Principles for Assessing Environmental, Social and Governance 
Risks, to better inform its users in this evolving field cited the 
bankruptcy filing by PG&E, which employs 20,000 people, related to the 
catastrophic forest fires in California. Moody's said ``. . .From a 
climate-related time horizon perspective, it could [also] be argued 
that the effects of climate change crystallized into event risk more 
rapidly than PG&E expected, adding, ``We highlighted this in 2018, when 
we noted that `long term climate change risks like droughts and 
wildfires are manifesting faster than regulators and legislators can 
react to protect [PG&E] from exposure.' ''
    Also just last month, Standard and Poor's ratings stated, ``we 
lowered our credit rating on Edison International and its subsidiary 
Southern California Edison . . . and placed all of our ratings on the 
companies on Creditwatch with negative implications'' which ``reflects 
the increased likelihood that Edison will continue to experience 
catastrophic wildfires due to climate change.'' S&P similarly 
downgraded San Diego Gas and Electric Company, for the same reasons. 
Subsequently, Fitch Ratings also revised its rating outlook for Edison 
International, from stable to negative adding ``given the unprecedented 
size of recent wildfires, future multi-notch downgrades cannot be ruled 
out.''
    These credit ratings changes may seem far from the American people, 
but in fact they reflect a drain on financial stability and borrowing 
power of key employers and infrastructure providers, not so much linked 
to the longer term impact climate change but the here and now impact of 
related unpredictable and extreme weather events--causing hardship and 
heartbreak for the ordinary Americans who suffer loss of life and 
property.
    Yet, on the other hand, recognizing that addressing climate change 
is essential to long term financial value creation, mainstream 
investors are also recognizing the significant upside of shifting 
capital to companies that take environmental and social factors into 
strategic account in their business management. According to the 
Sustainable Investment Forum of the United States, for example, which 
tracks relevant data:

        ``Sustainable, responsible and impact (SRI) investing in the 
        United States continues to expand at a healthy pace. The total 
        U.S.-domiciled assets under management using SRI strategies 
        grew from $8.7 trillion at the start of 2016 to $12.0 trillion 
        at the start of 2018, an increase of 38 percent. This 
        represents 26 percent--or 1 in 4 dollars--of the $46.6 trillion 
        in total U.S. assets under professional management.''

    And, in a basic core indication of how integrated low carbon 
efficiency has become, the S&P 500 carbon efficient index, which 
overweights carbon efficient companies and underweights carbon 
intensive companies, is now tracking virtually to a T with the 
venerable classic S&P500, an alignment that indicates if nothing else 
that it does not cost mainstream companies or their shareholders, if 
low carbon intensity and energy efficiency are prioritized. On the 
contrary.
    And as for constituents and consumer preferences, CDP disclosure 
can also shed light.
    Minnesota headquartered Best Buy reported that by promoting ENERGY 
STAR certified products, Best Buy U.S. helped its customers realize 
utility bill savings of more than U.S. $45 million in 2018. ENERGY STAR 
is a response to the increased demand for low-carbon products.
    And Ohio-based American Electric Power Company states: ``AEP has 
increasingly seen customers look to deploy low or no-carbon generation 
resources as a means of supplanting, replacing, or offsetting 
electricity provided by AEP. AEP is actively pursuing deploying 
utility-scale and community scale distributed resources which provide 
our customers with a more cost-effective solution in utilizing low and 
no-carbon energy.''
    PepsiCo says: ``Any negative perception (whether valid or not) of 
PepsiCo's response to climate change or water scarcity could result in 
adverse publicity and could adversely affect PepsiCo's business, 
financial condition or results of operations. Changes in consumer 
preference, for example, due to a negative reaction to PepsiCo's 
reputation relative to the environment could adversely affect PepsiCo's 
business, for example, a 1-percent impact on PEP's market value 
(defined as our market capitalization) would equate to $1.6 billion.''
    I could go on and on, but will not. In sum, climate change is 
present and costly to companies and average Americans, and the United 
States has made itself more vulnerable, not less. Thank you and I will 
be glad to answer any questions.

                                 ______
                                 

    The Chairman. Thank you very much.
    Reverend Yearwood, the floor is yours, sir.

 STATEMENT OF LENNOX YEARWOOD, JR., PRESIDENT AND CEO, HIP HOP 
                     CAUCUS, WASHINGTON, DC

    Rev. Yearwood. Thank you to Chairman Grijalva and the 
entire Committee for having me here today. And thank you to the 
other panelists for your commitment to solving climate change. 
I especially love Zero Hour and UPROSE.
    My name is Reverend Lennox Yearwood, Jr. I am the President 
and CEO of the Hip Hop Caucus. And all of you, Republicans and 
Democrats, are invited to be part of the Hip Hop Caucus--a 
little joke there to start off the testimony.
    [Laughter.]
    Rev. Yearwood. But let me get right to it. As Americans, we 
face challenges head on. Climate change is not a Democrat issue 
or a Republican issue; it is a human issue. This crisis is 
complex. It impacts all of us and future generations, and those 
with the least resources are impacted first and worst. But we 
know how to solve this crisis. We must make a just transition 
off of fossil fuels to a 100 percent clean, renewable energy 
economy that works for all.
    Many communities, cities and states across our country, are 
leading the way on climate solutions. I urge every member of 
this Committee to visit places and people who have gone through 
climate disasters, and visit communities, projects, and 
businesses that are implementing clean energy and climate 
solutions. When you visit these communities, it will become 
very clear that climate change is a civil and human rights 
issue.
    In 1960, four African-American college students sat at the 
Woolworth's lunch counter in Greensboro, North Carolina to 
desegregate the South. They were courageous beyond belief in 
standing up for equality. Today, young people like Nadia across 
the table from me and across this country are courageously 
standing up not only for equality, but for our existence. 
Climate change is our lunch counter moment for the 21st 
century.
    Young people are organizing, marching, and coalition-
building, and they are leading the call for solutions like a 
Green New Deal. They are doing it because they know that the 
science on climate change is undeniable. But also because, like 
all of us here today, they have watched as people have died in 
Hurricanes Harvey, Maria, Irma, Katrina, and Superstorm Sandy. 
They have seen the families who have lost everything to fires 
that have ripped across the West. They have been part of 
peaceful movements opposing fossil fuel developments led by 
Lakota people at Standing Rock and the Gwich'in people in the 
Arctic Refuge.
    So, the question is what are you, as members of this 
Committee, going to do? It is my prayer that you call up at 
least as much courage as young people standing up around the 
country, and that you act now, and you act boldly and 
courageously. If this Committee and bold chambers of Congress 
don't urgently come together, put the people of this country 
first, put God first, and put your political party to the side 
to solve climate change, we don't make it beyond 12 years from 
now without huge amounts of death, destruction, and suffering.
    As an officer in the U.S. Air Force Reserve Chaplain Corps, 
I had to ponder the unique relationship between military and 
faith. In the military we need our faith, not only to 
strengthen us in battle, but we need our faith to guide us to 
do what is right. We need you to use your faith to guide you to 
do what is right.
    If you are approaching climate change as a partisan, 
political issue, your faith is leading you astray. We, the 
American people, need you to have courage to do what is right. 
It is your courage that can put our country and the world on 
the path of solving climate change.
    In the words of Dr. Martin Luther King, Jr., ``We must 
learn to live together as brothers or perish together as 
fools.''
    Thank you, and may God be with you and with us all.

    [The prepared statement of Rev. Yearwood follows:]
 Prepared Statement of Rev. Lennox Yearwood Jr., President & CEO, Hip 
                               Hop Caucus
    Thank you to Chairman Grijalva and the entire Committee for having 
me here today.
    And thank you to the other panelists for your commitment to solving 
climate change.
    My name is Rev. Lennox Yearwood Jr. I am the President and CEO of 
Hip Hop Caucus.
    As Americans we face challenges head on. Climate change is not a 
Democrat issue or a Republican issue. It is a human issue, and 
therefore, we must look to God and our faith to guide us.
    This crisis is complex. It impacts all of us and future 
generations, and it's those with the least resources that are and will 
continue to be impacted first and worst.
    But we know how to solve this crisis. We must transition off of 
fossil fuels to a just 100 percent clean energy economy that works for 
all.
    Many communities, cities, and states across our country are leading 
the way on climate solutions. I urge every member of this Committee, if 
you have not yet, to visit places and people who have gone through 
climate disasters, and to visit communities, projects, and businesses 
that are implementing clean energy and climate solutions.
    The fossil fuel industry receives billions of dollars of taxpayer 
subsidies. You are subsidizing an industry that is killing Americans 
with their pollution and climate disasters. Further, the Trump 
administration's attacks on basic public health and environmental 
safeguards mean even more death sentences, particularly for the poor. 
Clean air, clean water, and solving climate change are inextricably 
linked.
    In 1960 four college students sat at the Woolworth's lunch counter 
in Greensboro, North Carolina to desegregate the south. They were 
courageous beyond belief in standing up for equality.
    Climate Change is our lunch counter moment for the 21st century.
    Today, like those brave students, young people across this country 
are courageously standing up not only for equality, but for our 
existence. Young people are organizing, marching, and coalition 
building, and they are calling for a Green New Deal.
    And they are doing it because they know that the science on climate 
change is undeniable. But also because, like all of us here today, they 
have watched as people died in Hurricanes Harvey, Maria, Irma, Katrina, 
and in Superstorm Sandy. They have seen the families who have lost 
everything to fires that have ripped across the West. They have been a 
part of the peaceful movements opposing fossil fuel developments led by 
the Lakota people at Standing Rock and the Gwich'in people in the 
Arctic Refuge.
    The question is, what are you, as members of this Committee, going 
to do? It is my prayer that you call-up at least as much courage as the 
young people standing up around the country, and that you act, you act 
now, and you act boldly and courageously.
    We do not make it beyond 12 years from now without huge amounts of 
death, destruction, and suffering, if this Committee, and both chambers 
of Congress don't urgently come together, putting the people of this 
country first, putting God first, and putting your political party to 
the side, to solve climate change.
    As an officer in the U.S. Air Force Reserve Chaplain Corps, I had 
to ponder the unique the relationship between military and faith. What 
I realized is that in the military we need our faith not only to 
strengthen us in battle, but we need our faith to guide us to always do 
what is right.
    We need you to use your faith to guide you to do what is right. If 
you are approaching climate change as a partisan, political issue, your 
faith is leading you astray. We, the American people, need you to have 
the courage to do what is right. It is your courage that can put our 
country and the world on the path to solving climate change.
    May God be with you. Thank you and God bless.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Hollie, the floor is yours, sir.

   STATEMENT OF DERRICK HOLLIE, PRESIDENT, REACHING AMERICA, 
                      BENNSVILLE, MARYLAND

    Mr. Hollie. Greetings, Chairman and members of the 
Committee. Thank you for the opportunity to speak. My name is 
Derrick Hollie, President of Reaching America, an organization 
I developed to address complex social issues that are impacting 
the African-American community.
    We are focused on solutions not based on right- or left-
wing views, but what makes sense for a more united America. One 
of the issues that we do the most work on is addressing and 
reducing energy poverty.
    What is energy poverty? Energy poverty exists when low-
income families or individuals spend upwards of 30 percent of 
their total income on their electric bill. And when that 
happens, it puts people in tough situations and having to make 
tough choices, like do I eat today, or do I pay the electric 
bill? Do I get this prescription filled, or do I fill up my gas 
tank? I can't even give the kids a couple of dollars today 
because I have to pay the electric bill.
    And for many Americans, particularly in the minority 
community, we face these challenges every single day. And the 
African-American community, we don't have the luxury to pay 
more for green technologies. We need access to affordable 
energy to help heat our homes, power our stoves, and get back 
and forth to work.
    And through Reaching America, I have had the opportunity to 
reach and talk to thousands of African-Americans who all talk 
about one thing: the question of rising costs of energy, along 
with the fees and subsidies that they have to pay that they 
don't benefit from, and how they struggle to keep up with it.
    My passion for energy is deeply rooted. When I first 
graduated from college, I worked for Norfolk Southern Railroad 
as a brakeman. And I can couple the cars, I could switch the 
tracks, I knew how to tighten up the brakes and everything. I 
worked at Lamberts Point in Norfolk, Virginia. Our job and 
responsibility was loading coal ships that transported coal all 
around the world. So, I have always asked myself the question. 
If our natural resources are good enough for other countries, 
then why is it not good enough for us right here at home?
    And in addition to that, my grandfather was a black coal 
miner in southwest Virginia. So, it is safe to say if it wasn't 
for the energy industry, I wouldn't be here to talk to you all 
today.
    When the government creates policies, its first priority 
should be the welfare of the people, especially those impacted 
the hardest, rather than big business and special interest 
groups looking for a handout.
    I am also a member of Project 21, a national black 
leadership organization. And in our blueprint for A Better Deal 
for Black America, we focus on 10 key areas for reform, 
including minority impact assessments for new regulations. This 
would be a major step toward increasing economic opportunities 
and having input from governors and community leaders, much the 
same way that qualified opportunity zones were developed and 
will create a level of trust in communities that never existed 
before.
    After all, the government requires environmental impact 
studies and statements to estimate the effects of projects like 
roads and buildings on nature. Shouldn't the government act 
similarly when it comes to how regulations impact the 
population, or a particular market segment?
    A minority impact assessment would create a list of all 
positive, all negative impacts a proposed regulation would 
have, and the factors including employment, wages, consumer 
prices, home ownership, job creation, et cetera. The regulatory 
impact would then be analyzed for its effect on minorities, in 
contrast to the general population.
    The bottom line: any policy that contributes to energy 
poverty is a bad one for low income and minority communities.
    Fortunately, our Nation has an abundant supply of natural 
gas that is the solution to our Nation's energy questions.
    Recent polar vortex temperatures last week dropped so low 
in some areas that windmills couldn't even turn. We have to 
have a Plan B. Natural gas is clean. The U.S. Energy 
Information Administration reports that almost two-thirds of 
the CO<INF>2</INF> emissions from 2006 through 2014 came from 
the fuel shifting toward natural gas.
    Natural gas is reliable. It is efficient. And it meets the 
needs of our Nation's grid. And natural gas is also affordable. 
And for many Americans, this allows them not to have to choose 
to keep the lights on or feed their families.
    In closing, I am all for protecting the environment. I am a 
licensed captain, had the opportunity to take my boat to 
Florida and back, and the coastal waterways are beautiful. So, 
I am all for the environment. However, until we figure out a 
way to harness the sun and the wind to sustain ourselves, we 
need to use what we have, especially if it could lower energy 
costs, create jobs, and boost the economy.
    That is my time. Thank you.

    [The prepared statement of Mr. Hollie follows:]
   Prepared Statement of Derrick Hollie, President, Reaching America
    Greetings Chairman Grijalva, Ranking Member Bishop and members of 
the Committee. Thank you for this opportunity to speak.
    I'm Derrick Hollie, president of Reaching America, an education and 
policy organization I developed to address complex social issues 
impacting African American communities.
    We're focused on solutions not based on right- or left-wing views 
but what makes sense for a more united America.
    One of the issues Reaching America does the most work on is 
reducing energy poverty across the board.
    Energy Poverty exists when low income families or individuals spend 
up to 30 percent of their total income on their electric bill. And when 
this happens, people have to make tough choices like, do I eat today or 
pay the electric bill? Do I get this prescription filled or fill up my 
car with gas? We all know someone who faces these choices every month.
    For members of the African American community, Energy Poverty is a 
reality. Members of our community don't have the luxury to pay more for 
green technologies. We need access to affordable energy to help heat 
our homes, power our stoves and get back and forth to work each day.
    Through Reaching America I've had the opportunity to speak with 
thousands of African Americans in several states who question the 
rising cost of energy along with fees and subsidies they don't benefit 
from and how they struggle to keep up.
    My passion for energy is deeply rooted, after graduating from 
college I worked as brakeman for Norfolk Southern Railways at Lambert's 
Point in Norfolk, Virginia. Our job and responsibilities was loading 
coal ships that transported coal all around the world and I constantly 
ask the question, ``If our coal and natural resources are good enough 
for other countries--why is not good enough for us here at home. My 
grandfather was also a black coal miner in southwest Virginia. It's 
safe to say if it weren't for the energy industry, I wouldn't be here 
to speak with all of you today.
    When the government creates policy, its first priority should be 
the welfare of the people, especially those impacted the hardest, 
rather than big businesses and special interests looking for a handout.
    I'm also a member of Project 21, a National Black Leadership 
Organization. In our Blueprint for A Better Deal for Black America we 
focus on 10 key areas for reform including ``Minority Impact 
Assessments'' for new regulations. This would be a major step toward 
increasing economic opportunities. And having input from governors and 
community leaders the same way ``Qualified Opportunity Zones'' were 
created will establish a level of trust in communities that never 
existed before.
    After all, the government requires environmental impact statements 
to estimate the effects of projects like roads and buildings on nature. 
Shouldn't the government act similarly when it comes to how regulations 
impact the population?
    A minority impact assessment would create a list of all the 
positive and negative impacts a proposed regulation would have on 
factors including employment, wages, consumer prices and homeownership. 
This regulatory impact would then be analyzed for its effect on 
minorities in contrast to the general population.
    The bottom line: any policy that contributes to energy poverty is a 
bad one for low income families and minority communities.
    Fortunately, our Nation has an abundant supply of natural gas that 
is a solution to our Nation's energy questions. Recent polar vortex 
temperatures dropped so low in some areas that windmills couldn't turn. 
We need a plan B.
    Natural gas is clean. The U.S. Energy Information Administration 
reports that almost two-thirds of the CO<INF>2</INF> emission 
reductions from 2006-2014 came from the fuel shifting toward natural 
gas.
    Natural gas is also reliable. Natural gas generation efficiently 
meets the needs of our Nation's energy grid.
    And natural gas is affordable. For many Americans, this allows them 
to not have to choose whether to keep the lights on or feed their 
families.
    In closing, I'm all for protecting the environment and clean energy 
however until we have figure out a way to harness the sun, wind and 
water to sustain ourselves, we need to use what we have especially if 
it can lower energy cost, create jobs and boost the economy.

                                 ______
                                 

Questions Submitted for the Record by Rep. Hice to Mr. Derrick Hollie, 
                      President, Reaching America
    Question 1. Mr. Hollie, I represent the 10th District of Georgia, 
much of which is extremely rural. Now when I say ``rural'' different 
people get different things in their heads, so let me explain. When I 
say ``rural'' that means that in some parts of my district my 
constituents have to park at the Chick-fil-A to let the kids sit in the 
car to get WiFi to do their homework. When I say ``rural'' that means 
in other parts of my district my constituents have to drive to an 
entirely different county to get to a grocery store.

    So, I was struck by a remark you made in your testimony that, 
``When the government creates policy, its first priority should be the 
welfare of the people, especially those impacted the hardest . . .''

    You would agree then that if policies like the Green New Deal 
encourage energy poverty for rural, low income, and minority 
communities that we need to immediately hit the pause button on those 
ideas? And why would that be a prudent step?

    Answer. That's the essence of the Minority Impact Assessment. 
Before a regulation is enacted, it should go through a process to see 
how it might specifically impact certain populations. Before a Green 
New Deal proposal to phase out the combustion engine in favor of 
electric vehicles is enacted, for example, it should be seen if this is 
feasible for specific communities. Can people in GA 10 afford a Telsa? 
What costs will come to the district to put electric car charging 
stations ``everywhere'' as prescribed by the Green New Deal FAQ? Can an 
electric car do the things that people in GA 10 need a vehicle to do 
(i.e. rural jobs)? The Minority Impact Assessment acts as a ``cooling 
saucer'' to prevent regulations from imposing unrealistic expectations 
on specific people and communities.

    Question 2. One of the main reasons many of our founders supported 
federalism was because it provided for ``laboratories of 
experimentation'' \1\ and regulatory diversity. What works best for 
some parts of the country does not necessarily work best for other 
areas. In my home state, we have almost completed two of the first 
nuclear reactors to be built in roughly 50 years at Plant Vogtle.
---------------------------------------------------------------------------
    \1\ New State Ice Co. v. Liebmann, SCOTUS, 1932.

    Georgia has also been a leader in other clean energy sources like 
solar and hydro energy production. Plant Vogtle works hand in glove 
with other clean energy technologies. And nuclear will continue to 
provide cheap, clean energy when the sun is not shining or to refill 
the reservoir overnight at clean pumped-storage hydroelectric plants 
---------------------------------------------------------------------------
like our Rocky Mountain facility.

    But the Green New Deal would ban nuclear energy--which would 
effectively harm rural and low-income communities in my district and 
state. Mr. Hollie, how might your proposed Minority Impact Assessment 
prevent laws or regulations from banning affordable energy solutions 
for these communities?

    Answer. The Minority Impact Assessment would look at proposed 
regulation to ensure that it does not have a disparate impact on 
minority communities by affecting factors such as income, home prices, 
access to jobs and quality of life issues. Losing affordable, reliable 
and efficient power for a source that increases energy costs and breeds 
energy poverty does not make sense. The Minority Impact Assessment will 
identify these disparities--if Congress acts to instate Minority Impact 
Assessment requirements.

    Question 3. Mr. Hollie, one last question for you. The Green New 
Deal would ban most private cars to be replaced with ``high-quality and 
modern mass transit.'' Mr. Hollie, if you lived in a county that didn't 
even have a grocery store and you needed your personal transportation 
to get food for your family, does it sound like the Green New Deal is a 
policy designed to help rural, low income, and minority communities, or 
a policy designed for the milieu--the wealthy and cultural elite?

    Answer. I can't image using public transit to do the grocery 
shopping for my family in the bustling suburbs of Washington, DC area 
much less rural Georgia. For many people, a car or truck is freedom. 
Freedom to pursue the employment best for them. Freedom to associate 
with family, friends and like-minded people. Freedom to shop next door, 
across town or across county or state lines. There is also a potential 
limitation on freedom that comes with relying on a government entity to 
take you from point A to point B. Too often policy is presented that 
does not represent what's best for the people who are impact the 
hardest. The Green New Deal calls for environmental impact studies and 
I would highly urge Congress to also include Minority Impact 
Assessments.


                                 ______
                                 

    The Chairman. Thank you very much.
    Dr. Curry.

   STATEMENT OF JUDITH A. CURRY, PRESIDENT, CLIMATE FORECAST 
               APPLICATIONS NETWORK, RENO, NEVADA

    Dr. Curry. I thank the Chairman, the Ranking Member, and 
the Committee for the opportunity to offer testimony today.
    I am concerned that both the climate change problem and its 
solution have been vastly over-simplified. This over-
simplification has led to politicized scientific debates and 
policy gridlock. My testimony is presented today in the spirit 
of acknowledging the complexity of the problem, and proposing 
pragmatic ideas that can break the gridlock.
    Climate scientists have made a forceful argument for a 
future threat from climate change. Man-made climate change is a 
theory whose basic mechanism is well understood, but the 
potential magnitude is highly uncertain.
    If climate change were a simple, tame problem, everyone 
would agree on the solution. Because of the complexities of the 
climate system and its societal impacts, solutions may have 
surprising unintended consequences that generate new 
vulnerabilities. In short, the cure could be worse than the 
disease. Given these complexities, there is plenty of scope for 
reasonable and intelligent people to disagree.
    Based on current assessments of the science, man-made 
climate change is not an existential threat on the timescale of 
the 21st century, even in its most alarming incarnation. 
However, the perception of a near-term apocalypse and alignment 
with a range of other social objectives has narrowed the policy 
options that we are willing to consider.
    In evaluating the urgency of emissions reductions, we need 
to be realistic about what this will actually accomplish. 
Global CO<INF>2</INF> concentrations will not be reduced if 
emissions in China and India continue to increase. If we 
believe the climate models, any changes in extreme weather 
events would not be evident until late in the 21st century. And 
the greatest impacts will be felt in the 22nd century and 
beyond.
    People prefer clean over dirty energy, provided that the 
energy source is reliable, secure, and economical. However, it 
is misguided to assume that current wind and solar technologies 
are adequate for powering an advanced economy. The recent 
record-breaking cold outbreak in the Midwest is a stark 
reminder of the challenges of providing a reliable power supply 
in the face of extreme weather events.
    With regards to energy policy and its role in reducing 
emissions, there are currently two options in play. Option 
Number 1: do nothing, continue with the status quo. Or, Option 
Number 2: rapidly deploy wind and solar power plants with the 
goal of eliminating fossil fuels in one to two decades.
    Apart from the gridlock engendered by considering only 
these two options, in my opinion, neither gets us where we want 
to go. A third option is to re-imagine the 21st century 
electric power systems with new technologies that improve 
energy security, reliability, and cost, while at the same time 
minimizing environmental impacts.
    However, this strategy requires substantial research 
development and experimentation. Acting urgently on emissions 
reduction by deploying 20th century technologies could turn out 
to be the enemy of a better long-term solution.
    Since reducing emissions is not expected to change the 
climate in a meaningful way until late in the 21st century, 
adaptation strategies are receiving increasing attention. The 
extreme damages from recent hurricanes, plus the billion-dollar 
losses from floods, droughts, and wildfires emphasize the 
vulnerability of the United States to extreme events. But it is 
easy to forget that U.S. extreme weather events were actually 
worse in the 1930s and 1950s.
    Regions that find solutions to current impacts of extreme 
weather and climate events will be better prepared to cope with 
any additional stresses from climate change, and to address 
near-term social justice objectives.
    The industry leaders that I engage with seem hungry for a 
bipartisan, pragmatic approach to climate policy. I see a 
window of opportunity to change the framework for how we 
approach this. Bipartisan support seems feasible for pragmatic 
efforts to accelerate energy innovation, build resilience to 
extreme weather events, pursue no-regrets pollution reduction 
measures, and better land use practices.
    Each of these efforts has justifications independent of 
their benefits for climate change. These efforts provide the 
basis of a climate policy that addresses both near term 
economic and social justice concerns, and also the longer term 
goals of mitigation.
    This ends my testimony. Thank you.

    [The prepared statement of Dr. Curry follows:]
  Prepared Statement of Judith A. Curry, President, Climate Forecast 
                          Applications Network
    I thank the Chairman, Ranking Member and the Committee for the 
opportunity to offer testimony today on `Climate Change: The Impacts 
and the Need to Act.' I am President of Climate Forecast Applications 
Network (CFAN) and Professor Emerita and former Chair of the School of 
Earth and Atmospheric Sciences at the Georgia Institute of Technology. 
I have devoted four decades to conducting research on a variety of 
topics related to weather and climate.
    By engaging with decision makers in both the private and public 
sectors on issues related to weather and climate, I have learned about 
the complexity of different decisions that depend, at least in part, on 
weather and climate information. I have learned the importance of 
careful determination and conveyance of the uncertainty associated with 
our scientific understanding and particularly for predictions. I have 
found that the worst outcome for decision makers is a scientific 
conclusion or forecast issued with a high level of confidence that 
turns out to be wrong.
    I am increasingly concerned that both the climate change problem 
and its solution have been vastly oversimplified.\1\ For the past 
decade, I have been promoting dialogue across the full spectrum of 
understanding and opinion on the climate debate through my blog Climate 
Etc. (judithcurry.com). I have learned about the complex reasons that 
intelligent, educated and well-informed people disagree on the subject 
of climate change, as well as tactics used by both sides to try to gain 
a political advantage in the debate.
---------------------------------------------------------------------------
    \1\ Curry, JA and Webster PJ, 2011: Climate science and the 
uncertainty monster. Bull. Amer. Meteorol. Soc., 92, 1667-1682. http://
journals.ametsoc.org/doi/pdf/10.1175/2011BAMS3139.1.

    With this perspective, my testimony focuses on the following issues 
---------------------------------------------------------------------------
of central relevance to climate change, its impacts and need to act:

    <bullet> The climate knowledge gap

    <bullet> The climate change response challenge

    <bullet> The urgency (?) of CO<INF>2</INF> emissions reductions

    <bullet> Resilience, anti-fragility and thrivability

    <bullet> Moving forward with pragmatic climate change policies

                       the climate knowledge gap
    Climate scientists have made a forceful argument for a future 
threat from man-made climate change. Man-made climate change is a 
theory in which the basic mechanism is well understood, but the 
potential magnitude is highly uncertain. Scientists agree that surface 
temperatures have increased overall since 1880, humans are adding 
carbon dioxide to the atmosphere, and carbon dioxide and other 
greenhouse gases have a warming effect on the planet.
    However, there is considerable disagreement about the most 
consequential issues: whether the recent warming has been dominated by 
human causes versus natural variability, how much the planet will warm 
in the 21st century, whether warming is `dangerous', and whether 
radically reducing carbon dioxide (CO<INF>2</INF>) emissions will 
improve the climate and human well-being in the 21st century.
    The scientific conflict regarding the theory of man-made climate 
change is over the level of our ignorance regarding what is unknown 
about natural climate variability. Why do climate scientists disagree 
on the relative importance of natural versus man-made climate change? 
The historical data is sparse and inadequate. There is disagreement 
about the value of different classes of evidence, notably the value of 
global climate model simulations and paleoclimate reconstructions from 
geologic data. There is disagreement about the appropriate logical 
framework for linking and assessing the evidence in this complex 
problem.\2\ Further, politicization of the science and the consensus 
building process itself can be a source of bias.
---------------------------------------------------------------------------
    \2\ Curry, JA, (2011). Reasoning about climate uncertainty, https:/
/link.springer.com/article/10.1007/s10584-011-0180-z.

    Apart from these broad sources of disagreement, there are two 
sources of misconception and uncertainty that are of particular 
---------------------------------------------------------------------------
relevance to climate policy making:

    <bullet> Projections of 21st century climate change

    <bullet> Linking extreme weather events to man-made climate change

    With regards to projections of 21st century climate change, 
Sections 11.3.1.1 and 12.2.3 of the Intergovernmental Panel on Climate 
Change (IPCC) 5th Assessment Report (AR5) describe uncertainties in the 
climate model-based projections. Climate models consistently indicate 
that the mean global temperature of the planet will rise with 
increasing CO<INF>2</INF> emissions. However, these models show 
systematic errors in the simulated global mean temperature that are 
similar in magnitude to the size of the historical change we are 
seeking to understand.\3\ The likely \4\ range of estimates of the 
sensitivity of global warming to doubling of CO<INF>2</INF> as reported 
by the IPCC AR5 varies by a factor of 3, from 1.5 to 4.5+C.\5\ Apart 
from uncertainties in climate model projections that focus primarily on 
the impact of increases in greenhouse gases, we do not have sufficient 
understanding to project future solar variations, future volcanic 
eruptions, and decadal to century variations in ocean circulations. 
Finally, existing climate models are unable to simulate realistically 
possible extreme outcomes, such as abrupt climate change or a rapid 
disintegration of the West Antarctic Ice Sheet. Hence global climate 
models provide little relevant information regarding very unlikely but 
potentially catastrophic impacts--whether caused by man-made climate 
forcing or natural processes or some combination.
---------------------------------------------------------------------------
    \3\ Mauritsen et al., (2012). Tuning the climate of a global model, 
https://agupubs.onlinelibrary.wiley.com/doi/10.1029/2012MS000154.
    \4\ >66% probability.
    \5\ IPCC AR5 WG1 Report, https://www.ipcc.ch/report/ar5/wg1/.

    Among the greatest concerns about climate change are its impacts on 
extreme events such floods, droughts, heat waves, wildfires and 
hurricanes. However, there is little evidence that the recent warming 
has worsened such events. The IPCC Special Report on Extreme Events \6\ 
acknowledges that there is not yet evidence of changes in the global 
frequency or intensity of hurricanes, droughts, floods or wildfires. 
The recent Climate Science Special Report from the Fourth National 
Climate Assessment (NCA4) \7\ reported the following conclusions abut 
extreme events and climate change:
---------------------------------------------------------------------------
    \6\ IPCC Special Report on Extreme Events, http://www.ipcc.ch/
report/srex/.
    \7\ 4th National Climate Assessment, Vol 1, https://
www.globalchange.gov/nca4.

    <bullet> ``Recent droughts and associated heat waves have reached 
            record intensity in some regions of the United States; 
            however, the Dust Bowl era of the 1930s remains the 
            benchmark drought and extreme heat event in the historical 
---------------------------------------------------------------------------
            record.'' [Ch. 6]

    <bullet> ``Detectable changes in some classes of flood frequency 
            have occurred in parts of the United States and are a mix 
            of increases and decreases. Extreme precipitation is 
            observed to have generally increased. However, formal 
            attribution approaches have not established a significant 
            connection of increased riverine flooding to human-induced 
            climate change.'' [Ch. 8]

    <bullet> ``State-level fire data over the 20th century indicates 
            that area burned in the western United States decreased 
            from 1916 to about 1940, was at low levels until the 1970s, 
            then increased into the more recent period.'' [Ch. 8]

    <bullet> ``[T]here is still low confidence that any reported long-
            term increases in [hurricane] activity are robust, after 
            accounting for past changes in observing capabilities'' [Ch 
            9]

    With regards to the perception (and damage statistics) that severe 
weather events seem more frequent and more severe over the past decade, 
there are several factors in play. The first is the increasing 
vulnerability and exposure associated with increasing concentration of 
wealth in coastal and other disaster-prone regions. The second factor 
is natural climate variability. Many extreme weather events have 
documented relationships with natural climate variability; in the 
United States, extreme weather events (e.g. droughts, heat waves and 
hurricanes) were significantly worse in the 1930s and 1950s.\8\
---------------------------------------------------------------------------
    \8\ Curry, JA, 2014. Senate EPW testimony, http://judithcurry.com/
2014/01/16/senate-epw-hearing-on-the-presidents-climate-action-plan/.
---------------------------------------------------------------------------
    While climate models predict changes in extreme weather events with 
future warming, the time of emergence of any man-made signal relative 
to the large natural variability in extreme weather events is not 
expected to be evident until late in the 21st century, even for the 
most aggressive scenarios of future warming.

    When considering the predictions of additional climate change 
impacts in the NCA4, pay attention to the confidence level ascribed to 
their conclusions. The NCA4 defines the confidence levels as follows:

    <bullet> ``Low: Inconclusive evidence (limited sources 
            extrapolations, inconsistent findings, poor documentation 
            and/or methods not tested, etc.), disagreement or lack of 
            opinions among experts.''

    <bullet> ``Medium: Suggestive evidence (a few sources, limited 
            consistency, models incomplete, methods emerging, etc.), 
            competing schools of thought.''

    <bullet> ``High: Moderate evidence (several sources, some 
            consistency, methods vary and/or documentation limited, 
            etc.), medium consensus.''

    <bullet> ``Very high: Strong evidence (established theory, multiple 
            sources, consistent results well documented and accepted 
            methods, etc.), high consensus.''

    These categories defy the common understanding of the words used to 
describe them.\9\ The words used to describe `High confidence' include 
`Moderate evidence, medium consensus,' which are more descriptive of 
the common understanding of medium confidence. The words used to 
describe `Medium confidence' include: `a few sources, limited 
consistency, models incomplete, methods emerging; competing schools of 
thought,' that are more descriptive of the common understanding of low 
confidence.
---------------------------------------------------------------------------
    \9\ https://judithcurry.com/2019/01/02/national-climate-assessment-
a-crisis-of-epistemic-overconfidence/.
---------------------------------------------------------------------------
    Apart from these semantic issues, there are very few conclusions of 
meaningful impacts in the NCA4 that are associated with `very high' 
confidence or even `high' confidence. For conclusions associated with 
low, medium and even high confidence, there is substantial room for 
scientific disagreement.
                 the climate change response challenge
    In response to the threat of man-made climate change, the United 
Nations Framework Convention on Climate Change (UNFCCC) has established 
an international goal of stabilization of the concentrations of 
greenhouse gases in the atmosphere.

    This framing of the climate change problem and its solution has led 
to the dilemma of climate response policy that is aptly described by 
Obersteiner et al: \10\
---------------------------------------------------------------------------
    \10\ Obersteiner, et al. (2001). Managing Climate Risk, http://
www.iiasa.ac.at/Admin/PUB/Documents/IR-01-051.pdf.

        The key issue is whether ``betting big today'' with a 
        comprehensive global climate policy targeted at stabilization 
        ``will fundamentally reshape our common future on a global 
        scale to our advantage, or quickly produce losses that can 
        throw mankind into economic, social, and environmental 
---------------------------------------------------------------------------
        bankruptcy.''

    In their `Wrong Trousers' essay,\11\ Prins and Rayner argue that we 
have made the wrong choices in our attempts to define the problem of 
climate change and its solution, by relying on strategies that worked 
previously for `tame' problems. A tame problem is well defined, well 
understood, and the appropriate solutions are agreed upon. Cost-benefit 
analyses are appropriate for tame problems, and the potential harm from 
miscalculation is bounded.
---------------------------------------------------------------------------
    \11\ Prins and Rayner, 2007. The wrong trousers: radically 
rethinking climate policy, http://eureka.bodleian.ox.ac.uk/66/.
---------------------------------------------------------------------------
    By contrast, climate change is better characterized as a `wicked' 
problem, which is a complex tangle characterized by multiple problem 
definitions, methods of understanding that are open to contention, 
'unknown unknowns' that suggest chronic conditions of ignorance, and 
lack of capacity to imagine future eventualities of both the problem 
and the proposed solutions. The complex web of causality may result in 
surprising unintended consequences to attempted solutions, that 
generate new vulnerabilities or exacerbate the original harm. Further, 
the wickedness of the climate change problem makes it difficult to 
identify points of irrefutable failure or success in either the 
scientific predictions or the policies.
    Overreaction to a possible catastrophic threat may cause more harm 
than benefits and introduce new systemic risks, which are difficult to 
foresee for a wicked problem. The known risks to human well-being 
associated with constraining fossil fuels may be worse than the 
eventual risks from climate change, and there are undoubtedly some 
risks from both that we currently do not foresee.
    The wickedness of the climate change problem is further manifested 
in the regional variability of the risks. Balancing the risks of 
climate change and the policy response is very difficult across 
different regions and countries that face varying risks from climate 
change, energy poverty and challenges to economic development. Some 
regions may actually benefit from a warmer climate. Regional 
perceptions of a preferred climate or `dangerous' climate change depend 
on societal values and vulnerability/resilience, which vary regionally 
and culturally. Climate has always changed, independently of human 
activity, so climate change is nothing new. Further, our current 
preferences for avoiding a particular climate of the future fail to 
account for human creativity and ingenuity in creating new technologies 
and social and political structures that will condition our perceptions 
and the consequences of climate change.

    Climate-related decisions involve incomplete information from a 
fast-moving and irreducibly uncertain science. There are many different 
interests and values in play, the relevant timescales are long and 
there is near certainty of surprise. In the context of decision making, 
`deep uncertainty' \12\ refers to:
---------------------------------------------------------------------------
    \12\ Walker et al. (2016): Deep Uncertainty. doi:10.1007/978-1-
4419-1153-7_1140.

    <bullet> situations in which the phenomena are still only poorly 
            understood and experts do not know or cannot agree on 
---------------------------------------------------------------------------
            models that relate key forces that shape the future;

    <bullet> modeling and subjective judgments are used rather than 
            estimates based upon previous experience of actual events 
            and outcomes; and

    <bullet> experts cannot agree on the value of alternative outcomes.

    The climate change problem arguably meets all three of these 
criteria for `deep uncertainty'.\13\ Acknowledgement of deep 
uncertainty surrounding a problem and its solutions does not imply that 
`no action' is needed. Rather, it implies that decision-analytic 
frameworks should be selected that are consistent with deep 
uncertainty.
---------------------------------------------------------------------------
    \13\ Curry (2018). Climate uncertainty and risk. https://
indd.adobe.com/view/da3d0bde-1848-474d-b080-f07200293f91.
---------------------------------------------------------------------------
    Robust and flexible policy strategies can be designed that account 
for uncertainty, ignorance and dissent. Robust strategies formally 
consider uncertainty, whereby decision makers seek to reduce the range 
of possible scenarios over which the strategy performs poorly. Flexible 
strategies can be quickly adjusted to advancing scientific insights and 
new conditions that arise.
    Justification for addressing the climate change problem is 
transitioning away from precaution to a risk management approach that 
addresses the economics of preventing losses from climate change. The 
World Bank has a recent paper entitled Investment decision making under 
deep uncertainty--application to climate change \14\ that summarizes 
decision-making methodologies that are able to deal with the deep 
uncertainty associated with climate change, including robust decision 
making and Climate Informed Decision Analysis.
---------------------------------------------------------------------------
    \14\ http://elibrary.worldbank.org/content/workingpaper/10.1596/
1813-9450-6193.
---------------------------------------------------------------------------
    The Hartwell Paper,\15\ published by the London School of Economics 
in cooperation with the University of Oxford, argues that: 
``decarbonisation will only be achieved successfully as a benefit 
contingent upon other goals which are politically attractive and 
relentlessly pragmatic.'' The Hartwell Paper analyzes many alternative 
policy approaches to decarbonization. The authors remind us that: ``it 
is not just that science does not dictate climate policy; it is that 
climate policy alone does not dictate environmental or development or 
energy policies.''
---------------------------------------------------------------------------
    \15\ Hartwell Paper, http://eprints.lse.ac.uk/27939/.
---------------------------------------------------------------------------
    The Breakthrough Institute has proposed Climate Pragmatism,\16\ a 
pluralistic approach based on innovation, resilience and no regrets. 
This pragmatic strategy centers on efforts to accelerate energy 
innovation, build resilience to extreme weather, and pursue no regrets 
pollution reduction measures. Each of these three efforts has 
justifications independent of their benefits for climate mitigation and 
adaptation. Further, this framework does not depend on any agreement 
about climate science or the risks posed by CO<INF>2</INF> emissions.
---------------------------------------------------------------------------
    \16\ http://thebreakthrough.org/blog/Climate_Pragmatism_web.pdf.
---------------------------------------------------------------------------
         the urgency (?) of co<INF>2</INF> emissions reductions
    In the decades since the 1992 UNFCCC Treaty, global CO<INF>2</INF> 
emissions have continued to increase, especially in developing 
countries. In 2010, the world's governments agreed that emissions need 
to be reduced so that global temperature increases are limited to below 
2+C.\17\ The target of 2+C (and increasingly 1.5+C) \18\ remains the 
focal point of international climate agreements and negotiations.
---------------------------------------------------------------------------
    \17\ http://unfccc.int/essential_background/items/6031.php.
    \18\ https://www.ipcc.ch/sr15/.
---------------------------------------------------------------------------
    The original rationale for the 2+C target is the idea that `tipping 
points'--abrupt or nonlinear transition to a different climate state--
become likely to occur once this threshold has been crossed, with 
consequences that are largely uncontrollable and beyond our management. 
The IPCC AR5 considered a number of potential tipping points, including 
ice sheet collapse, collapse of the Atlantic overturning circulation, 
and permafrost carbon release. Every single catastrophic scenario 
considered by the IPCC AR5 (WGII, Table 12.4) has a rating of very 
unlikely or exceptionally unlikely and/or has low confidence. The only 
tipping point that the IPCC considers likely in the 21st century is 
disappearance of Arctic summer sea ice (which is fairly reversible, 
since sea ice freezes every winter).
    In the absence of tipping points on the timescale of the 21st 
century, the 2+C limit is more usefully considered by analogy to a 
highway speed limit: \19\ driving at 10 mph under the speed limit is 
not automatically safe, and exceeding the limit by 10 mph is not 
automatically dangerous, although the faster one travels the greater 
the danger from an accident. Analogously, the 2+C (or 1.5+C) limit 
should not be taken literally as a real danger threshold. An analogy 
for considering the urgency of emissions reductions is your 401K 
account: if you begin making contributions early, it will be easier to 
meet your retirement goals.
---------------------------------------------------------------------------
    \19\ http://www.carbonbrief.org/blog/2014/12/two-degrees-a-
selected-history-of-climate-change-speed-limit/.
---------------------------------------------------------------------------
    Nevertheless, the 2+C and 1.5+C limits are used to motivate the 
urgency of action to reduce CO<INF>2</INF> emissions. At a recent U.N. 
Climate Summit, (former) Secretary-General Ban Ki-moon warned that: 
``Without significant cuts in emissions by all countries, and in key 
sectors, the window of opportunity to stay within less than 2 degrees 
[of warming] will soon close forever.'' \20\ Actually, this window of 
opportunity may remain open for quite some time. The implications of 
the lower values of climate sensitivity found by Lewis and Curry \21\ 
and other recent studies is that human-caused warming is not expected 
to exceed the 2+C `danger' level in the 21st century. Further, there is 
growing evidence that the RCP8.5 scenario for future greenhouse gas 
concentrations, which drives the largest amount of warming in climate 
model simulations, is impossibly high, requiring a combination of 
numerous borderline impossible socioeconomic scenarios.\22\ A slower 
rate of warming means there is less urgency to phase out greenhouse gas 
emissions now, and more time to find ways to decarbonize the economy 
affordably and with a minimum of unintended consequences. It also 
allows for the flexibility to revise our policies as further 
information becomes available.
---------------------------------------------------------------------------
    \20\ http://unfccc.int/un-climate-summit-ban-ki-moon-final-
summary/.
    \21\ Lewis and Curry (2018), https://journals.ametsoc.org/doi/
10.1175/JCLI-D-17-0667.1.
    \22\ https://www.sciencedirect.com/science/article/abs/pii/
S0360544217314597.
---------------------------------------------------------------------------
    Is it possible that something truly dangerous and unforeseen could 
happen to Earth's climate during the 21st century? Yes it is possible, 
but natural climate variability (including geologic processes) may be a 
more likely source of possible undesirable change than man-made 
warming. In any event, attempting to avoid such a dangerous and 
unforeseen climate by reducing fossil fuel emissions will be futile if 
natural climate and geologic processes are dominant factors. Geologic 
processes are an important factor in the potential instability of the 
West Antarctic ice sheet that could contribute to substantial sea level 
rise in the 21st century.\23\
---------------------------------------------------------------------------
    \23\ Curry (2018). Sea level and climate change. https://
curryja.files.wordpress.com/2018/11/special-report-sea-level-rise3.pdf 
(section 4.2.2). Whitehouse et al. (2019) https://www.nature.com/
articles/s41467-018-08068-y.
---------------------------------------------------------------------------
    Under the Paris Agreement, individual countries have submitted to 
the UNFCCC their Nationally Determined Contributions (NDCs). Under the 
Obama administration, the U.S. NDC had a goal of reducing emissions by 
28 percent below 2005 levels by 2025. Apart from considerations of 
feasibility and cost, it has been estimated \24\ using the EPA MAGICC 
model that this commitment will prevent 0.03+C in warming by 2100. When 
combined with current commitments from other nations, only a small 
fraction of the projected future warming will be ameliorated by these 
commitments. If climate models are indeed running too hot,\25\ then the 
amount of warming prevented would be even smaller. Even if emissions 
immediately went to zero and the projections of climate models are to 
be believed, the impact on the climate would not be noticeable until 
the 2nd half of the 21st century. Most of the expected benefits to the 
climate from the UNFCCC emissions reductions policy will be realized in 
the 22nd century and beyond.
---------------------------------------------------------------------------
    \24\ Lomborg (2015), https://onlinelibrary.wiley.com/doi/full/
10.1111/1758-5899.12295.
    \25\ Curry (2017). Climate models for laypersons, https://
www.thegwpf.org/content/uploads/2017/02/Curry-2017.pdf.
---------------------------------------------------------------------------
    Attempting to use carbon dioxide as a control knob to regulate 
climate on decadal to century timescales is arguably futile. The UNFCCC 
emissions reductions policies have brought us to a point between a rock 
and a hard place, whereby the emissions reduction policy with its 
extensive costs and questions of feasibility are inadequate for making 
a meaningful dent in slowing down the expected warming in the 21st 
century. And the real societal consequences of climate change and 
extreme weather events (whether caused by man-made climate change or 
natural variability) remain largely unaddressed.
    This is not to say that a transition away from burning fossil fuels 
doesn't make sense over the course of the 21st century. People prefer 
`clean' over `dirty' energy--provided that all other things are equal, 
such as reliability, security, and economy. However, assuming that 
current wind and solar technologies are adequate for providing the 
required amount and density of electric power for an advanced economy 
is misguided.\26\
---------------------------------------------------------------------------
    \26\ Clack et al. (2017), https://www.pnas.org/content/114/26/6722.
---------------------------------------------------------------------------
    The recent record-breaking cold outbreak in the Midwest is a stark 
reminder of the challenges of providing a reliable power supply in the 
face of extreme weather events, where an inadequate power supply not 
only harms the economy, but jeopardizes lives and public safety. Last 
week, central Minnesota experienced a natural gas `brownout,' as Xcel 
Energy advised customers to turn thermostats down to 60 degrees and 
avoid using hot water.\27\ Why? Because the wind wasn't blowing during 
an exceptionally cold period. Utilities pair natural gas plants with 
wind farms, where the gas plants can be ramped up and down quickly when 
the wind isn't blowing. With bitter cold temperatures and no wind, 
there wasn't enough natural gas.
---------------------------------------------------------------------------
    \27\ https://www.powerlineblog.com/archives/2019/01/why-green-
energy-is-futile-in-one-lesson.php.
---------------------------------------------------------------------------
    A transition to an electric power system driven solely by wind and 
solar would require a massive amount of energy storage. While energy 
storage technologies are advancing, massive deployment of cost 
effective energy storage technologies is well beyond current 
capabilities.\28\ An unintended consequence of rapid deployment of wind 
and solar energy farms may be that natural gas power plants become 
increasingly entrenched in the power supply system.
---------------------------------------------------------------------------
    \28\ https://webstore.iea.org/technology-roadmap-energy-storage.
---------------------------------------------------------------------------
    Apart from energy policy, there are a number of land use practices 
related to croplands, grazing lands, forests and wetlands that could 
increase the natural sequestration of carbon and have ancillary 
economic and ecosystem benefits.\29\ These co-benefits include improved 
biodiversity, soil quality, agricultural productivity and wildfire 
behavior modification.
---------------------------------------------------------------------------
    \29\ https://www.ipcc.ch/site/assets/uploads/2018/02/
ipcc_wg3_ar5_chapter11.pdf.
---------------------------------------------------------------------------
    In evaluating the urgency of CO<INF>2</INF> emissions reductions, 
we need to be realistic about what reducing emissions will actually 
accomplish. Drastic reductions of emissions in the United States will 
not reduce global CO<INF>2</INF> concentrations if emissions in the 
developing world, particularly China and India, continue to increase. 
If we believe the climate model simulations, we would not expect to see 
any changes in extreme weather/climate events until late in the 21st 
century. The greatest impacts will be felt in the 22nd century and 
beyond, in terms of reducing sea level rise and ocean acidification.
              resilience, anti-fragility and thrivability
    Given that emissions reductions policies are very costly, 
politically contentious and are not expected to change the climate in a 
meaningful way in the 21st century, adaptation strategies are receiving 
increasing attention in formulating responses to climate change.
    The extreme damages from recent hurricanes plus the recent billion 
dollar disasters from floods, droughts and wildfires, emphasize that 
the United States is highly vulnerable to current weather and climate 
disasters. Even worse disasters were encountered in the United States 
during the 1930s and 1950s. Possible scenarios of incremental worsening 
of weather and climate extremes over the course of the 21st century 
don't change the fundamental storyline that many regions of the United 
States are not well adapted to the current weather and climate 
variability, let alone the range that has been experienced over the 
past two centuries.
    As a practical matter, adaptation has been driven by local crises 
associated with extreme weather and climate events, emphasizing the 
role of `surprises' in shaping responses. Advocates of adaptation to 
climate change are not arguing for simply responding to events and 
changes after they occur; they are arguing for anticipatory adaptation. 
However, in adapting to climate change, we need to acknowledge that we 
cannot know how the climate will evolve in the 21st century, we are 
certain to be surprised and we will make mistakes along the way.
    `Resilience' is the ability to `bounce back' in the face of 
unexpected events. Resilience carries a connotation of returning to the 
original state as quickly as possible. The difference in impact and 
recovery from Hurricane Sandy striking New York City in 2012 versus the 
impact of Tropical Cyclone Nargis striking Myanmar in 2008 \30\ 
reflects very different vulnerabilities and capacities for bouncing 
back.
---------------------------------------------------------------------------
    \30\ Webster, (2008). Myanmar's Deadly Daffodil. http://
webster.eas.gatech.edu/Papers/Webster2008c.pdf.
---------------------------------------------------------------------------
    To increase our resilience to extreme weather and climate events, 
we can `bounce forward' to reduce future vulnerability by evolving our 
infrastructures, institutions and practices. Nicholas Taleb's concept 
of antifragility \31\ focuses on learning from adversity, and 
developing approaches that enable us to thrive from high levels of 
volatility, particularly unexpected extreme events. Anti-fragility goes 
beyond `bouncing back' to becoming even better as a result of 
encountering and overcoming challenges. Anti-fragile systems are 
dynamic rather than static, thriving and growing in new directions 
rather than simply maintaining the status quo.
---------------------------------------------------------------------------
    \31\ Taleb, (2012). Antifragile: Things That Gain From Disorder. 
Random House.
---------------------------------------------------------------------------
    Strategies to increase antifragility include: economic development, 
reducing the downside from volatility, developing a range of options, 
tinkering with small experiments, and developing and testing 
transformative ideas. Antifragility is consistent with decentralized 
models of policy innovation that create flexibility and redundance in 
the face of volatility. This `innovation dividend' is analogous to 
biodiversity in the natural world, enhancing resilience in the face of 
future shocks.\32\
---------------------------------------------------------------------------
    \32\ Lynch: Policy Diversity: Creative Potential or Wasteful 
Redundancy? https://slideplayer.com/slide/6265255/.

    Similar to anti-fragility, the concept of `thrivability' has been 
articulated by Jean Russell: \33\
---------------------------------------------------------------------------
    \33\ Russell, (2013). https://www.amazon.com/Thrivability-Breaking-
through-World-Works/dp/1909470287.

        ``It isn't enough to repair the damage our progress has 
        brought. It is also not enough to manage our risks and be more 
        shock-resistant. Now is not only the time to course correct and 
        be more resilient. It is a time to imagine what we can generate 
        for the world. Not only can we work to minimize our footprint 
        but we can also create positive handprints. It is time to 
---------------------------------------------------------------------------
        strive for a world that thrives.''

    A focus on policies that support resilience, anti-fragility and 
thrivability avoids the hubris of thinking we can predict the future 
climate. The relevant questions then become:

    <bullet> How can we best promote the development of transformative 
            ideas and technologies?

    <bullet> How much resilience can we afford?

    The threats from climate change (whether natural or human caused) 
are fundamentally regional, associated not only with regional changes 
to the weather/climate, but with local vulnerabilities and cultural 
values and perceptions. In the least developed countries, energy 
poverty and survivability is of overwhelming concern, where there are 
severe challenges to meeting basic needs and their idea of clean energy 
is something other than burning dung inside their dwelling for cooking 
and heating. In many less developed countries, particularly in South 
Asia, an overwhelming concern is vulnerability to extreme weather 
events such as floods and hurricanes that can set back the local 
economies for a generation. In the developed world, countries are 
relatively less vulnerable to climate change and extreme weather events 
and have the luxury of experimenting with new ideas: entrepreneurs not 
only want to make money, but also to strive for greatness and transform 
the infrastructure for society.
    Extreme weather/climate events such as landfalling major 
hurricanes, floods, extreme heat waves and droughts become catastrophes 
through a combination of large populations, large and exposed 
infrastructure in vulnerable locations, and human modification of 
natural systems that can provide a natural safety barrier (e.g. 
deforestation, draining wetlands). Addressing current adaptive deficits 
and planning for climate compatible development will increase societal 
resilience to future extreme events that may possibly be more frequent 
or severe in the future.
                              ways forward
    Climate scientists have made a forceful argument for a future 
threat from man-made climate change. Based upon our current assessment 
of the science, the threat does not seem to be an existential one on 
the timescale of the 21st century, even in its most alarming 
incarnation. However, the perception of man-made climate change as a 
near-term apocalypse and alignment with range of other social 
objectives has narrowed the policy options that we're willing to 
consider.
    Effectively responding to the possible threats from a warmer 
climate is challenging because of the deep uncertainties surrounding 
the risks both from the problem and the proposed solutions. The 
wickedness of the climate change problem provides much scope for 
disagreement among reasonable and intelligent people.

    With regards to energy policy and its role in reducing emissions, 
consider the following three options:

  1.  Do nothing, continue with the status quo.

  2.  Rapidly deploy wind and solar power plants, with the goal of 
            eliminating fossil fuels on the timescale of 1-2 decades.

  3.  Re-imagine 21st century electric power generation and 
            transmission systems with new technologies that improve 
            energy security, reliability and cost while at the same 
            time minimizing environmental impacts.

    The current climate/energy policy debate seems to be #1 versus #2; 
in my opinion, neither of these options gets us where we want to be in 
terms of thriving economically and minimizing the environmental impact 
of energy generation. #3 in principle can usher in a new era of 
abundant, clean energy, but we can't put an arbitrary timetable/
deadline on this; it will require substantial research, development and 
experimentation. In the meantime, muddling along with some combination 
of #1 and #2 can improve the situation somewhat. Ironically, acting 
urgently on emissions reduction by massively deploying solar and wind 
power could entrench natural gas in the power system and turn out to be 
the enemy of a better long-term solution. Focusing on #3 has the 
potential to eliminate the current gridlock of debating #1 versus #2, 
and provides the best option for a long-term solution.
    A regional focus on adapting to the risks of climate change allows 
for a range of bottom-up strategies to be integrated with other 
societal challenges, including growing population, environmental 
degradation, poorly planned land-use and over-exploitation of natural 
resources. Even if the threat from global warming turns out to be 
small, near-term benefits to the region can be realized in terms of 
reduced vulnerability to a broad range of threats, improved resource 
management, and improved environmental quality. Securing the common 
interest on local and regional scales provides a basis for the 
successful implementation of climate adaptation strategies and 
addressing near-term social justice objectives.

    Bipartisan support seems feasible for pragmatic efforts to:

    <bullet> accelerate energy innovation

    <bullet> build resilience to extreme events

    <bullet> pursue no regrets pollution reduction measures

    Each of these three efforts has justifications independent of their 
benefits for climate mitigation and adaptation. These three efforts 
provide the basis for a climate policy that addresses near-term 
economic and social justice concerns and the longer-term goals of 
mitigation.
    The role for climate science and climate scientists in the policy 
process has been complex. In the past 20 years, dominated by the IPCC/
UNFCCC paradigm, scientists have become entangled in an acrimonious 
scientific and political debate, where the issues in each have become 
confounded. This has generated much polarization in the scientific 
community and has resulted in political attacks on scientists on both 
sides of the debate. A scientist's `side' is often defined by factors 
that are exogenous to the actual scientific debate. Debates over 
relatively arcane aspects of the scientific argument have become a 
substitute for what should be a real debate about politics and values.
    Scientific progress is driven by uncertainty and disagreement; 
working to resolve these uncertainties and disagreements drives the 
knowledge frontier forward. Attempts by government policy makers to 
intimidate climate scientists \34\ whose research or public statements 
are perceived to be in opposition to preferred policy narrative are 
enormously detrimental to scientific progress.
---------------------------------------------------------------------------
    \34\ http://www.hillheat.com/articles/2015/02/24/rep-grijalva-asks-
for-conflict-of-interest-disclosures-from-gops-go-to-climate-science-
witnesses.
---------------------------------------------------------------------------
    I am making one `ask' today: please allow climate science and the 
research process to proceed unfettered by political attacks on 
scientists. We need to acknowledge that climate-related decisions 
involve incomplete information from a fast-moving and irreducibly 
uncertain science. Uncertainty and disagreement is what drives the 
knowledge frontier forward; please help that process to flourish. Only 
in the most simple-minded policy making frameworks does scientific 
uncertainty and disagreement prescribe `no action.'
    It is up to the political process (international, national, and 
local) to decide how to contend with the climate problem, with all of 
its uncertainties, complexity and wickedness. The challenge is to open 
up the decision-making processes in a way that is more honestly 
political and economic, while giving proper weight to scientific 
reason, evidence and uncertainty.

                                 ______
                                 

Question Submitted for the Record by Rep. Hice to Dr. Judith A. Curry, 
            President, Climate Forecast Applications Network
    Question 1. Dr. Curry, as you are probably aware, Dr. William 
Happer, Professor Emeritus of Physics and Princeton University, 
suggests that climate modeling is an extremely difficult problem 
because the climate involves the interaction between the atmosphere and 
the oceans, which are both extremely turbulent fluids. He notes that it 
is not difficult to write the partial differential equations that 
describe our climate, but that even our most powerful supercomputers 
cannot solve these equations leading scientists to replace them with 
simplified computer models that toss out much of the detail of the real 
atmosphere and oceans leading us to less robust data and conclusions.

    How would you respond to that?

    Answer. To answer questionssuch asthe oneput forward by 
Representative Hice, in 2017 I wrote a report entitled ``Climate models 
for the layman'' that explains how climate models work and their 
limitations. An online link to the report: https://www.thegwpf.org/
content/uploads/2017/02/Curry-2017.pdf.

    With regards to Representative Hice's specific question regarding a 
statement by Dr. William Happer, I regard Dr. Happer's statement to be 
correct. Thejustification for my conclusion is summarized in the report 
linked to in the previous paragraph.

                                 ______
                                 

    The Chairman. Thank you very much, and to the whole panel, 
our appreciation for your valuable and important testimony.
    Let me turn to my colleague, Mr. Neguse, for questions.
    Mr. Neguse. First, I want to thank the Chairman for holding 
this hearing. It is a breath of fresh air, particularly for us 
new Members who have just joined the Congress, that the Natural 
Resources Committee is undertaking this important work, and 
that its first hearing is on such an important topic.
    I would respectfully disagree with Dr. Curry, in terms of 
your framing around the existential nature of this issue. I 
think climate change is an existential threat.
    I think of this in the context of being a new, young 
father. I am 34 years old. My wife and I just had our first 
child, a daughter, Natalie. She is 5 months old. Much of our 
work here in the Congress is ultimately making sure that the 
world she inherits is a better one than perhaps the world that 
we inherited. And one need look no further than the IPCC report 
and a variety of other studies to see just how catastrophic the 
consequences of climate change will be for her generation if we 
don't take decisive action, and if we don't do so now.
    And I can tell you that, certainly in my community in 
Colorado, we are feeling the impacts of climate change already. 
I have a report here that I will respectfully ask be submitted 
into the record, the most recent report from the Department of 
the Interior with respect to the impacts of climate change in 
Rocky Mountain National Park.
    I represent Colorado's 2nd Congressional District, Northern 
Colorado. Fifty-two percent of my district is Federal public 
land, and we see very clearly the impacts of climate change in 
Rocky Mountain National Park and elsewhere. My constituents see 
it every day. Rising temperatures have led to snow melting 
faster, which causes increased flooding and erosion, and 
negatively impacts Colorado's fresh water supply, 70 percent of 
which comes from our snow. At Rocky Mountain National Park, the 
studies have shown that temperatures have risen 3 to 4 degrees, 
significantly affecting the plants and animals that call the 
park home.
    I am very excited about the opportunity to take 
comprehensive, holistic, and significant action to solve this 
issue, actions like the Green New Deal, which I support, along 
with several of my colleagues. I have introduced legislation to 
protect over 400,000 acres of public lands in my state, in 
Colorado, so that we can ensure that those lands are not sold 
to the highest bidder and opened up to oil and gas development 
and the rest.
    So, at the end of the day, I think this was the defining 
issue of our time. And I thank the witnesses, with respect to 
their activism, in trying to push for common-sense solutions 
that will ultimately protect the planet for all of our 
children.
    My question goes to Mr. Hollie. I heard your testimony with 
respect to energy poverty, I think, as you described it, and 
the issues around affordability. I don't know if you are aware 
of this--I think you referenced natural gas as being ``clean.''
    According to the NAACP's Clean Air Task Force report, 
African-American communities face an elevated risk of cancer 
due to air toxic emissions from natural gas development, and 
over 1 million African-Americans live in counties that face a 
cancer risk above the EPA's level of concern from toxins 
emitted by natural gas facilities. I am curious how you would 
respond to that statistic.
    Mr. Hollie. My response would be all of our energy sources 
have some type of downside to them, even coal. We look at the 
wind turbine----
    Mr. Neguse. Well, I would agree with you there, Mr. Hollie.
    Mr. Hollie. Right, right.
    Mr. Neguse. Coal certainly has a negative impact, as does 
natural gas----
    Mr. Hollie. If I could finish, sir.
    Mr. Neguse. Proceed.
    Mr. Hollie. Even the wind turbines this winter, a couple 
weeks ago, couldn't operate. The downside. But we know for a 
fact that liquid gas, natural gas, is the cleanest way and the 
most affordable way right now for people in this country.
    Mr. Neguse. Well, I am not sure I understand your 
comparison of windmills to the toxins and potential cancer 
risks associated with natural gas emissions.
    But nonetheless, I will say, I understand that you have 
written a number of editorials. And obviously, from your 
testimony today, support the development of fossil fuels, coal, 
and natural gas.
    Mr. Hollie. Energy exploration.
    Mr. Neguse. And I understand that your organization, 
Reaching America, that you have utilized that organization to 
make those views known. Is that a fair----
    Mr. Hollie. That is a fair assessment.
    Mr. Neguse. I also understand that your organization is a 
partner with a group called Explore Offshore. Is that correct?
    Mr. Hollie. We are a member of that organization, yes.
    Mr. Neguse. OK, and that is a project of the American 
Petroleum Institute.
    Mr. Hollie. They are associated with them, yes.
    Mr. Neguse. OK. Does your organization receive any funding 
from fossil fuel companies or corporations?
    Mr. Hollie. No, we do not.
    Mr. Neguse. With that, I yield back. Thank you, Mr. Chair.
    The Chairman. Thank you very much.
    Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chair.
    I am curious, Reverend Yearwood. From your testimony it 
sounds like you support the Green New Deal. Is that fair?
    Rev. Yearwood. That is correct.
    Mr. Gohmert. You had mentioned your position as a chaplain 
in the military. And some of us have real concerns about 
closing every base and cutting our military by 50 percent, but 
that is interesting that you support those.
    Rev. Yearwood. Well, the military was one of the key 
institutions of our government that actually has spoken about 
the threats of climate change.
    Mr. Gohmert. Right. And Green New Deal is going to take 
care of that by making us basically indefensible. With a 50 
percent cut, we will not be able to protect ourselves properly 
from the threat of Russia, China, or even ISIS from there, and 
closing all bases overseas, but that is interesting.
    Also, I couldn't help think back as I listened to Mr. 
Hollie, your testimony, to the giant here in the U.S. Congress 
named John Dingell. He was chairman of the Energy and Commerce 
Committee when Democrats took the majority back in January 2007 
through January 2011. For 50 years he and, as I understand, his 
father had wanted some kind of universal health care, and he 
was thrilled that he was going to get to chair that into being.
    But my understanding was the Speaker of the House, now 
Speaker again, wanted two things out of his Committee. They 
wanted the universal health care bill, Obamacare, and cap and 
trade. And he made the public statement, because that jacks up 
the cost of energy, like you have been talking about. And, as 
you know, the people that are impacted, it isn't the rich, they 
can afford it.
    So, he made the statement the cap and trade bill is not 
only a tax, it is a great big tax. And, of course, the Nation's 
poor were the ones that would be most impacted. But because of 
his comment he was fired as chairman of the Energy and Commerce 
Committee. Mr. Waxman was made chairman. And, as he famously 
said, ``We not only don't want your input, we don't need your 
votes.'' So, he pushed it through, and it never became law.
    But as you testified, that does come back to mind. And I 
had an 80-year-old lady say, ``I am scared. My cost of energy 
to heat my home is going up. And I was born in a home that only 
had a wood-burning stove, and I am afraid I am going to die in 
a home that can only afford a wood-burning stove.''
    And I said, ``I am really sorry to be the bearer of bad 
tidings, but probably your wood-burning stove is going to end 
up being illegal.''
    But it is tragic. And it is the poor that suck it up, when 
we push these kinds of things. So, I appreciate your 
perspective very much.
    Dr. Curry, let me ask you very quickly. Has there ever been 
any climate change more dramatically than what killed off the 
dinosaurs?
    Dr. Curry. Climate has always varied. Sometimes there are 
extreme events that maybe get an asteroid or comet impact, or 
something like that. But the ocean, volcanic eruptions, there 
are many sources of natural variability on all timescales.
    So, when you see the climate changing, you can't 
immediately assume that it is all caused by humans. There is a 
strong natural----
    Mr. Gohmert. Do you think we are causing the polar ice caps 
on Mars to melt?
    Dr. Curry. No.
    Mr. Gohmert. That is probably the sun, apparently.
    But let me--my time is running out, but I appreciate all 
our witnesses. But the comparison of the civil rights effort, I 
mean, that was unconstitutional activity by the government, and 
it just strikes me so ironic that if the climate change and the 
Green New Deal comes into law, it is saying we are giving up 
our freedom and putting all our faith in the government because 
of the civil rights violations to begin with. It is just rather 
ironic.
    But my time has expired, I yield back.
    The Chairman. Mr. Levin.
    Mr. Levin. Thank you, Chair, for this opportunity to 
finally, after many years, have a hearing on climate change. 
And I want to thank our witnesses, along with our governors, 
who signaled a bipartisan desire to see strong Federal action.
    Let's cut to the chase. The overwhelming scientific 
consensus has left no doubt--no doubt--that we are facing a 
climate crisis. And it is long past time to stop undermining 
science and evidence. The report that we saw this morning from 
NOAA and NASA shows that the 5 warmest years recorded since 
1880 are the last 5 years. This isn't that hard to figure out. 
Now must be the time to accept reality. This is reality. And we 
have to begin focusing on solutions.
    And I want to thank the young people who are here for 
leading the way on initiatives like the Green New Deal.
    We must not wait to accelerate the deployment of renewable 
energy or energy-efficient buildings or electrify our 
transportation infrastructure.
    I am from the great state of California, where I have been 
involved in climate and energy policy for a long time, and I 
have heard the nay-sayers every step of the way. But what we 
have done is we have demonstrated beyond any shadow of a doubt 
that, if you protect the environment and innovate with the 
clean energy jobs of the future, you will grow the economy at 
the same time. And our solar industry in California is a clear 
example of that.
    We must also not advocate our global leadership on the 
issue of climate change, or subcontract our energy and 
environmental policies to a handful of big polluters who ignore 
science and common sense. And we must not sit by as 
unprecedented climate change impacts the health and safety and 
the economy of our communities.
    I am confident that a strong majority of the American 
people are with us, and even a strong majority of my colleagues 
in the House and Senate. The question is whether we have the 
courage to act on climate. And this hearing is just one step of 
many that we are going to need to take in that direction.
    The transition to a more sustainable future has been my 
life's work, and will be a critical aspect of my service in 
Congress. I hope that we can put politics aside, if even for 
just a moment, and focus instead on science and evidence and 
our future.
    And like my friend, Mr. Neguse, I have two young children 
at home, and this is about leaving the planet better for them 
than how I found it.
    With that, I actually do have a couple of questions for Dr. 
Cobb.
    Dr. Cobb, I want to thank you for your work. We have seen 
numerous studies over the past few months that climate change 
is wreaking havoc on ecosystems, and that we have potentially 
lost two-thirds of all species that were on the planet before 
the Industrial Revolution. Why is the preservation of 
biodiversity so important for resiliency to climate change, and 
what steps can we take to preserve biodiversity, particularly 
as the Natural Resources Committee?
    Dr. Cobb. Thank you for that question, the opportunity to 
address that.
    I think I made clear in the testimony that I provided that 
any number of indicators of our ecosystem's health are already 
showing steady declines with respect to climate change impacts. 
The National Climate Assessment lays that out item by item.
    But to your question about biodiversity. Diversity of 
species is critical to the function of ecosystems, and, in 
turn, those ecosystem services that we rely on. We might turn 
to the functioning of coastal ecosystems and recognize the 
importance of functioning ecosystems that provide fishermen 
with livelihoods and many other kinds of tourist-related 
services, as well.
    So, this has a distinct value to Americans that has been 
shown again and again and again. And certainly science tells us 
some of the ways that this Committee can help to promote 
biodiversity and increase ecosystem resilience and, therefore, 
support the communities that depend on these services. Some of 
those ways include, as I mentioned, protecting the lands that 
these species depend on, and using the best science and 
evidence to inform the support of these ecosystems and the 
critical species that support their function. So, that is just 
one way.
    Thank you very much.
    Mr. Levin. I represent a district, California's 49th 
District, with over 50 miles of coastline. And my friends at 
the Scripps Institute of Oceanography agree with you, Dr. Cobb, 
that we absolutely must face the reality, the changing 
temperature of our oceans, the obvious coastal erosion, 
unprecedented. And if we don't act, future generations will 
regret our lack of action. Now is our moment to lead. This 
should not be a partisan issue; this should be based on science 
and evidence. And if we can actually focus on facts for a 
change, maybe we will get somewhere. I yield back.
    Ms. Yeampierre. I would like to, if possible, make a 
comment, as one of two women of color that is on this panel, 
particularly because climate change is going to impact front-
line communities more than any other. And the people who are 
leading the women of color in these communities, their children 
are the ones that are going to be impacted.
    We can't talk about these ecosystems devoid of talking 
about the impact on human rights and on the people affected. 
More than 5,000 Puerto Ricans died. That is not nothing. That 
is not just an ecosystem. That was an entire island that was 
affected.
    In the Philippines around 2012, 10,000 Filipinos died. We 
have had Superstorm Sandy that affected life all over New York 
City and New Jersey, and the infrastructure was destroyed.
    So, I just really don't want to talk about this in silos, 
we are not talking about whole communities, and not treating 
this issue in a way that is holistic. If we don't lead with how 
this is going to impact the people least responsible for 
creating climate change, the people who live within their 
carbon footprint, the people who are engaged in urban forestry, 
doubling the amount of open space, stopping the siting of power 
plants, then we will----
    Mr. Grijalva. I am not cutting you off----
    Ms. Yeampierre [continuing]. Miss the reason why we have 
this panel.
    The Chairman. The time is up, and we want to stay within 
the protocol.
    Ms. Yeampierre. All right. Thank you, I appreciate it, but 
I just want to make sure----
    The Chairman. With all due respect. Thank you.
    Ms. Yeampierre [continuing]. That folks address those 
things.
    The Chairman. Mr. McClintock, please.
    Mr. McClintock. Thank you, Mr. Chairman. I do want to talk 
about science and evidence.
    Professor Curry, are we experiencing the highest 
temperatures in the planet's history.
    Dr. Curry. No.
    Mr. McClintock. When have we seen higher temperatures?
    Dr. Curry. Oh, a very long time ago, and at least in some 
regions, they may be equally as high about 1,000 years ago, 
during the Medieval warm period.
    Mr. McClintock. So, long before the Industrial Revolution?
    Dr. Curry. Yes.
    Mr. McClintock. Are we experiencing the highest levels of 
atmospheric carbon dioxide in the planet's history?
    Dr. Curry. No. Historically, we are a little bit on the low 
side, actually, in the current era.
    Mr. McClintock. Are we experiencing the worst droughts in 
recorded history?
    Dr. Curry. Definitely not.
    Mr. McClintock. Are we experiencing the most ferocious 
hurricanes in recorded history?
    Dr. Curry. No. In recent history, in the 1950s in the 
Atlantic, the land-falling hurricanes were actually worse than 
what we have seen in recent decades.
    Mr. McClintock. I am reminded of a poem by Ogden Nash, who 
wrote, ``The ass was born in March, the rains came in November. 
`Such a flood as this,' he said, `I scarcely can remember'.''
    But our recorded history, as well as our paleoclimatology 
informs us that there have been periods where carbon dioxide 
levels have been much higher than they are today, temperatures 
have been much higher and lower than they are today, and long 
before the significant carbon dioxide emissions of human 
civilization. Is that correct?
    Dr. Curry. Yes.
    Mr. McClintock. A study published in Lancet a few years ago 
noted that cold weather kills far more people than warm 
weather. What do you see as the greater threat?
    Dr. Curry. Well, obviously, it depends on the location. But 
I think the statistics, overall, across a wide variety of 
locations do support that cold weather kills more than hot 
weather.
    Mr. McClintock. During the recent cold wave, those states 
that relied excessively on wind and solar saw electricity 
outages. Would you say that the greatest single threat in 
extreme weather, either hot or cold, is a lack of electricity?
    Dr. Curry. Yes. Even during hurricanes, what kills a lot of 
people is the lack of electricity, which has all sorts of 
trickle-down effects on other things that are needed to save 
lives during those experiences.
    Mr. McClintock. How does an over-reliance on wind and solar 
generation affect our ability to provide abundant, reliable, 
and affordable electricity?
    Dr. Curry. Well, it doesn't work without natural gas. 
Natural gas is the perfect partner for wind and solar, because 
of the intermittency, because you can fire up a gas burner and 
fire it back down. And energy trading, natural gas trading, is 
what has, I think, stabilized the price of natural gas that 
actually helps make wind and solar be affordable.
    So, until such time as there are advanced storage 
technologies, we are going to rely on natural gas as a partner.
    Mr. McClintock. Let me get to that, if I can.
    Mr. Hollie, we heard earlier from the governor of 
Massachusetts about all of their green energy policies, also 
the governor of North Carolina. My home state of California has 
adopted even more radical policies. They say they are helping 
the poor, but I just checked. In Massachusetts, those policies 
have produced the 11th highest gasoline prices in the country. 
California now has, as a result of these policies, the 2nd 
highest gasoline prices in the country. Massachusetts and 
California are tied for the 6th highest electricity prices in 
the country.
    How are poor people helped by paying needlessly sky-high 
prices for gasoline and electricity?
    Mr. Hollie. Sir, I don't have a lot of research to point 
to. All I have is my anecdotal research. The thousands of 
people that I speak to struggle every single day to pay their 
electric bill. And the one thing that they talk about is just 
the need for affordable, reliable energy that we have here in 
this country. So, if we can find a way to reduce the 
regulations that allow people access to that energy, I think it 
would go a long way in helping them to reduce the cost of 
energy for them.
    Mr. McClintock. Dr. Curry, a gridlocked car creates twice 
the NOx contaminants and six times the carbon contaminants per 
mile traveled as a car moving at peak efficiency. Doesn't it 
make more sense to add highway capacity to resolve our chronic 
traffic congestion if carbon emissions are the goal of 
reducing?
    Dr. Curry. A transportation policy is much tougher to 
figure out than power production. It is a very complex issue, 
and I would like to see us re-envision what that should be for 
the 21st century, rather than adding patches to our current 
system.
    Mr. McClintock. If we are going to be able to store less 
moisture in the mountains as snow, does it make sense to build 
more dams, so that we can store surplus water from wet years so 
that we have it in dry years?
    Dr. Curry. It certainly does. Water resource management is 
a big issue, but there are environmental challenges associated 
with dams and reservoirs, also. So, it needs a lot of planning 
to make all this do what you really want it to do.
    Mr. McClintock. Thank you.
    The Chairman. Ms. Haaland.
    Ms. Haaland. Thank you, Chairman. Welcome to all of you and 
thank you so much for taking time to be with us today. I would 
like to take this opportunity to thank you and my colleagues 
for entrusting me with the responsibilities of Vice Chair of 
this Committee and the chairship for the Subcommittee on 
National Parks, Forests, and Public Lands. I look forward to 
working with you and my colleagues to protect our public lands 
and to meet our obligations to our indigenous communities.
    To that point, this hearing is important and an appropriate 
place to begin this Congress. As we heard from all our 
witnesses, climate change poses an unprecedented threat to our 
communities and our environment.
    Last year, in my state of New Mexico, the Ute Park Fire 
burned tens of thousands of drought-stricken acres, while the 
city of Santa Fe experienced a once in 1,000-year flood. 
Meanwhile, a vast methane cloud hovers over the northwest 
corner of New Mexico, and this Administration has worked to 
weaken the rules on methane emissions from oil and gas 
operations.
    Methane is more than 80 times more powerful than carbon 
dioxide at trapping heat, and is responsible for about a 
quarter of the warming we are experiencing today.
    Nearby in Arizona, Hurricane Rosa inundated the Tohono 
O'odham Nation, nearly overtopping their dam, trapping 
residents behind impassible roads, and forcing evacuations. 
Hurricanes have almost never reached this part of Arizona 
before.
    Climate change has forced us to live in a new normal, in 
which fires, floods, droughts, and hurricanes wreck our 
communities and our national heritage. And it is now time for 
us to act.
    I first would like to just thank Ms. Nazar for your 
commitment and your sacrifice to the things you believe in. I 
almost want to apologize to you and the youth of this world, 
who go to bed every night worrying about what will happen to 
our communities because of climate change. And I just want to 
recognize your presence here. It means a great deal to me and 
to many of us. So, thank you very much.
    Ms. Yeampierre, I think you are best equipped to answer 
this question, so I will ask it to you.
    Right now, the EPA and Interior Department are run by 
former lobbyists for coal and oil companies. The New York Times 
reported last year that a coal magnate was essentially getting 
his entire wish list of energy de-regulations approved by this 
Administration.
    What role do you believe this corporate capture of the 
Administration will play in being able to address the climate 
crisis?
    Ms. Yeampierre. I think that the de-regulation is 
exacerbating the climate crisis, particularly in front-line 
communities and in indigenous communities.
    You are from New Mexico, where you have nuclear energy and 
uranium in the lungs and the water and people. It is affecting 
60 nations and tribes. The decisions that are being made to 
support an old-school way of thinking about energy are really 
racing us toward extreme catastrophic events.
    The truth is that even in places like Kentucky, people are 
moving away from coal. One of our organizations, which is with 
the Climate Justice Alliance, Kentuckians for the Commonwealth, 
are working at operationalizing just transitions that move 
people away from having to depend on an economic system that 
has destroyed their lives and limited their livability.
    So, while people in communities are doing that, you have an 
EPA that is racing toward, actually moving policies that are 
basically taking us back in time. It is really dangerous, and 
it is a contribution to actually making us look like the day 
after tomorrow.
    And it is unfortunate that this old-school, dated way of 
thinking about how we basically consume and use energy is 
really creating more problems for our communities. I think 
that, honestly, people in different parts of the world are way 
ahead of us, and that the United States is really looking like 
this clunky old-school machine that can't keep up, not only 
with the technology, but the science. So, it is frightening.
    EPA has always had people in there that are in the pockets 
of the lobbyists, really slowing down the cogs and making it 
impossible for us to move as fast as the climate is changing. 
So, now what we are seeing is really dangerous. That is what I 
would contribute.
    Ms. Haaland. I appreciate that very much.
    Mr. Chairman, in the interest of time, I will submit other 
questions in writing. Thank you.
    The Chairman. Thank you very much.
    Mr. Hern.
    Mr. Hern. Thank you, Mr. Chairman. Thank you all for 
testifying today as expert witnesses on climate change. Each of 
you has spent your careers involved in climate policy and have 
helped to generate various solutions to the problem of climate 
change.
    Mr. Hollie, your work to reduce energy poverty has been 
truly remarkable, and your testimony today reflects your well-
versed stances on climate change issues. One part of your 
testimony that interests me a lot was where you wrote, ``The 
government requires environmental impact studies to estimate 
the effects of projects like roads and buildings on nature. 
Shouldn't the government act similarly when it comes to how 
regulations impact the population?''
    Mr. Hollie. Yes, sir.
    Mr. Hern. Would it surprise you that we tried to put that 
into a rule last week and it was voted down by our friends 
across the aisle? So, we would evaluate the impact of our 
policies on a cost benefit analysis.
    Mr. Hollie. Sure. No, I did not know that, sir.
    Mr. Hern. Thank you.
    Dr. Curry, your testimony reflects your wealth of knowledge 
on these issues, and gives great insight into the climate 
change debate. In particular, you discuss the increasing 
concern you have that the climate change problem has been over-
simplified. I agree with this statement, as I feel that an 
overly simple, one-size-fits-all--we are smarter than everybody 
else in Washington, DC--as we heard our opening statements 
today from our Ranking Member--approach to climate change 
should lead to serious issues, as what may work for one state 
may not work for another.
    Would you please elaborate on the problems that an 
expensive, one-size-fits-all, top-down solution might cause, if 
implemented?
    Dr. Curry. Well, a whole host of unintended consequences, 
some of which we can't even imagine right now. And because of 
that, we need to avoid the hubris of thinking that we can 
predict what the future climate will do, and that we can 
actually control the climate.
    If we were somehow successful in putting all these policies 
into place and getting CO<INF>2</INF> emissions down to zero, I 
think we would be unpleasantly surprised at how little impact 
this actually has on the things that worry us most about 
extreme weather events, and things like that.
    Sea level rise is not--we are not going to turn that one on 
a dime, things like that. It is very tough to change the 
climate, has a whole lot of inertia in the system. Many 
timescales. The Pacific responds very slowly. So, even with 
success in reducing the CO<INF>2</INF> emissions down to zero, 
it would be a long time to turn the corner on having that 
actually impact the climate.
    So, we need to do some of the more bottom-up type things. 
And the states are wonderful laboratories for trying out all 
these adaptation resilience kind of policies, and I think we 
should try to figure out how to help that flourish, the so-
called innovation dividend.
    Mr. Hern. Since you brought that up, last week I had the 
fortunate opportunity--we have an organization called Grand 
River Dam Authority that is a public-private partnership in our 
state of Oklahoma that has been around since the 1930s that was 
formed originally by the government through some grants to 
build some dams to lock up energy so that we could use that to 
handle flooding on the Arkansas River, the McClellan-Kerr 
Navigation System, as it came to be in the 1960s.
    We also have in our industrial park in Pryor, Oklahoma, the 
largest Google server farm in their company. It relocated there 
to take over a Gatorade plant with the qualification that they 
would only use renewable power. We had a conscious decision, 
even though it is not in my district--the state, the GRDA had a 
conscious decision to make on free-market enterprise. Do we 
want that there? Do we want to go through the cost of upgrading 
the grid, upgrading the technology to conform to the purchase 
of Google's 100 megawatts? And we felt like the cost benefit 
analysis of that made sense.
    It was a small plant at that time. It has since quadrupled 
in size. And, from all the Google people that I have talked to, 
they are so proud of the relationship in a free-market 
environment, working with renewable credits to get to where 
they are at so that, on the grid, GRDA has a great mixture of 
hydro, solar, wind, coal, and natural gas.
    To the testimony from Mr. Hollie earlier, that you have to 
have backups on this, so that the cost of having a battery-type 
environment when you don't have solar and you don't have wind, 
that you can actually have power to fuel and to warm our homes 
and businesses around our particular districts and our states 
and our country.
    Thank you for your time. Thank you for testimony. I yield 
back my time.
    The Chairman. Thank you, sir.
    Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chair.
    First of all, thank you for your leadership on the most 
urgent threat facing our planet: climate change.
    I want to thank the panelists for being here today. And in 
particular, I am very happy to see my good friend, Reverend 
Yearwood, here today.
    Reverend, I have enjoyed working with you over the past 2 
years, and I look forward to our continued partnership. In that 
vein, Reverend, I want to start with you.
    Amazingly, it has been articulated today that there is a 
mistaken idea that moving toward a clean energy economy will 
hurt low-income communities and communities of color. I need 
you to speak to what the rising health and economic costs of 
climate change would be for those communities, specifically if 
we fail to move in that direction.
    Rev. Yearwood. Thank you, Congressman, for that question.
    First, we can definitely fight poverty and pollution at the 
same time. And let me say clearly that the assessment that Mr. 
Hollie--respectfully, I disagree completely with what he put 
forth as the idea that people of color are not concerned about 
the climate, about climate change, about the environment, about 
their health.
    Mr. Hollie. I didn't say that.
    Rev. Yearwood. We know that 200,000 Americans are dying 
yearly because of air pollution. We know that we have millions 
of children and millions of adults who have asthma, emphysema, 
and are getting cancer. We know that 68 percent of people of 
color, black people, are living within 30 miles of coal-fired 
power plants. We know that the de-regulations or the mercury 
rule and the car rule and many of the rules being rolled back 
by EPA would hurt people of color.
    So, one of the things here that I just want to say. And, 
Mr. Hollie, please understand the reason why I was making this 
assessment is this. For me, as a minister, having buried a 
young girl because of asthma, that mother no longer cares about 
how much that utility bill would have cost. That child I had to 
bury because of asthma. She would have much more been concerned 
about dealing with a particular matter in the atmosphere.
    So, the health concerns are one of the key concerns that 
are within the communities of color. The idea that we are not 
also concerned about our future and the future generation is, 
frankly, absurd. The idea that we don't care that we first and 
worst will be hurt by climate change is outlandish.
    The fact, for me, being from Louisiana and seeing what 
happened with Hurricane Katrina, or Harvey in Houston, those 
are the kind of things that have a huge impact on communities 
of color. So, to sit up here honestly at this critical moment 
and to then purport the idea that people of color are somehow 
making the decision that they are more concerned about their 
energy bill than their health, their energy bill than their 
life, then that is literally ludicrous.
    If you think anybody--and it was come to earlier about this 
was Black History Month and civil rights. The idea that poverty 
is also put upon with communities of color is also outlandish. 
This is not about this poor people of color, but poor white 
people also, as a matter of fact, want clean air and clean 
water.
    As I said earlier, climate change is a civil rights issue.
    Mr. McEachin. Thank you very much, Reverend.
    Am I pronouncing this correctly? Is it Yeampierre, Ms. 
Yeampierre?
    Ms. Yeampierre. It is Yeampierre, yes.
    Mr. McEachin. How do we make sure that, as we move toward a 
clean energy economy, that we invest greener technologies in 
low-income communities and communities of color so they are not 
left behind? How do we do that?
    Ms. Yeampierre. Whether it is in Michigan, whether it is in 
Detroit or in Brooklyn, New York, or Richmond, California, 
whether it is fracking going on in people's backyards, 
communities of color and front-line communities, whether they 
are in Indian Country, are working on operationalizing just 
transitions. They are looking at different economies of scale, 
anything from community-owned solar to trying to figure out how 
they can create food systems that will withstand the changes 
that are coming.
    And there has to be an investment in those communities. And 
we also need to start thinking about governance differently. 
Climate change is going to disrupt governance. The idea is that 
we need to start creating transformational partnerships with 
communities that are on the front line, and that are engaging 
in this kind of transformation.
    The other thing is that the needs are different everywhere 
in the country. So, the needs of a rural community are not the 
same as an urban community. Folks that are dealing with 
mountain-top removal in Appalachia are dealing with different 
kinds of challenges. So, it isn't cookie-cutter, but it is a 
commitment to try to work with people on the ground, and being 
led by the ground in partnership, because that is what it is 
going to take.
    Climate change is not going to--top-down solutions are not 
going to be sustained over time. They just don't work. People 
on the ground are going to have to lead. And we are going to 
have to be partners in those kinds of decisions, and sharing 
and creating a space where we share expertise and information 
with each other.
    When the Reverend is talking about Louisiana, in my mind 
all I am thinking about was those floating black bodies. As 
people of African ancestry, that is the truth for all of us all 
over the United States, right? I think about Puerto Rico, I 
think about Louisiana. So, I think that it is really important 
that those communities that are leading and are doing the work, 
that they not be marginalized, and that they be supported and 
invested in.
    The Chairman. Thank you----
    Mr. McEachin. Thank you so much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. I am going to 
concentrate with my questions and comments on the proposals 
that are out there to deal with climate change. I don't want to 
talk about climate change, the science behind it, the man-made 
role. I want to talk about the proposals that are on the table 
to deal with it.
    And the main proposal that I have seen so far is the Green 
New Deal. I hear that my colleagues on the other side of the 
aisle may have some proposals coming forward to flesh this out, 
but right now, all we have is the Green New Deal, and we 
already have presidential contenders endorsing it.
    We have the Green Party, that has talked a lot about it. I 
am going to use a few of their facts and figures. They say--and 
if you go to GP.org--that the transition to a Green New Deal 
will cost $13 trillion.
    Right now, here is our dependence on hydrocarbons: 82 
percent of U.S. electricity is generated from coal, natural 
gas, and nuclear, leaving 18 percent from renewables and 
hydropower.
    When it comes to transportation, we have 30,000 commercial 
air flights a day. I don't think a single one of those is 
powered by renewables. We have 250 million cars and trucks on 
the road. People in the United States travel 11 billion miles a 
day, and the vast majority of that is hydrocarbon powered. Some 
electric vehicles, some alternatives like propane and bio-fuel.
    The Department of Defense, in particular--I am also on the 
Armed Services Committee--they spend a lot of money on energy, 
$13 billion a year. Much of that, if not most of that, is 
hydrocarbon-based.
    According to the Green Party, in their plan for the Green 
New Deal, we would have to close all overseas bases and we 
would lay off 1.4 million people, both military and civilian.
    To me that is very extreme. And this has to do something 
with the goal of no hydrocarbons by the year 2030, 11 years 
from now. So, I am going to just ask--I will start with you, 
Dr. Hollie. Is that realistic?
    Mr. Hollie. No, sir. And you actually mentioned that 80 
percent of our total energy sources come from fossil fuels. I 
know that it has been that way since the turn of the century. 
It was that way when my grandfather was a black coal miner in 
southwest Virginia. It was that way when I was working for 
Norfolk Southern. And even the last EPA Director, Gina McCarthy 
under the Obama administration, stated that we were going to 
need fossil fuels at least through 2050.
    Mr. Lamborn. And Dr. Curry?
    Dr. Curry. The problem that I see with a massively 
ambitious top-down policy like the Green New Deal is: (a) what 
if we can't do it? What if we are wrong? And there are all 
sorts of things. It is not a problem that is amenable to that 
kind of a solution. That is why I propose more of a bottom-up 
kind of approach, the so-called innovation dividend, so we can 
try lots of different things, lots of solutions, and see what 
works.
    Mr. Lamborn. I have to really agree with you. I think that 
the ingenuity and hard work and creativity of the American 
people is a real solution here, and should not be left out. We 
shouldn't--like you said, top-down from government coercion, 
government control, that sounds too much like a Soviet, 5-year 
plan, or something like that, which is simply not going to 
work.
    I understand that if someone comes into Congress--you only 
have to be 25 years old to be a Member of Congress, and we have 
young people that bring a lot of great qualities, but maybe 
they don't bring a lot of life experience. So, I guess I can 
understand if someone hasn't a lot of life experience, and they 
are proposing something that is extremely unrealistic. Well, 
impossible, impossible.
    But what I don't understand is if adults and grown-ups, who 
are older and more mature, are also advocating something that 
is impossible. And I see that with some of the presidential 
contenders who are throwing their names out there. They are 
plugging for something that is literally impossible.
    With that, Mr. Chairman, I am going to yield back the 
balance of my time.
    The Chairman. Well, let me put a pitch in for myself.
    Ms. Yeampierre. Mr. Chairman, with all due respect, I just 
want to say----
    The Chairman. No, we have to follow----
    Ms. Yeampierre [continuing]. Our movements have been led by 
young people.
    The Chairman. We have to follow the protocol.
    Ms. Yeampierre. Our movements of civil rights divestment in 
South Africa, all led by young people. Let's not try to put 
them in a box.
    The Chairman. Ma'am, the protocol and decorum for this, 
with all due respect, please. I mean we are trying to run this 
meeting in the way that is orderly. And while you might have an 
opinion and want to interject it at that moment, unless you are 
recognized, you can't. I appreciate that.
    Let me put in a plug for myself, Mr. Lamborn. As an old-
timer, I happen to agree with some of what our colleagues are 
saying here today, and some of our witnesses have said today. I 
don't know if that puts me out of step with my age group, but I 
would suggest that the vast majority of Americans feel the way 
I do.
    But anyway, Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman and Ranking Member.
    I am very proud to be the Representative of a leading 
voice, an activist on climate change, Ms. Elizabeth Yeampierre.
    Thank you for your service and for your activism. I would 
like to ask you the first question. As an advocate for climate 
justice with its ethical and political implications, what would 
you say to someone who thinks we should ignore climate change, 
despite low-income communities being disproportionately at risk 
from its impact?
    Ms. Yeampierre. Congresswoman, it is wonderful to see you. 
You have been a champion for environmental justice for years, 
since even before it became a sexy thing. You have been doing 
it for all of your districts for so many years that I am 
honored to be speaking in front of you.
    I don't engage climate deniers. I think it slows us down 
and wastes our time. I engage people who are at the margins, 
who don't know that they are living at the intersection of 
injustice and climate change. And I try to inspire and provide 
information to those people, so that they know that their lives 
are at risk and the future of their children is at risk.
    I want folks in our communities to know that things like 
power plants that are run by gas produce NOx, SOx, PM2.5 and 
all of those particulates that get trapped in the air passages 
of our children and our elders because our elders are going to 
be tremendously vulnerable in the face of climate change.
    So, that is what I do. I try to reach people's hearts and 
minds. But first they need to have hearts and minds.
    Ms. Velazquez. Thank you.
    Ms. DiPerna, in which countries do you see businesses 
making the greatest efforts toward addressing climate change? 
And why is that the case?
    Ms. DiPerna. Thank you.
    Ms. Velazquez. And I am sorry if this question has been 
asked.
    Ms. DiPerna. No, no.
    Ms. Velazquez. I was absent from this important hearing 
because I am the Chair of the Small Business Committee and we 
were holding a hearing on the government's shutdown impact on 
small businesses.
    Ms. DiPerna. Well, first of all, the question wasn't asked. 
And second, as a New Yorker, I am also delighted to see you. 
And thank you for your decades, years of service.
    With regard to companies in our country, it isn't that they 
are not doing anything. On the contrary, they see the risks, as 
I said earlier, and are being driven to take proactive measures 
to protect their business supply chains, and so on.
    But with regard to your question, these companies operate 
in a global environment more and more. For example, you have 
the European Union, which has instigated very, very strong 
regulations, particularly looking at the fiduciary 
responsibility of companies and are they operating within 
parameters that recognize the risks they may face. And, of 
course, shareholders are ordinary people very often. They are 
not just rich people--401(k)s are involved.
    With regard to some interesting things going on, for 
example, China--I know there is lots of controversy about 
China, but China has declared an ecological civilization. It is 
built into their national program. They are making tremendous 
investments in solar energy. Morocco has taken tremendous steps 
to establish targets.
    And with all due respect to all the debate, this is not an 
either-or situation. Precisely, we need an energy mix. 
Precisely, we have to use a bit of natural gas to make 
renewables less expensive. I mean, this is definitely not an 
either-or. And it is certainly not a choice between top-down or 
bottom-up. This is a very complex problem, which has been 
stated. Everybody has a stake in it. And companies are very 
much benefiting and would benefit from a smoothing of the 
requirements, so that they don't have to have different 
operations, one country to the other. That is very expensive.
    Ms. Velazquez. Thank you.
    Ms. DiPerna. Thank you.
    Ms. Velazquez. Ms. Yeampierre, a huge barrier for 
sustainable communities, whether large or small, seems to be 
management, waste management. As a member of the Transform 
Don't Trash campaign, how can we urge largely populated cities 
to be aggressive when asking steps toward zero waste?
    Ms. Yeampierre. I was invited to speak in Amsterdam by an 
international organization that is trying to get businesses to 
become more sustainable and take responsibility for their 
practices. All over the world, businesses know that they will 
suffer and they will lose income because of climate change.
    And, then, locally, we have been working with small 
businesses to become climate adaptable, because they are 
literally the heart of, the economic driver in our community.
    So, I think, going toward zero waste is really important. 
When we started working with the small businesses, and we were 
trying to get them to move away from Styrofoam, we also 
presented them with alternatives that were affordable and the 
idea of creating cooperatives, so that they could reduce the 
cost. There are all kinds of things that we can do with 
businesses so that we can move them away from using products 
and working in a way that makes them unsustainable. So, that is 
happening locally.
    Ms. Velazquez. Thank you.
    I yield back my time.
    The Chairman. Thank you.
    Mr. Gosar.
    Dr. Gosar. I thank the Chairman. I just heard that we are 
citing China as being a good actor. A net increase in new coal 
plants were built in 2017 with China accounting for 34 of the 
61 megawatts that were actually generated. Wow, China is the 
biggest polluter in the world. India right behind them.
    Mr. Hollie, I have to come back to you. I have heard 
statements that climate impacts different communities.
    Mr. Hollie. Yes, sir.
    Dr. Gosar. What communities are hit most by the policies 
like the Green New Deal?
    Mr. Hollie. Minority and low-income communities, just 
because we cannot afford the rise in cost that will be 
associated with these policies.
    And, like I said, many people are struggling right now to 
pay their energy bills.
    Dr. Gosar. Well, this is interesting, because I keep 
hearing this thing about energy. Are you familiar with baseload 
energy versus intermittent energy?
    Mr. Hollie. Somewhat.
    Dr. Gosar. OK. So, I guess what we have to look at is 
baseload energy happens all the time, 24/7. But intermittent, 
like solar and wind, if the wind doesn't blow and the sun 
doesn't shine, it isn't going to work.
    Mr. Hollie. Right.
    Dr. Gosar. OK? There is a very big difference along those 
applications.
    The problem that we have with baseload energy, with new 
technology, is molten-salt batteries don't work real well. The 
other side is not interested in rare earths, and the mining 
capacities of those that actually help us with new technology 
called battery capacity. So, we have a problem.
    Because it is convenient in Phoenix, Arizona, when you need 
energy at the middle of the day, when you don't get it, or at 
night time, when temperatures are at 120. It is kind of hard to 
tell minority groups, ``Just live with it.''
    Mr. Hollie. Yes, sir. I would agree with that. And that is 
one of the things that I would disagree with the Reverend here 
is I never said that, we don't agree that climate change does 
not exist. However, my point is until we find a way, a solution 
to harness those renewables to sustain ourselves, then we have 
to use what we've got. And we have an abundance of affordable 
and reliable energy in this country, and we need to use it.
    Dr. Gosar. Oh, I agree. In fact, one of the companies in 
northern Scottsdale in Arizona uses sun during the day and gas 
at night, because it delivers uniform delivery on our grid. So, 
very important to do that.
    But I want to concentrate on something else. I am a 
dentist, so science is a big deal to me. And if we are talking 
about carbon sequestration, it seems to me like what we want to 
have is a very dynamic, engaging forest.
    Dr. Curry, would you agree?
    Dr. Curry. I think land use is a very big deal, including--
--
    Dr. Gosar. I want to get more specific: photosynthesis, 
like plants take in clean oxygen, right, and produce carbon 
dioxide. No, they take in carbon dioxide, produce oxygen. They 
take in dirty water, produce clean water.
    So, it seems to me, if we really want to address this, we 
want to look at the best carbon trap we have, which is a 
healthy, vibrant forest. And I have heard over and over again 
that climate change is the problem with our forest burning up. 
That is not the case.
    I am from Arizona. Ponderosa forests are 40 to 60 trees per 
acre. That is fact. That is what a healthy forest should look 
like. But what we have, because of lawsuit after lawsuit after 
lawsuit, we have 800 to 1,000 trees per acre. These starving 
trees raise to the sunlight, and what ends up happening is when 
we get these fires, they are no longer landscape fires on the 
grasslands, they are treetop fires.
    And I want to quote exactly what we saw last year. 
Wildfires--this is PolitiFact: ``Wildfires produce more of one 
key pollutant, particulate matter, than cars both in California 
and nationwide. Particulate matter is a mixture of microscopic 
particles and liquid droplets that, when inhaled, can affect 
the heart and lungs and cause serious health problems.''
    I heard this all along this panel right here, about asthma 
and all that stuff. Listen to this: ``According to U.S. 
Geological Survey, wildfires in California in 2018 released 
enough--roughly equivalent of 86 million tons--of heat-trapping 
carbon dioxide, the same amount of carbon emissions that are 
produced in a year providing electricity for an entire state.''
    So, if we are going to concentrate on this carbon 
sequestration, I think we ought to be looking at our forests 
being adaptive. I am part of the Western Caucus. We had a 
number of different opportunities to look at good neighbor. In 
fact, one of the most liberal bastions in my state, Coconino 
County, passed a bond levy to actually start thinning the 
forest so they had a dynamic interface to stop the fire, Number 
1, and Number 2 is get it more dynamic for carbon 
sequestration.
    Would you agree with all those synopses, Dr. Curry?
    Dr. Curry. Most of it. The life cycle of a forest is--it 
has a complex interaction with CO<INF>2</INF>. At some point it 
becomes not so much of a sequestration. So, managing forests to 
prevent wildfires and to maximize the CO<INF>2</INF> uptake is 
certainly a sensible policy.
    Dr. Gosar. And one quick indulgence. A dynamic forest is 
young trees, medium-growth trees, and old-growth trees, because 
what we know is young and medium-growth trees produce more 
oxygen than they do carbon, as the older the tree gets the less 
they do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Horsford.
    Mr. Horsford. Thank you very much, Mr. Chairman. I am very 
excited that you have given us this opportunity to really have 
a robust discussion around climate change. This is an issue 
that is very important to each of us individually, 
collectively, to the future of our children.
    My oldest son, who is now a freshman in college, asks me 
all the time, ``When is Congress going to act to address the 
issues of climate change?''
    As we have heard here today, the impacts of climate change 
become greater every year. In my home state of Nevada, a desert 
state, it is particularly vulnerable to the changing climate. 
By 2050, it is projected that the city of Las Vegas will 
experience 106 days per year with temperatures upwards of 105 
degrees.
    To provide context, Las Vegas currently averages 70 days 
per year with temperatures more than 100 degrees. It is hot in 
Vegas. But the fact that we are having those many days per year 
over 100 degrees is just one example.
    Even more concerning, by 2050 the typical number of heat-
wave days in Nevada is projected to increase from 15 days per 
year to 55 days per year. According to the Ready Public Service 
campaign of the Department of Homeland Security, extreme heat 
results in the highest number of annual deaths among all 
weather-related hazards.
    Mr. Chairman, sadly, seniors and children are at greatest 
risk of death during heat waves. Lake Mead, which supplies 
water to more than 90 percent of Las Vegas, and roughly 25 
million people throughout Nevada, California, and Arizona, 
continued to deplete at an alarming rate, due to increasing 
temperatures caused by climate change. And in 2016, Lake Mead, 
which is fed by the Colorado River, reached its lowest level on 
record, and now holds just 37 percent of its original capacity.
    As occurrence of extreme heat rises, the depletion of the 
Colorado River and Lake Mead is projected to worsen in the 
future. Additionally, more than 1.2 million people living in 
Nevada, or 46 percent of our state's population, live in areas 
at elevated risk of wildfire. As extreme temperatures increase, 
especially in drought years, the risk of wildfires will 
continue to rise.
    So, the people of Nevada, like people across the United 
States, are looking for solutions. And they are looking for 
this Congress to act.
    Ms. DiPerna, I want to ask you whether your organization, 
which works with businesses to understand the business investor 
impacts, if you can talk to me about the heat waves and drought 
and how they are a significant concern, and how water issues, 
particularly around companies and investors, are dealing with 
this particular issue, and if there are examples that you know 
in our home state of Nevada.
    Ms. DiPerna. Well, as a matter of fact, today we are having 
our supply chain conference in Las Vegas. And, as I mentioned 
in my testimony, Caesar's Entertainment is very concerned about 
the cost of water. They have facilities in very dry areas, 
southern Africa, and so on. Dr. Pepper, I mentioned, is also 
concerned. Every company is worried about water.
    And Dr. Cobb mentioned the carbon pricing. I think it would 
be interesting for you all to know that most companies in the 
country, including Oklahoma Gas and Electric, are using 
internal carbon prices to gauge the potential cost of these 
sort of hidden hitchhikers, which are these carbons that go up 
into the atmosphere that we don't see, but which cost us 
something. So, people are using an internal carbon price in 
anticipation of regulation, or to deal with existing 
regulations in the jurisdictions where they are covered by 
regulation.
    On the water matter, because of increasing water scarcity, 
companies have begun to also set an internal water price, 
because they need to begin to come to terms with the increase 
in cost of water, the increasing scarcity. And even more to the 
point, the increasing lack of usability. Water is potable or 
usable. We are beginning to have less potable and certainly 
less usable, unless we spend a lot of money to clean it.
    Now, here is where the impact on the poor is potentially 
catastrophic, because they will have to pass that cost on. 
There will never be one other drop of water on this Earth. It 
is all here. You can't make water, so we are into an ultimate 
scarcity there. And I think that I can provide you with a lot 
of information from our water disclosure. Company after company 
is concerned about water. And the IT industry, in particular, 
because they need to cool those data centers with water. So, 
their energy costs are climbing. Cooling is becoming a very big 
cost.
    So, it is a complex system. You can't tease out one little 
bit. But you are the government of the entire country, and so 
we all look to you to put all the pieces together.
    Thank you.
    The Chairman. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Dr. Cobb, I missed some of your comments earlier, but I 
understand you had raised concerns about energy production and 
fisheries, and I just wanted to make note that my home state of 
Louisiana, we produce more offshore energy in the Federal 
waters than any other state. In fact, I think we would take the 
other five states that produce and multiply times four, that is 
how much offshore energy we produce.
    We are also the top fisheries producer, in terms of 
commercial fisheries in the continental United States. There is 
a habitat that is created by the energy infrastructure. I don't 
think we have done a great job managing that, in regard to--I 
think we can take advantage of rigs to reefs programs and 
others. But I did just want to make note that that is really 
the hotbed ecosystem or habitat for many of the fisheries in 
Louisiana.
    In the first panel, I brought up a letter from May 2018. 
That letter was signed by Senators Schumer, Cantwell, Menendez, 
and Markey. That letter was written to the President of the 
United States, asking that the President work with our OPEC 
allies to increase--to increase--global oil production.
    I am going to say that again. Senators Menendez, Markey, 
Cantwell, and Schumer, May 2018, asking the President to work 
with OPEC to increase oil production, saying that increased 
production will result in lower energy prices.
    Yet, it was interesting in that the first panel, some of 
the governors that were here, talked about how their efforts to 
help to reduce emissions were benefiting everyone. But I 
looked, for example, at the state of Massachusetts that was 
represented here. Their kilowatt hour electricity cost was more 
than twice that, more than 200 percent that of my home state of 
Louisiana, which I just thought was interesting.
    Mr. Hollie, I am just curious. Could you share any 
reflections on just that balance of how do we pursue a climate 
policy agenda legislation, while at the same time not adversely 
affect our citizens? How do we strike that balance?
    Mr. Hollie. Yes, sir. I actually had the chance to visit 
your state over the summer.
    Mr. Graves. Come back any time, any of you.
    Mr. Hollie. Down to Port Fourchon, where we had the 
opportunity to see where all the on-shore operations take place 
for all the offshore.
    And also when I took the tour of Port Fourchon, they talked 
about how countries come from around the world to study the 
Gulf because it is so rich in wildlife and the environment.
    So, what that says to me is that energy exploration can co-
exist with wildlife and the environment. So, as long as we have 
that to look at and use as a gauge, I think that is a great 
place to start.
    Mr. Graves. Thank you. And let me be clear, we have some 
extraordinary coastal challenges.
    Ms. Yeampierre--did I do that OK? We can engage. I am not a 
climate denier, I just have really struggled with how we find 
the right balance in sort of criteria that we use here to move 
forward on legislation.
    I am curious, Dr. Curry. One of the rule changes that I 
tried to make in this Committee last week was a rule that would 
cause us to evaluate the job impacts and economic impacts, and 
try to quantify temperature and sea rise impacts and other 
things on legislation we progressed.
    Do you have any thoughts on how do we properly use criteria 
or metrics to determine which legislation is actually going to 
be helpful, in balance, in what may be weighted too hard toward 
job losses, or too hard toward other things that is just not 
really advancing a public win or a public goal? Does that make 
sense?
    Dr. Curry. Well, sort of. This is why I called climate 
change a wicked problem, why myself and others refer to it as a 
wicked problem. It is hard to even define the problem. The 
boundaries just seem to ever expand. The impacts are very wide. 
No matter what policy we propose, there is bound to be 
unintended consequences. So, it is a big challenge to sort 
through all that.
    And the approach to me that seems to work the best is where 
communities and states work to secure their common interests, 
which are very specific to their location, their economy, their 
population, their vulnerabilities, as we try to sort through 
this, rather than a big, top-down mandate.
    So, that is my thinking on the subject. I wish there was a 
simple silver-bullet solution, but there isn't.
    Mr. Graves. Thank you. And to comply with my commitment, I 
am going to yield back my 8 seconds.
    The Chairman. You are very kind, thank you.
    The bell was about votes being called. Before adjourning 
the meeting, let me thank the panel, the second panel. As many 
of the questions, the perspectives my colleagues have brought 
up when they asked you questions--and rather than repeat the 
same ones over again, let me just thank Ms. Nazar. Thank you 
very much. I think your presence here and your testimony talks 
about us looking beyond our nose, as Members of Congress, to 
think about the future, your generation, generations to follow.
    And this issue of climate change, what I did learn today is 
that maybe we are not in full-blown, full-throated denial as we 
were. We are into a different phase, which is climate change 
avoidance. And what can we do to stall, change, tinker with the 
science, raise issues that are meant to slow any solution-
seeking or policies or legislative initiatives to deal with 
this very urgent problem.
    Ms. Yeampierre and Reverend, thank you very much. The 
front-line communities and communities most impacted in a 
disparate way by unabated climate change and no solution 
seeking and an afterthought in the policy making, you made sure 
that those are front and center in the discussion around issues 
of justice, equity, access, and inclusion, and I want to thank 
you for that. That is very, very important.
    Too often, we make policies at this level, and then have to 
backtrack because, obviously, the impact was never dealt with. 
And as we seek solutions, that equity has to be part of the 
discussion all the way down.
    Dr. Cobb, thank you very much for bringing to bear what I 
think is essential in the solution seeking, that is empirical 
information and science, and we will go from there. That having 
been absent in the last 2 years, that is no longer going to be 
the case. Our guidepost needs to be science and facts and 
empirical information. And if those are the guideposts, we can 
move forward. And I have every intention of making sure that is 
central to the discussion.
    I also want to thank Ms. DiPerna for bringing to light 
about businesses. And with or without regulations, that, in 
anticipation of what is coming, they are preparing. And just as 
the economic engines of this country of us in this world are 
preparing for climate change, we should be preparing for 
everyone else, to make sure that we confront this and deal with 
it. So, I appreciate your information very much.
    And on that note, let me thank you. It is the first 
hearing. I appreciate your indulgence, as I failed to manage 
the clock accurately, but it all worked out. And we will go 
forward. Each Subcommittee will now take upon itself from this 
Committee to have a similar hearing dealing with that 
jurisdiction, as we go forward.
    This Committee, as Mr. Bishop said, has a lot under the 
jurisdiction. We feel we over 20 percent of the legislative 
adaptation and solution--public lands, waters, oceans, and the 
jurisdiction that is brought, and we intend to pursue it that 
way. It is a task that we can't ignore, and your testimony 
today made it abundantly clear that it is something we can't 
ignore, and in urgency we must deal with it with haste, and not 
stall, avoid, or ignore it.
    Thank you very much.
    The meeting is adjourned.

    [Whereupon, at 1:36 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of the Hon. Debbie Dingell, a Representative in 
                  Congress from the State of Michigan
    Thank you, Chairman Grijalva and Ranking Member Bishop, for 
convening this hearing to discuss the threat of climate change and next 
steps to address this issue.
    As a Member of Congress from Michigan, the Great Lakes State, I 
understand firsthand the importance of addressing climate change and 
safeguarding our environment for future generations.
    The Great Lakes are fundamental to our Nation's environmental and 
economic well-being. As the single largest surface freshwater source on 
Earth, the Great Lakes watershed supports countless wildlife and serves 
as an important source of fresh drinking water to tens of millions of 
Americans, whose health is directly tied to that of the Great Lakes 
ecosystem.
    Climate change threatens to destabilize this ecosystem, putting the 
health and well-being of my constituents and millions of others at 
risk.
    Additionally, we have already seen the impact of climate change 
through increased incidence of deadly wildfires in the western United 
States, as well as stronger and more destructive hurricanes on the Gulf 
and Atlantic Coasts.
    The cause of these extreme events is indisputable. According to the 
Trump administration's own National Climate Assessment released last 
year, ``Earth's climate is now changing faster than at any point in the 
history of modern civilization, primarily as a result of human 
activities.''
    Simply put, climate change is already threatening our public 
health, our economy, and our national security.
    The magnitude of this threat demands bold action, and we must work 
to address this urgent issue without delay.
    We must promote renewable energy, commit to investing in new 
technology, and redouble our conservation efforts to mitigate, adapt, 
and reverse the growing climate threat.
    Additionally, we must rejoin our partners in the international 
community by committing to the Paris Climate Accord and taking strong 
action to limit future greenhouse gas emissions.
    There is not a single American who will be unaffected by climate 
change, and I look forward to working with all my colleagues, 
regardless of background or party, to take serious action to address 
climate change.
    It is my hope that today's hearing underscores the need for bold 
climate action. We must put our differences aside and take the 
aggressive actions needed to safeguard our planet for future 
generations.

                                 ______
                                 

   Prepared Statement of the Hon. Jody B. Hice, a Representative in 
                   Congress from the State of Georgia
    Look, everyone knows I'm a dyed-in-the-wool Georgia Bulldogs fan, 
and it sure was fun seeing our two running backs face off in the Super 
Bowl this past Sunday. However, I would be remiss if I did not thank 
former Georgia Tech professor, Dr. Judith Curry and current Georgia 
Tech professor, Dr. Kim Cobb for being with us today. The Georgia 
Institute of Technology is one of the most important public research 
universities in our Nation and the world, and we thank you both for 
lending your expertise to us here today.

                                 ______
                                 

                                          FACEBOOK,
                                             Washington, DC

                                                   February 8, 2019

Hon. Raul Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva, Ranking Member Bishop, and distinguished 
members of the Committee:

    We appreciate your leadership in convening the hearing, ``Climate 
Change: Impacts and the Need to Act,'' and we thank you for the 
opportunity to submit this statement. Climate change deserves close 
attention and creative solutions by both policymakers and industry 
leaders.
    At Facebook, we are prioritizing our work to combat climate change, 
especially as it relates to our own sustainability objectives. As you 
know, sustainability within corporations is more than simply operating 
responsibly. We are working to minimize the impact of our energy, 
emissions, and water usage, protect workers and the environment in our 
supply chain, and partner with others to develop and share solutions 
for a more sustainable world. Our goal is to support the communities we 
are a part of and to make a bigger positive impact on the world.
    Creating and maintaining facilities that contribute positively to 
our communities is a top priority for our company. Specifically, 
Facebook has set a science-based target to reduce our emissions by 75 
percent by 2020. Between 2011 and 2017, Facebook avoided emitting over 
2 million metric tons of CO2 thanks to these efforts--the equivalent of 
taking 266,000 vehicles off the road for a year.
    Facebook was one of the first companies to commit to supporting our 
facilities with 100 percent renewable energy in 2011, and our goal is 
to hit that target by 2020. Our data centers are among the most energy 
efficient in the world. For each new data center Facebook builds, we 
add new renewable energy to the same electric grid as our facilities, 
and we do it in a way that often increases options for other businesses 
in those communities. We are proud that just last month, a report from 
Bloomberg New Energy Finance found that Facebook was the largest 
corporate purchaser of renewable energy last year worldwide.
    Facebook embraces our responsibility and opportunity to impact the 
world beyond our operations. For example, we use rigorous sustainable 
design standards to ensure that our facilities are constructed with 
responsible materials, utilize natural daylight, and are energy and 
water conscious. All of our data centers have achieved LEED Gold 
certification.
    As the Committee continues its work on climate change, we look 
forward to being part of the conversation on how companies like 
Facebook can have an impact on this important issue.

            Sincerely,

                                              Kevin Martin,
                                Vice President, U.S. Public Policy.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Grijalva

  --  NOAA Report, U.S. and Global Climate for 2018.

Submission for the Record by Rep. Neguse

  --  ``Climate Change in Rocky Mountain National Park,'' 
            National Park Service, U.S. Department of the 
            Interior, March 2014.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
